<html>
<title> - TO EXAMINE THE IMPACT AND EFFECTIVENESS OF THE VOTING RIGHTS ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
    TO EXAMINE THE IMPACT AND EFFECTIVENESS OF THE VOTING RIGHTS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2005

                               __________

                           Serial No. 109-70

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-033                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                      STEVE CHABOT, Ohio, Chairman

TRENT FRANKS, Arizona                JERROLD NADLER, New York
WILLIAM L. JENKINS, Tennessee        JOHN CONYERS, Jr., Michigan
SPENCER BACHUS, Alabama              ROBERT C. SCOTT, Virginia
JOHN N. HOSTETTLER, Indiana          MELVIN L. WATT, North Carolina
MARK GREEN, Wisconsin                CHRIS VAN HOLLEN, Maryland
STEVE KING, Iowa
TOM FEENEY, Florida

                     Paul B. Taylor, Chief Counsel

                      E. Stewart Jeffries, Counsel

                          Hilary Funk, Counsel

                 Kimberly Betz, Full Committee Counsel

           David Lachmann, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              

                            OCTOBER 18, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Chairman, Subcommittee on the Constitution..     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Member, Subcommittee on the 
  Constitution...................................................    11

                               WITNESSES

The Honorable Jack Kemp, former Member of Congress, former 
  Secretary of Housing and Urban Development, Founder and 
  Chairman of Kemp Partners
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6
The Honorable Marc Morial, President and CEO, National Urban 
  League
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
Ms. Ann Marie Tallman, President and General Counsel, Mexican 
  American Legal Defense and Educational Fund
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Mr. Joe Rogers, former Lieutenant Governor of Colorado
  Oral Testimony.................................................    21
  Prepared Statement.............................................    24

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Member, Subcommittee on the Constitution.......................    51
Prepared Statement of the Honorable Melvin L. Watt, a 
  Representative in Congress from the State of North Carolina, 
  and Member, Subcommittee on the Constitution...................    52
Prepared Statement of the Honorable Linda T. Sanchez, a 
  Representative in Congress from the State of California........    53
Prepared Statement of the Rainbow Push Coalition on 
  Reauthorization of the Voting Rights Act, submitted by Mr. 
  Chabot during the hearing, at the request of Mr. Conyers.......    55
Inserted into the record by Chairman Chabot on October 20, 2005:
    Prepared Statement of Hazel Dukes, President, New York State 
      Conference of NAACP Branches, before the National 
      Commission on the Voting Rights Act, June 14, 2005.........    59
    Prepared Statement of Joseph D. Rich before the National 
      Commission on the Voting Rights Act, June 14, 2005.........    65
    Prepared Statement of Dolores Watson, Member, Long Island 
      ACORN, before the National Commission on the Voting Rights 
      Act, June 14, 2005.........................................    72
    Prepared Statement of Carlos Zayas before the National 
      Commission on the Voting Rights Act, June 14, 2005.........    73
    Prepared Statement of the Honorable William Lacy Clay, Member 
      of Congress, submitted to the National Commission on the 
      Voting Rights Act, July 20, 2005...........................    79
    Prepared Statement of Gwen Carr before the National 
      Commission on the Voting Rights Act, July 22, 2005.........    81
    Prepared Statement of Carol Juneau before the National 
      Commission on the Voting Rights Act, July 22, 2005.........    87
    Prepared Statement of Stephen Laudig, Attorney, submitted to 
      the National Commission on the Voting Rights Act, July 22, 
      2005.......................................................    92
    Prepared Statement of the Honorable Gwen Moore, Member of 
      Congress, before the National Commission on the Voting 
      Rights Act, July 22, 2005..................................   125
    Prepared Statement of the Honorable Barack Obama, Senator, 
      submitted to the National Commission on the Voting Rights 
      Act, July 22, 2005.........................................   128
    Prepared Statement of Mark Ritchie, President, Institute for 
      Agriculture and Trade Policy, before the National 
      Commission on the Voting Rights Act, July 22, 2005.........   130
    Prepared Statement of Elona Street-Stewart, Chair, St. Paul 
      Board of Education, before the National Commission on the 
      Voting Rights Act, July 22, 2005...........................   133
    Prepared Statement of Alice Tregay before the National 
      Commission on the Voting Rights Act, July 22, 2005.........   135
    Prepared Statement of Ihsan Ali Alkhatib, Board President, 
      Arab-American Anti-Discrimination Committee, before the 
      National Commission on the Voting Rights Act, July 22, 2005   138
    Prepared Statement of Bradford Brown before the National 
      Commission on the Voting Rights Act, August 4, 2005........   142
    Prepared Statement of Marlon Primes before the National 
      Commission on the Voting Rights Act, August 4, 2005........   145
Inserted into the record by Mr. Scott (as requested during the 
  hearing):
    National Commission on the Voting Rights Act, Transcript of 
      Southern Regional Hearing, March 11, 2005..................   148
    National Commission on the Voting Rights Act, Transcript of 
      Southwest Regional Hearing, April 7, 2005..................   226
    National Commission on the Voting Rights Act, Transcript of 
      Northeast Regional Hearing, June 14, 2005..................   312
    National Commission on the Voting Rights Act, Transcript of 
      Midwest Regional Hearing, July 22, 2005....................   370
    National Commission on the Voting Rights Act, Transcript of 
      South Georgia Hearing, August 2, 2005......................   462
    National Commission on the Voting Rights Act, Transcript of 
      Florida Hearing, August 4, 2005............................   569
    National Commission on the Voting Rights Act, Transcript of 
      South Dakota Hearing, September 9, 2005....................   643
    National Commission on the Voting Rights Act, Transcript of 
      Western Regional Hearing, September 27, 2005...............   734
    National Commission on the Voting Rights Act, Mid-Atlantic 
      Regional Hearing, October 14, 2005.........................   818
    National Commission on the Voting Rights Act, Mississippi 
      Hearing, October 29, 2005..................................   923
Inserted into the record by Chairman Chabot on October 20, 2005:
    Ellen Katz--Documenting Discrimination in Voting: Judicial 
      Findings Under Section 2 of the Voting Rights Act Since 
      1982. Final Report of the Voting Rights Initiative 
      University of Michigan Law School..........................   964
    Quiet Revolution in the South: The Impact of the Voting 
      Rights Act, 1965-1990. (Chandler Davidson & Bernard 
      Grofman, eds., 1994).......................................  1125
    Race and Redistricting in the 1990s (Bernard Grofman, ed., 
      1998)......................................................  1358
    Text of the Voting Rights Act of 1965, as amended............  1551

 
    TO EXAMINE THE IMPACT AND EFFECTIVENESS OF THE VOTING RIGHTS ACT

                              ----------                              


                       TUESDAY, OCTOBER 18, 2005

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Steve 
Chabot (Chair of the Subcommittee) presiding.
    Mr. Chabot. The Committee will come to order.
    We would like to thank everyone for being here today. This 
is the Subcommittee on the Constitution. I am Steve Chabot, the 
Chairman of the Committee. We are going to be having a series 
of hearings over the next 2 weeks. This is the first of eight 
and will be probably be followed up by additional hearings 
before this Committee on the Voting Rights Act after that.
    This is the first of a series of hearings that the 
Subcommittee will hold examining the Voting Rights Act, also 
known as the VRA. It has been 25 years since Congress last 
extended the number of the temporary provisions of the VRA. Six 
provisions will expire in 2007, including sections 4, 5, 6, 7, 
8 and 203.
    These hearings will examine the impact of the Voting Rights 
Act over the last several decades and its continued role in 
protecting minority voting rights.
    I would also like to add that as Chairman, I will make sure 
that these hearings are as thorough and as exhaustive as they 
have been in the past. I make that commitment because there is 
no right more fundamental than the right to participate in our 
democratic form of Government.
    The ability of our citizens to cast a ballot for their 
preferred candidate ensures that every voice is heard, most 
importantly, the right to vote safeguards our freedoms and all 
other rights enshrined in the Constitution. The sacredness of 
the right to vote is reflected in the protection afforded by 
the 15th amendment which States ``the right of citizens of the 
United States to vote shall not be denied or or abridged by the 
United States or by any State on account of race, color, or 
previous condition of servitude.''
    For too many of our fellow citizens in our history, this 
has not always been the case. Our country has had a troubled 
history of invidious and disparate treatment in the most 
fundamental process of a democracy, namely voting.
    The VRA pushed back against this history and challenged 
racial discrimination from a number of different angles. These 
hearings have taken on even greater importance in light of the 
impact that past proceedings of have had on judicial review of 
the Voting Rights Act. Beginning with the Supreme Court's 
decision in South Carolina v. Katzenbach in 1966, Oregon v. 
Mitchell in 1970, and later in the City of Rome v. the United 
States in the 1980's, the Supreme Court has consistently upheld 
the constitutionality of the Voting Rights Act based on the 
record established by Congress.
    Acknowledging the broad power of Congress to remedy racial 
discrimination under section 2 of the 15th amendment and the 
appropriateness of the Voting Rights Act in remedying that 
discrimination, the Supreme Court in Katzenbach held that ``as 
against the reserve power of the States, Congress may use any 
rational means to effectuate the constitutional prohibition of 
racial discrimination.'' This was clearly a legitimate response 
to the problem for which there is ample precedent under other 
constitutional provisions.
    In the Oregon case, the Supreme Court held that ``in 
enacting the literacy ban, Congress had before it a long 
history of the discriminatory use of literacy tests to 
disenfranchise voters on account of race and statistics which 
demonstrate that voter registration and voter participation are 
consistently greater in States without literacy tests.''
    Finally in the City of Rome case, the Supreme Court upheld 
the continued use of the Voting Rights Act's temporary 
provisions finding that ``in considering the 1975 extension, 
Congress gave careful consideration to the propriety of 
readopting section 5's preclearance requirement.''
    The VRA has become one of the most visible symbols of our 
Nation's progress toward becoming an integrated democracy. Its 
success is reflected in record numbers of African Americans, 
Asian American, Hispanics, Native Americans and Native Alaskans 
registering and turning out to vote and in the diversity of our 
local, State and Federal governments. In his March 15, 1965 
address to Congress, President Lyndon B. Johnson stated ``the 
Constitution says that no person shall be kept from voting 
because of his race or color. We have all sworn an oath before 
God to support and defend the Constitution. We must now act in 
obedience to that oath.''
    We, as elected officials, must continue to uphold that duty 
and ensure that the protections guaranteed in the Constitution 
are afforded to all citizens.
    We look forward to hearing from our distinguished panel 
this afternoon.
    And before I yield to the gentleman from New York, we 
generally would have all the witnesses testify and then we 
would question them. We are going to go a little bit outside 
that today because one of our distinguished panel, former 
Secretary Kemp has a plane to catch a little later and Mayor 
Morial is also still en route. So we are going to try to 
accommodate both of those gentlemen. And at this time, I will 
yield to Mr. Nadler for the purpose of making an opening 
statement.
    Mr. Nadler. Thank you, Mr. Chairman. Mr. Chairman I want to 
welcome our distinguished panel of witnesses and also thank you 
and Chairman Sensenbrenner for beginning the process of 
reauthorizing the Voting Rights Act. Although the sections 
requiring reauthorization do not sunset until 2007, it is not 
too early to begin consideration.
    The right to vote, the right to have a meaningful vote is 
fundamental to our system of Government and to our freedoms. 
Sadly, for much of this Nation's history that principle was 
honored in the breach. Indeed, much of the history of our 
country can be seen as successive efforts to extend to all 
Americans the promise of the principles on which our Nation was 
founded and we did not really begin to approach that until the 
Voting Rights Act was passed in 1965 and began to be 
implemented a year or so later.
    In that long march to freedom, the Voting Rights Act has 
played a central role. No one can deny that the act and its 
amendments has been instrumental in protecting and expanding 
the right to vote. As we consider reauthorization, we will need 
to examine not whether the act is still needed, but what, if 
any, modifications might be appropriate.
    That is why these hearings are so important.
    The Supreme Court has made clear that Congress, in enacting 
legislation, needs to make a clear record supporting its 
actions.
    I must add at this point, since the Supreme Court has 
constituted itself and these questions a super legislature 
especially when it comes to protecting individual rights 
against the actions of the States. We have all been elected to 
public office and so we are all intimately familiar with the 
workings of the electoral process. I represent parts of two 
counties covered by section 5's preclearance requirements, 
Manhattan and Brooklyn; that is, New York and Kings Counties. 
Our city is also home to main language minorities who also need 
the protections of the act. As the home to many new Americans, 
our board of elections must work with multiple language 
minorities who need assistance to be able to exercise their 
right to vote.
    My experience has shown that the act is still needed and 
that to the extent that the right to vote is safer now than it 
was 40 years ago, it is because the act is on the books and is 
working. I look forward to hearing from those who have been on 
the front lines from around the country to hear their stories 
and their analyses of the Nation's current needs.
    The Voting Rights Act is not simply a benefit to the 
disenfranchised, although they are its primary beneficiaries, 
but to all of society. We are all better off when every citizen 
has the real right to participate freely in the democratic 
process. As we try allegedly to bring democracy to Iraq, I hope 
we can all work together to ensure that our precious liberty is 
protected and enhanced at home. I thank you, Mr. Chairman. I 
look forward to the testimony of our witnesses. I yield back.
    Mr. Chabot. Thank you very much and all Members will have 
the opportunity to offer an opening statement if they chose to 
do so, but we will wait until we have heard from Secretary 
Kemp. And it is the practice of this Committee, Secretary Kemp, 
to swear all the witnesses. So if you wouldn't mind rising. We 
will wait for the mayor to come for you all to be sworn in as 
well.
    And if you would please right your right hand.
    [Witness sworn.]
    Mr. Chabot. Witness notes in the affirmative. And we 
welcome you here this afternoon. And you will be our first 
witness. And if I could give you a very brief introduction. 
Secretary Kemp has had a very distinguished career, first as a 
professional athlete; later as a Member of Congress, and also 
member of the cabinet; and now in the private sector where he 
currently serves on a number of Boards and lectures extensively 
on economic growth, free markets, free trade and tax 
simplification. From 1993 through 2004, Secretary Kemp served 
as co-director of the public policy institute, Empower America.
    Prior to his work in the private sector, Secretary Kemp 
served in both the executive and legislative branches of 
Government. From 1971 until 1989, he represented the Buffalo 
and Western New York district in the House of Representatives. 
Subsequently, he was Secretary under President, former 
President Bush, as Secretary for Housing and Urban Development. 
That was from 1989 to 1993. In 1996, he was nominated to be the 
Republican Party's candidate for vice-president of the United 
States.
    Secretary Kemp also finds time to time on various charities 
and boards, including serving as the vice chair of the NFL 
charities. Secretary Kemp, we are very honored to have you here 
today and your recognized for 5 minutes.

    STATEMENT OF THE HONORABLE JACK KEMP, FORMER MEMBER OF 
 CONGRESS, FORMER SECRETARY OF HOUSING AND URBAN DEVELOPMENT, 
             FOUNDER AND CHAIRMAN OF KEMP PARTNERS

    Mr. Kemp. Thank you, Mr. Chairman, Ranking Member, to all 
my old friends and colleagues, it is a pleasure to be back. I 
want to start where I finished my testimony. You all have a 
copy of it.
    I said if we are to be American, America, that is, to be 
that shining city on the hill as an example to the world of 
liberal democracy and equality of opportunity, let us start by 
recommitting ourselves to forging bipartisan solutions to the 
Nation's continuing civil rights challenges and problems, 
including this which we are talking about today, reauthorizing 
the special provisions of the Voting Rights Act. I want to be 
on the side of history, I wasn't there, Jerry, if you don't 
mind me saying that, on the front lines of the civil rights 
movement. I was playing professional football. But I am here 
today to testify on behalf of this important legislation and 
those sections which guarantee social justice and equality of 
opportunity.
    Let me say, it is a particular pleasure to be with Ann 
Marie Tallman, the President and General Counsel of the Mexican 
American Legal Defense and Education Fund, my old friend Joe 
Rogers, former Lieutenant Governor of Colorado, and, of course, 
Marc Morial, the new Chair and President of the Urban League, 
with whom I have been working on a Committee of Dennis Hastert, 
Speaker Hastert's called Saving America's Cities with Richard 
Daley, Anthony Williams, Marc Morial among others.
    The most fundamental right, as you said, Mr. Chairman, of 
our democratic system of Government, is the right of people to 
participate in the political process. As you mentioned, the 
15th amendment ensures the right of every American citizen, 
regardless of race, color or previous condition of servitude as 
it was enumerated in the 15th amendment, to vote and 
participate in the electoral process.
    As we have seen in previous elections, some local 
governments have actively, and in some cases, very 
aggressively, attempted to disenfranchise African American and 
people of color and other minority voters. To quote Chairman 
Sensenbrenner,'' while we have made progress and curtailed 
injustices, thanks to the Voting Rights Act, our work is not 
yet complete. ``We cannot let,'' he said, ``the discriminatory 
practices of the past resurface to threaten future gains. The 
Voting Rights Act must exist'' and exist, and I agree with his 
statement, Mr. Chairman, ``in its current form.''
    Of all the civil rights legislation that the Nation has 
enacted over the past 4 decades, the Voting Rights Act of 1965 
is arguably the most important, other than maybe the 
Emancipation Proclamation. Yes, every major piece of civil 
rights legislation has helped eliminate injustices such as 
discrimination in education, employment, and what I faced at 
HUD in housing.
    As Chief Justice Roberts recently said in his testimony 
before the Senate Judiciary Committee last month, the right to 
vote is fundamental because it is protective of every other 
right we have as citizens.
    That is why, in my opinion, Mr. Chairman, it is important 
that the Congress renew all three provisions that are set to 
expire as mentioned by Congressman Nadler: Section 5, which 
requires Federal preapproval for proposed changes in voting and 
election procedures in areas with a history of discrimination, 
section 203 which requires some jurisdictions to provide 
assistance in other languages to voters who are not literate or 
fluent in English and the portion of section 6 and 9 of the act 
which authorized the Federal Government to send Federal 
election examiners and observers to certain jurisdictions 
covered by section 5, where there is evidence of attempts to 
intimidate people of color and other minority voters.
    In my opinion, Mr. Chair, if section 5 is not extended, I 
am pleased to be here with Wade Henderson of the Leadership 
Council on Civil Rights, an old friend of mine from my 
congressional days and days at HUD, Wade has been a champion of 
making sure that this is done in a bipartisan basis. And he and 
his staff have made it very clear to me that if section 5 is 
not extended, if covered jurisdictions will not have to submit 
their voting changes to the Department of Justice, thereby the 
loss of Federal authority to control voting procedures could 
enable local governments to easily discriminate against 
minorities voters.
    For example, some areas have challenged minority black 
districts which changed elected positions to appointed and then 
transformed district elections to at-large elections. These 
measures are proven to weaken, in my opinion, the strength of 
minorities and are the main cause for our joint concern.
    Just close with this thought, Mr. Chairman, it was a 
Republican President, U.S. Grant, who sent Federal troops to 
enforce the Voting Rights Act of the 15th amendment in the 
early years of his Administration. It was President Eisenhower 
who sent Federal troops to enforce educational opportunity, 
Brown v. School Board, and I believe Lyndon Johnson deserved 
tremendous credit for his--not only his putting Voting Rights 
Act up in 1965, but to those Americans who did stand on the 
front lines, walked across Edmund Pettis Bridge, suffered dogs 
biting at them, snarling dogs, billyclubs and the violence that 
occurred over the Edmund Pettis Bridge on that first March led 
by our dear friend John Lewis.
    So renewing the Voting Rights Act is a way for us to renew 
our vows, to make what you said is America's promise, that 
every American will have confidence that his or her vote not 
only can occur, but actually counts. Thank you.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Kemp follows:]

             Prepared Statement of the Honorable Jack Kemp

    Just forty years ago, on a bridge outside Selma, Alabama, civil 
rights leaders and activists, led by Hosea Williams of SCLC, Reverend 
Fred Shuttlesworth, Ruby Sales and others, took to the streets in a 
peaceful protest for Voting Rights for African Americans. As they 
crossed the Edmund Pettus Bridge on the way to Montgomery, they were 
met with clubs, snarling dogs and violence. They were beaten and many 
severely injured, including a young SNCC activist named John Lewis, now 
Congressman Lewis of Atlanta, GA. But the activists did not march in 
vain.
    Five days later, President Johnson announced to a joint session of 
Congress that he would bring them an effective voting rights bill. 
Echoing the spiritual anthem of the civil rights movement, Johnson told 
the chamber that ``We Shall Overcome.'' A few months later, working 
with a bi-partisan group of members of Congress, Johnson made good on 
his promise and on August 6, 1965 signed into law the Voting Rights 
Act, hailed by many as perhaps the most effective and important civil 
rights law ever enacted since the Emancipation Proclamation.
    The most fundamental right of our democratic system of government 
is the right of citizens to participate in the political process. The 
Fifteenth amendment ensures the right of every American citizen, 
regardless of race, color, or ``previous condition of servitude'' to 
vote and participate in the electoral process. However, as we have seen 
in previous elections, some local governments have actively and in some 
cases aggressively attempted to disenfranchise African American and 
minority voters.
    To quote Chairman Sensenbrenner, ``while we have made progress and 
curtailed injustices thanks to the Voting Rights Act, our work is not 
complete. We cannot let discriminatory practices of the past resurface 
to threaten future gains. The Voting Rights Act must exist--and exist 
in its current form.''
    This year, all who care about social justice and equal opportunity 
in America share one over riding goal: that Congress needs to renew the 
provisions of the Voting Rights Act which are coming up for 
reauthorization next year and which ensure that our nation's government 
reflects the views, the values, and, most importantly, the votes of the 
people it serves.
    Of all the civil rights legislation that the nation has enacted 
over the past four decades, the Voting Rights Act of 1965 is arguably 
the most important. Yes, every major piece of civil rights legislation 
has helped to eliminate injustices such as discrimination in education, 
employment, and housing. But it is the Voting Rights Act that empowers 
Americans to take action against injustices by electing those who 
pledge to eliminate it and removing those who perpetuate it. As Chief 
Justice Roberts said in his testimony before the Senate Judiciary 
Committee last month, the right to vote is fundamental, because it is 
protective of every other right we have as citizens.
    African Americans in the South were prevented from voting by a 
battery of tactics--poll taxes, literacy tests that were for blacks 
only, and the crudest forms of intimidation. From the Southwest to some 
urban areas in the Northeast and Midwest, Latinos were discouraged from 
voting by subtler but also effective techniques that exploited the 
vulnerabilities of low-income newcomers, for whom English was a second 
language. Both groups were also the targets of districting designed to 
dilute their ability to elect officials of their own choosing--a 
fundamental freedom that all too many Americans take for granted.
    That is why it is so important that the Congress renew all three 
provisions that are set to expire: Section 5, which requires a federal 
approval for proposed changes in voting or election procedures in areas 
with a history of discrimination; Section 203, which requires some 
jurisdictions to provide assistance in other languages to voters who 
are not literate or fluent in English; and the portions of Sections 6-9 
of the Act which authorize the federal government to send federal 
election examiners and observers to certain jurisdictions covered by 
Section 5, where there is evidence of attempts to intimidate minority 
voters at the polls.
    The Voting Rights Act was reauthorized in 1970 and 1975. In both of 
these reauthorizations Congress heard extensive testimony concerning 
the ways in which voting electorates were manipulated through 
gerrymandering, annexations, adoption of at-large elections and other 
structural changes to prevent newly-registered black voters from 
effectively using the ballot. Congress also heard extensive testimony 
about voting discrimination that had been suffered by Hispanic, Asian 
and Native American citizens and the 1975 amendments added protections 
from voting discrimination for minority-language citizens.
    In 1982, in an effort shepherded by Chairman Sensenbrenner, the act 
was amended and section 5 was reauthorized through 2007. Congress also 
adopted a new standard, which went into effect in 1985, providing how 
jurisdictions could terminate (or ``bail out'' from) coverage under the 
special provisions of Section 4. Furthermore, after extensive hearings, 
Congress decided that Section 2 should be amended to prohibit vote 
dilution without a requirement of proof of discriminatory purpose.
    If Section 5 is not extended, the covered jurisdictions will not 
have to submit voting changes to the Department of Justice. Thereby, 
the loss of federal authority to control voting procedures could enable 
local governments to more easily discriminate against minority voters. 
For example, some areas challenge majority-black districts, change 
elected positions to appointive and transform district elections to at-
large elections. These measures have proven to weaken the strength of 
minorities and are the main cause for concern.
    Even now, forty years after the Voting Rights Act was passed by 
Congress, there are communities across the country where these 
provisions are still necessary. For example, the Department of Justice 
recently objected to a proposed annexation by the Town of North in 
Orangeburg County, South Carolina, because they concluded that the town 
did not provide equal access to the annexation process for white and 
black persons. In its September 16, 2003, objection letter, the 
Department stated that ``race appears to be an overriding factor in how 
the town responds to annexation requests.''
    In August 2002, DOJ objected to a proposal by the City of Freeport 
in Brazoria County, Texas, to return to using an at-large system of 
electing members to its city council, after Hispanic voters succeeded 
in electing their candidates of choice utilizing a court-ordered single 
member district system. A return to at-large council elections, DOJ 
concluded, ``would result in a retrogression of the ability of 
minorities to exercise the electoral franchise that they enjoy 
currently.''
    And despite requirements under Section 203 of the Voting Rights 
Act, no bilingual assistance was made available to Vietnamese voters in 
Harris County, Texas, until the Department of Justice and local 
activists intervened.
    Renew the Voting Rights Act and these problems won't disappear. But 
more Americans will have confidence that their votes really do count.
    If we are to be that ``shining city on a hill,'' as an example of 
liberal democracy and equality of opportunity let us start by 
recommitting ourselves to forging bipartisan solutions to the nation's 
continuing civil rights problems--including reauthorizing the special 
provisions of the Voting Rights Act. Let's carry on the historically 
important work that remains to become a ``more perfect union'' with 
equal justice and a government of, by and for the people.

    Mr. Kemp. That may be the first time I have ever been on 
time in my congressional career.
    Mr. Chabot. We are impressed. And normally we would take 
the testimony here, but again we are going to question Mr. 
Secretary at this time. And I recognize for myself for 5 
minutes for that purpose. Secretary Kemp, what has been the 
direct and indirect impact of the Voting Rights Act on minority 
voting rights over the last 40 years, both in covered 
jurisdictions and in noncovered jurisdictions in your opinion?
    Mr. Kemp. Well, I am sure that Marc Morial and Ann Marie 
Tallman, and of course, my old friend Joe Rogers can better 
address that issue. But for instance, the town of North in 
Orangeburg County, South Carolina, concluded that the town did 
not provide equal access to the annexation process for both 
white and black voters. So in September 16th, 2003, in an 
objection letter, the Department of Justice had to state that 
race has appeared to be an overriding factor in how the town 
was responding to annexation requests.
    There are instances where section 5 would be applicable to 
problems and challenges like that. So in my opinion, that 
speaks volumes to the necessity--I am not blaming everything on 
Orangeburg, South Carolina, or picking on the south.
    There are many places in the North where there are 
problems, or in the West.
    So in my opinion, unless we can come up with a better way 
of doing it, I think section 5 should be extended.
    Mr. Chabot. Thank you. Now some individuals have suggested 
that the Voting Rights Act has outlived its usefulness. And is 
it--we have only seen it for 40 years thus far, and obviously 
there were hundreds of years of discrimination that has taken 
place in this country.
    What is your view relative to those that do--their point of 
view is, that as it has outlived its usefulness, it clearly 
served a useful purpose during that time, people have voted in 
fairly significant numbers that weren't voting before, it 
shouldn't be reauthorized. What is your opinion relative to 
that?
    Mr. Kemp. Well, I think the testimony you will hear today 
will strongly object to that predisposition, number one.
    Number 2, I would suggest--and again, I will mention the 
South and there has been tremendous progress. And I know there 
are States and cities and areas of the country that are as bad 
as some of the problems that occurred. But I would ask them to 
go with John Lewis and the Republican co-chair of the annual 
pilgrimage to Selma, Alabama and Montgomery and Birmingham, and 
find out from the people who were on the front lines what it 
was like then 40 years ago and what it is like today, and 
without prejudging anyone or anybody's motives, I can't imagine 
us saying that 40 years is enough, we have created nirvana, at 
least democratically speaking, and we don't need it. I think we 
do need it.
    I am glad that Joe Rogers, a Republican, and Jack Kemp, a 
Republican, are here with distinguished men and women of color 
and minority status to say, emphatically and emotionally, 
actually, that all of my background, all of my life has been 
but a preparation for coming before this Committee and 
suggesting we have got to right these wrongs and make sure that 
this democracy truly can provide an example to the Middle East, 
to Africa, to Latin America, to Asia and the rest of the world. 
So, I think this is a wonderful attempt to, if it need be, 
modify it, tweak it, but don't ever lose this Voting Rights Act 
and its importance to the American people.
    Mr. Chabot. Thank you very much, and in the interests of 
time constraints here, I am going to yield back the balance of 
my time recognize the gentleman from New York for 5 minutes.
    Mr. Nadler. Thank you. Mr. Secretary, a couple questions. 
Number one, it has been observed that the United States is 
pretty unique among democratic countries--or many of our States 
pretty unique among democratic countries--restrict some of them 
for life the right to vote for former felons, and that this is 
a greatly racially disparate impact and, in fact, large 
segments in some areas of the black population and some other 
populations are denied the franchise. Do you think that the 
Federal Government, through modification of the Voting Rights 
Act, should control this or view this as a improper restriction 
of the franchise and should clamp down on it?
    Mr. Kemp. My answer is unambiguously yes. It is a 
restriction. It needs to be modified. My wife is on the Board 
of Prison Fellowship, has been on there for 15 years. This 
weekend we are going to a retreat with prison fellowship 
Democrats, Republicans, black, white, brown. There are many 
people behind bars who have been incarcerated who have served 
their time and----
    Mr. Nadler. They are not behind bars anymore.
    Mr. Kemp. Should, I think, be given a chance to vote in our 
democratic process. Obviously, there have to be restrictions, 
but this panel has been convened for that exact purpose to find 
out what are the modifications that could be made that would 
bring social justice to the justice system. So I would say yes. 
They should be able to vote under proper restrictions.
    Mr. Nadler. I certainly agree with you. Some of our States, 
New York, for instance says that if you're sentenced to 5 to 10 
years, you are released 6 years, you are on probation for 4, 
when the total sentence is over then you get your vote back.
    Some States bar you from voting for life.
    Mr. Kemp. Yes, life.
    Mr. Nadler. I agree with you. I think that is wholly 
undemocratic and we ought to deal with that in this bill.
    My second question is, the preclearance provisions of 
section 5, they extend to jurisdictions mostly but not entirely 
in the South. Well, I am told you have to catch a plane right 
now, so I will ask somebody else the question.
    Mr. Kemp. There are jurisdictions I think outside of the 
South.
    Mr. Nadler. Yes, outside the South. My own district, 
Manhattan and Brooklyn. The question I wanted to say is where 
it is based on a history prior to 1965 of either actively 
restricting the right to vote or a combination of illiteracy 
tests--of having literacy tests, and under 50 percent of 
eligibles being enrolled at that time and therefore the 
presumption that you were using a literacy test.
    Now, do you think that we are to look at either restricting 
where the act is applied or perhaps broadening it, should a 
test be more modern than 40 years old? Are there perhaps 
districts that ought to be subject to preclearance today that 
aren't?
    Mr. Kemp. If you're asking me, my answer would be, 
Congressman, that would be one of the purposes of these 
hearings, to find out whether it should be ubiquitous, should 
it be part of the whole country? Or should it be restricted to 
those----
    Mr. Nadler. That has been suggested. But the objection to 
that is it would so dilute the effect of the Justice Department 
oversight that it wouldn't be effective.
    Mr. Kemp. Yes. Well, when I went to the Civil Rights museum 
in Selma, Alabama there is a display of what type of questions 
Alabamans were asked prior to the Voting Rights Act. How many 
bubbles in a bar of soap? I mean, things were used, and are 
still being used to a certain degree, in other jurisdictions.
    Mr. Nadler. I am sure we still need this. My question is, 
should we look at perhaps modifying where it is to add or 
subtract that, and if so, on what basis?
    Mr. Kemp. That is up to the wisdom of some other Committee. 
I don't have the answer to that. It may be that it should be 
more broadly applied.
    Mr. Nadler. It may be. My next question I will ask Ms. 
Tallman. There was an article in the New Republic a couple 
weeks ago, I forget by whom, in which they said essentially--I 
just want your reaction to the essential recommendation of that 
article--and that article said that the preclearance as a 
practical matter, because in the areas where you need 
preclearance--even moving a voting booth across the Street has 
to be precleared.
    As a practical matter, the only act when they say--they get 
a list of 600 voting booths being moved, and they send it to 
out to the local civil rights organizations and they say any 
problem? And they only really look into it if someone says, 
yeah, there is a problem. Otherwise it is trivial and they only 
give automatic exemption. I don't know whether that is true. 
But my question is, would it be a good idea or a bad idea to 
say that if preclearances, should have automatic preclearance 
except where someone making a complaint, that everything that 
is changed should be sent out to everybody, and if the Justice 
Department--if anybody says, hey, wait a minute, there may be a 
problem, then you should have a preclearance requirement, 
otherwise, after a certain period of time, it should go into 
effect automatically so as to remove trivia from the burden 
here, so they can concentrate on real abuses.
    What do you think of that suggestion?
    Mr. Chabot. The gentleman's time has expired, but you can 
answer.
    Ms. Tallman. Actually, the polling place changes is pretty 
significant--can be very significant to voters that have been 
voting for 40 years in the same location. So what appears on 
its face--potentially on its face--to be perceived as a small 
change and ought to have automatic preclearance, would actually 
defeat the purpose of section 5.
    Section 5 requires that jurisdiction----
    Mr. Nadler. You have to understand my question. Could I 
have an additional minute?
    Mr. Chabot. Yes, the Chair, however, would encourage the 
Members to direct the questions to Mr. Kemp because those folks 
haven't----
    Mr. Nadler. I fully recognize that these can be extremely--
a voting booth change can be extremely important or it can be 
trivial, either one. I mean the question is since many of these 
things can be trivial, and since you want the Justice 
Department to spend its resources where they are not, where 
there is a possibility, does it make sense not to have 
automatic clearance, that wasn't the suggestion. The suggestion 
was that if no one either sua sponte the Justice Department by 
itself or somebody, some civil rights organization says that 
one we ought to look at, that that would go through, or is that 
a bad idea for some reason?
    Ms. Tallman. A section 5 jurisdiction has had a history of 
discrimination. A section 5 jurisdiction has not used the 
bailout provision under the Voting Rights Act. A section 5 
jurisdiction is a jurisdiction who ought to be scrutinized with 
regard to any changes in voting patterns or practices. So I 
would argue that section 5 is pretty clear.
    Mr. Nadler. That is a bad idea. I appreciate that. Thank 
you very much.
    Mr. Chabot. The gentleman's time has expired. Gentleman 
from Michigan is recognized for a short period of time to make 
a statement.
    Mr. Conyers. Thank you, Mr. Chairman. I couldn't let this 
opportunity to go by. Here we are at this historic hearing, 
beginning again to re-examine the importance of extending the 
Voting Rights Act and improving it where necessary. And our 
first witness is the former Member of Congress from New York, 
Jack Kemp, with whom I may be the only one here that has served 
with him during his period in the Congress. And I am very proud 
of the statement that he has made today.
    As usual, he is leading Republicans and Americans alike to 
join in with us at this extremely auspicious beginning of a 
series of hearings of how we continue moving America forward on 
its most important document, the provision for voting, for 
everybody, to have it counted, and to have it be encouraged.
    Mr. Kemp. Thank you.
    Mr. Conyers. It is good to see you again, Secretary Kemp, 
and I am glad that you started us off in the way that you have.
    Mr. Kemp. Thank you.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from Arizona, Mr. Franks, is recognized for 5 
minutes. And again, we would encourage for the Members on both 
sides to direct questions to Secretary Kemp.
    Mr. Franks. Thank you, Mr. Chairman, and thank you Mr. 
Secretary, for being here. A lot of us feel like we are 
standing on your shoulders. That is not to suggest that you're 
old or anything like that.
    Mr. Kemp. 70.
    Mr. Franks. We should all like to carry 70 as well as you 
do, sir.
    Mr. Kemp. Thank you.
    Mr. Franks. Mr. Secretary, 40 years ago, some of the 
barriers that prevented minorities from participating in the 
political process were things like literacy tests and white 
primaries and poll taxes, and I know some of the things have 
changed to some degree, but what do you think are the primary 
and most egregious mechanisms that prevent minorities from 
actually participating today?
    Mr. Kemp. Well, one thing that I wanted to mention after 
the support that I have alluded to for section 5 is section 
203, which requires jurisdictions to provide assistance in 
other languages to voters who are not literate or fluent in 
English. Let's face it, you can go to Los Angeles County where 
I grew up and there is probably 60 to 75 different languages 
spoken from Vietnamese to Korean to Chinese to Russian to 
Persian, and clearly, people do not need Federal assistance if 
the jurisdiction is not providing them with access to voting 
lists and the information that they deserve as American 
citizens.
    Probably very controversial because you know we are 
somewhat xenophobic about people from outside our borders. It 
is too bad because there are a lot of people that need help. 
And I think it should be given. That is one of the biggest 
barriers to making this democratic experiment work--for all 
people, that is.
    Mr. Franks. I think it goes without saying that a lot of 
people who are citizens of this country still have not mastered 
the language in every way so you make a good point.
    Secretary Kemp, you wrote an opinion, an op ed piece that 
was published last August. And it recognized the 40th 
anniversary of the Voting Rights Act and you described the 
impact that it has had in those 40 years. And of course, you 
advocated for the renewal of the act.
    And what could we do to improve or make better the act for 
the next 25 years if you were writing it yourself?
    Mr. Kemp. Oh, wow, I am no longer a legislator.
    I appreciate my friend John Conyers's comments about the 
friendship that we developed many years ago, even though we 
differed on some issues, he was the one that came to me and 
said, Jack, Dr. King's ``I Have a Dream'' speech is right down 
your alley and Dan Lungren and Jack Kemp were basically the 
cosponsors in the Republican party of the King holiday. I felt 
very proud about that, John, then, and I do so today.
    I think really think the hearings, Congressmen, are going 
to bring out areas that could be changed or reformed or 
modified or made progress on.
    I think--I personally believe that someone who has been 
incarcerated--and let's face it, that does impact people of 
color a lot more than anyone else, unfortunately and 
tragically. I think they should be allowed to vote if they 
perform and meet the standards that we would hold them to as 
New York does, as Jerry Nadler pointed out.
    My hope would be that that would be an area that could be 
improved upon. Perhaps section 5 can be improved upon by a 
careful--I use the word tweaking, reforming, and I will leave 
it to my expert friend Marc Morial and Ann Marie Tallman and 
Joe Rogers to take it further.
    I would also suggest that you listen to Wade Henderson and 
his leadership conference because I think Wade, probably as far 
as I am concerned, is the expert. I hope I am not putting too 
much pressure on him. But he understands the need for 
bipartisanship and that was--I think, John, that is what we 
really need today more than anything else. This may be a place 
where we can rise above color and race and ethnicity and 
political divisions in our country and make a statement that 
would bring hope to the American people that we can work 
together for the greater good.
    Mr. Franks. Well, Mr. Secretary, you were one of the few 
former Members that were here the last time this was reenacted, 
and I think this says a great deal for your commitment to human 
freedom and the American ideal, and I appreciate all that you 
have done.
    Mr. Kemp. I like what the Chairman said, and I like what 
Chairman Sensenbrenner said to the NAACP convention a few weeks 
ago. It was really a powerful statement. If it's all right with 
you, Mr. Chairman, I have to catch a plane. I apologize.
    Mr. Chabot. Do any other Members have a very quick question 
they would like to ask? Are you okay?
    Quick question for Secretary Kemp? Anybody on this side 
that has something pressing?
    Yes, Mr. Scott. If you could make it relatively quick.
    Mr. Scott. This will be fairly quick, and thank you, Mr. 
Secretary and thank you Mr. Chairman.
    One of the problems with eliminating the preclearance 
provision is people get an advantage by cheating because by the 
time you remedy it, you have had the opportunity to serve, and 
if you ever remedied it, you would be running as an incumbent. 
Now you have run for public office as an incumbent and against 
incumbents.
    What are the advantages in running as an incumbent?
    Mr. Kemp. That is a good question.
    To be brutally honest, Congressman Scott, I never even 
thought about it when I was running. I didn't. It really 
impacted me emotionally and intellectually when I went to HUD 
and began to see the problems of urban America from a firsthand 
existential experience. And then the trip I took with John 
Lewis down to Selma, Montgomery and Birmingham for the first 
time several years ago on the civil rights pilgrimage. And I 
remember vowing at that time I was going to be a voice for some 
who are voiceless. And so I don't have a great answer to your 
question.
    Mr. Scott. My question, though, is just the politics of 
running for election. It is a lot easier to run if you're the 
incumbent.
    Mr. Kemp. Absolutely.
    Mr. Scott. Could you say a little bit about that? Because 
we are trying to establish a record. If you run as an 
incumbent, you have an advantage.
    Mr. Kemp. Mmh hmm.
    Mr. Scott. And if you have cheated and jury-rigged the 
election in a discriminatory fashion and got elected and then 
they finally fixed it, and after they fixed it, you get to run 
for re-election as an incumbent, an advantage you should have 
not have been able to get. And if there was preclearance, you 
never would have gotten. And just to set the record straight, 
we don't want people to have the advantage not only of serving 
illegally, but when we finally fix it, if the plaintiffs can 
afford the lawsuit to get it right, we don't want people who 
have cheated to benefit from their cheating by having the 
advantage of running then subsequentlyas an incumbent. So can 
you say a word about whether or not there are advantages in 
running as an incumbent?
    Mr. Kemp. I totally agree with your statement. I was in the 
Congress from New York's 41st district. It ended up New York's 
36th district after lost population. And I was redistricted 
several times, mostly by Democratic legislatures.
    And, frankly, they just decided they weren't going to beat 
me so they gave me a very Republican district. I started out in 
a Democratic district. And I must admit I did everything I 
could to make sure I could run again. But I do understand what 
you're saying. I agree with it unambiguously, and I applaud 
your concern for that issue of the advantage incumbency gets. 
But every one of us knows deep in our hearts that we love the 
advantage. We love the advantage.
    We use it to every benefit of our own, but I agree with 
your statement and I appreciate it.
    I am going to jump, Mr. Chairman, if you don't have any 
questions.
    Mr. Chabot. One more minute. Mr. Feeney. I thought you had 
a question.
    Mr. Feeney. Well, I don't, but the Secretary is a good 
friend, and we are very grateful for your presence here. We 
want to make sure you catch your plane.
    Mr. Kemp. Thank you. I appreciate that.
    Mr. Chabot. Thank you very much, Secretary Kemp, we 
appreciate your time here this afternoon. And I would like to 
at this time introduce the rest of the panel.
    Our next witness will be the very honorable Marc H. Morial, 
current President and CEO of the National Urban League. Prior 
to joining the National Urban League in May 2003, Mr. Morial 
served from 1994 until 2002 as Mayor of New Orleans.
    He also served as President of the U.S. Conference of 
Mayors, where he developed and advocated a national urban 
policy, his area of expertise.
    Mayor Morial, I know that my colleagues join me in keeping 
in our thoughts and in our prayers the folks in New Orleans 
right now, and I know it hits you particularly hard, having 
represented that city for such a long time. So, we appreciate 
you being here this afternoon.
    And our third witness will be Ann Marie Tallman, President 
and General Counsel of the Mexican American Legal Defense and 
Educational Fund. Prior to joining the group, Ms. Tallman 
specialized in the area of public finance law for the Denver 
law firm of--help me with the pronunciation----
    Ms. Tallman. Kutak Rock.
    Mr. Chabot. In 1993, Ms. Tallman was appointed as Deputy 
Director of Planning and Community Development Agency in the 
city and county of Denver. In this capacity, Ms. Tallman was 
responsible for advising the Mayor on housing and community 
development matters. And we welcome you here this afternoon, 
Ms. Tallman.
    Our fourth and final witness is the former Lieutenant 
Governor of Colorado, the Honorable Joe Rogers.
    Lieutenant Governor Rogers currently serves as Commissioner 
on the National Voting Rights Commission, a bipartisan panel of 
academics, civil rights leaders and governmental and policy 
officials charged with examining the effectiveness of the 
Voting Rights Act in the past 25 years.
    Since early this year, the National Voting Rights 
commission has held a series of hearings nationwide examining 
the prevalence of discrimination in voting since 1982. The 
Commission anticipates releasing their report in January 2006. 
Prior to serving on the Commission, Lieutenant Governor Rogers 
served as Colorado's Lieutenant Governor and had the 
distinction of being the youngest serving lieutenant in our 
Nation's history, and only the fourth African American in the 
country to be elected as a State's number 2 elected official.
    In addition to his work on the Commission, Lieutenant 
Governor Rogers spends his time lecturing and engaging in 
motivational speaking. We welcome you here this afternoon, 
Lieutenant Governor Rogers.
    And for those who have not testified before the Committee, 
before, you probably know that we have a 5-minute rule where 
each of you gets to testify for 5 minutes, and we are able to 
ask questions for 5 minutes. And we have a lighting system 
there which you probably have seen. The yellow light will come 
on when you have 1 minute to wrap up. When the red light comes 
on if you could conclude at about that time or shortly 
thereafter if at all possible.
    And we also--it is the practice of the Committee to swear 
in all witnesses and we had already sworn in Secretary Kemp, so 
if the 3 of you would mind raising your right hand and please 
stand.
    [Witnesses sworn.]
    Mr. Chabot. All the witnesses have indicated in the 
affirmative, and we welcome all three again this afternoon and 
we will begin with you, Mayor Morial.

            STATEMENT OF THE HONORABLE MARC MORIAL, 
            PRESIDENT AND CEO, NATIONAL URBAN LEAGUE

    Mr. Morial. Thank you very much, Chairman Chabot--in 
Louisiana, we would say Chabot--and Representative Nadler and 
Members of the Subcommittee. Let me thank you as I begin for 
the support of the Congress in appropriating money to assist 
with the recovery in New Orleans. I appreciate it. And 
certainly urge your continued support.
    Today, I have the opportunity to share with you my thoughts 
on the 1965 Voting Rights Act and the enormously positive 
impact it has had on this Nation. I am gratified to know of 
your strong support for the reauthorization of the Voting 
Rights Act and appreciate your leadership on this very 
important subject. The importance of the Voting Rights Act and 
its necessity cannot be overemphasized.
    We have learned through experience what a difference the 
vote make to us. In 1964, the year before President Johnson 
signed the act into law, there were only 300 African American 
elected officials in this Nation. Today, there are more than 
9,100 black elected officials in this Nation, including a 
record for the Republic of 43 serving in both Houses of the 
Congress of the United States this term.
    As you know, before I took the helm of the National Urban 
League, I was an elected official in Louisiana, proudly serving 
in its State Senate and later serving two terms as Mayor of the 
City of New Orleans. I followed in the foot steps of my late 
father, Ernest ``Dutch'' Morial who served as the first African 
American mayor of New Orleans.
    Importantly, he served when he was elected in 1967 as the 
first African American elected official in Louisiana in 1967 
since at that time the days of reconstruction. So Louisiana 
went almost 100 years despite having almost a one third African 
American population with zero elected officials until the 
passage of the Voting Rights Act in 1965.
    It is unlikely that either he nor I nor many of the Members 
who serve in this Congress or the many African Americans who 
serve in State legislatures, particularly in the south, but 
across the Nation, would have been able to serve their cities, 
their States and this Nation without the passage of the Voting 
Rights Act.
    Let me be clear. Expanding the opportunity to vote in 
America goes far beyond simply ensuring that minority voters 
have a voice or that African American politicians get elected. 
The Voting Rights Act, I believe, has enhanced the lives of all 
Americans, not just black Americans, not just Americans of 
color.
    By opening up the political process, the Voting Rights Act 
has made available a broader pool of political talent, greatly 
improving the quality of representation for all Americans and 
all voters.
    Just as important, the Voting Rights Act has been 
instrumental in moving America closer to its true promise, and 
thus has significantly benefited every single American 
regardless of race, color, economic status, national origin or 
political party.
    I have heard it suggested that the Voting Rights Act, or 
certain key provisions, need not be reauthorized because its 
very success has rendered it obsolete. Indeed, not only is this 
a fallacy, but the opposite is true. I urge you in the 
strongest possible terms not to fall for that. The Voting 
Rights Act must be reauthorized because it is an important 
piece of legislation that works.
    The great strides that we have taken in the last 40 years 
have been possible precisely and only because the Voting Rights 
Act has been in place.
    Unfortunately, while this Nation has made great progress in 
the last 40 years in this area, we certainly aren't where we 
need to be or where we want to be.
    Across this Nation, African Americans and other minorities 
continue to face obstacles to exercising their full voting 
rights. That is why Congress must reauthorize the act and its 
special provisions including the section 5 preclearance 
requirement.
    I have a special interest in and history with preclearance 
provisions because of the long, tragic and documented history 
of discriminatory voting practices in my home State, Louisiana. 
It is one of those States required by section 5 to obtain 
preclearance for any proposed change in our election laws or 
procedures.
    This provision, section 5, has been critical in the 
curtailment of voting rights abuses over the past 40 years. In 
fact, a bipartisan congressional report in 1982 warned that 
without this section, discrimination would appear overnight. 
And I believe that this is still true today.
    For example--and I think this is important--since 1965, not 
one single Louisiana State House of Representatives 
redistricting plan as initially submitted to the Justice 
Department for review, has been precleared. Not a single one. 
In other words, in the last 40 years, every single State House 
redistricting plan adopted immediately after the census and 
submitted for preclearance in Louisiana has been found both by 
Republican and Democratic Attorneys General to abridge the 
right to vote on account of race or color or membership in 
language in a minority group.
    In case after case, the efforts of the civil rights 
division of DOJ and minority voter advocates prompted Louisiana 
to withdraw its original plan and restore districts where 
African Americans had an opportunity to elect a candidate of 
choice.
    There are, indeed, many African Americans elected officials 
in Louisiana. It is clear that attempts to undermine minority 
voting power in Louisiana continue to show its face from time 
to time in the present day.
    Without preclearance, these and other discriminatory voting 
plans would, without a doubt, be put into place not only in 
Louisiana, but throughout the country. And we as a Nation would 
take a giant step backward.
    We have come far, as I have said, because of the Voting 
Rights Act and the enforcement of section 5. Five gives full 
transparency to voting procedures. It deters State officials 
from proposing discriminatory voting changes, and the 
preclearance process also educates State officials in what the 
Voting Rights Act requires and how to formulate 
nondiscriminatory policies and redistricting plans.
    I am gratified at the degree of support on both sides of 
the aisle for reauthorization of the Voting Rights Act. And I 
think this is a moment in history when true bipartisanship can 
be a beacon of hope and a beacon of light and a high point for 
this Nation. I urge you to recognize a continued need for 
preclearance and other provisions that are so necessary for the 
progress we must make as a Nation. And I thank you for your 
attention and I will take your questions.
    Mr. Chabot. Thank you very much, Mayor Morial. I appreciate 
your statement.
    [The prepared statement of Mr. Morial follows:]

            Prepared Statement of the Honorable Marc Morial

    I appreciate having the opportunity to share with you my thoughts 
on the 1965 Voting Rights Act and the enormously positive impact it has 
had our nation. I am very gratified to know of your strong support for 
reauthorization of the Voting Rights Act and appreciate your leadership 
on this important issue of our time.
    The importance and necessity of the Voting Rights Act cannot be 
over-emphasized. We have learned through experience what a difference 
the vote makes to us. In 1964, the year before President Johnson signed 
the Act into law, there were only 300 African American elected 
officials in the entire country. Today, there are more than 9,100 black 
elected officials, including 43 members of Congress.
    As you know, before I took the helm of the National Urban League, I 
was an elected official in Louisiana--first in the state legislature 
and then as a two-term mayor of New Orleans. I followed in the 
footsteps of my father, Ernest ``Dutch'' Morial, who was the first 
African American to serve as Mayor of New Orleans. I saw first-hand the 
tremendous impact that the 1965 Voting Rights Act on my state, for 
without it, it is unlikely that either one of us would have been able 
to serve the city and state we loved so much.
    Let me be clear: expanding the opportunity to vote in America goes 
far beyond simply ensuring that minority voters have a voice or that 
African American politicians get elected. The Voting Rights Act has 
enhanced the lives of all Americans, not just black Americans, not just 
minorities. By opening up the political process, the Voting Rights Act 
has made available a broader pool of political talent, greatly 
improving the quality of representation for all voters. Just as 
important, the Voting Rights Act has been instrumental in moving 
America closer to its true promise and, thus, has significantly 
benefited every single American, regardless of their race, economic 
status, national origin or political party.
    I've heard it suggested that the Voting Rights Act--or certain key 
provisions--need not be reauthorized because its very success has 
rendered it obsolete. This is a fallacy--and I urge you in the 
strongest possible terms not to fall for it. The Voting Rights Act must 
be reauthorized BECAUSE it works!
    The great strides we've taken in the last 40 years have been 
possible precisely and only because the Voting Rights Act has been in 
place. Unfortunately, while our nation has made great progress in the 
last forty years in the area of voting rights, we're not yet where we 
need to be. Across the country, African Americans and other minorities 
continue to face obstacles to exercising their full voting rights. That 
is why it is Congress must reauthorize the Voting Rights Act and its 
special provisions, including the Section 5 pre-clearance requirement.
    I have a special interest in and history with the pre-clearance 
provisions. Because of our long, tragic, and documented history of 
discriminatory voting practices, Louisiana is one of the states 
required by Section 5 of the Voting Rights Act to obtain pre-clearance 
for any proposed changes in our election laws or procedures. This 
Section 5 requirement has been critical in the curtailment of voting 
rights abuses in the last 40 years. In fact, a bipartisan Congressional 
report in 1982 warned that without this section, discrimination would 
reappear ``overnight.'' That is still true today.
    For example, since 1965, not one Louisiana State House of 
Representatives redistricting plan as initially submitted to the 
Justice Department for review has been pre-cleared. In other words, in 
the last 40 years, every single State House redistricting plan adopted 
immediately after the Census and submitted for preclearance in 
Louisiana has been found, both by Republican and Democratic Attorneys 
General, to abridge the right to vote on account of race or color or 
membership in a language minority group.
    In case after case, the efforts of the Civil Rights Division of the 
U.S. Department of Justice and minority voter advocates prompted 
Louisiana to withdraw its original plan and restore a district where 
African Americans had an opportunity to elect a candidate of choice. 
While there are indeed many African American elected officials in 
Louisiana, it is clear that attempts to undermine minority voting power 
in Louisiana continue to the present day.
    Without the pre-clearance requirement, these and other blatantly 
discriminatory voting plans would--without a doubt--be put into place 
throughout the country and we would take a giant step backward.
    We have come as far as we have precisely because of the existence 
and enforcement of Section 5. Section 5 gives full transparency to 
voting procedures that would otherwise be too complex, technical, or 
hidden for the public to discover. It also deters state officials from 
proposing some discriminatory voting changes in the first place. They 
now take extra care to involve minority communities in policy-making, 
under threat of Section 5 complaints. The Section 5 pre-clearance 
process also educates state officials in what the VRA requires and how 
to formulate non-discriminatory policies.
    I am gratified at the degree of support--on both sides of the 
aisle--for the reauthorization of the Voting Rights Act. I urge you to 
also recognize the continued need for pre-clearance and other special 
provisions that are so necessary for the continued progress we must 
make as a nation.
    Thank you for your attention. I will be happy to take your 
questions.

    Mr. Chabot. I also have a statement that I have been 
presented here, the Rainbow Push Coalition, it was because we 
only have four witnesses available on the panel, we can't 
accommodate another witness. But we would like to put the 
statement in the record and without objection that statement 
will be submitted for the record.
    [The information referred to is printed in the Appendix.]
    Ms. Tallman, you're recognized for 5 minutes at this time. 
Thank you.

STATEMENT OF ANN MARIE TALLMAN, PRESIDENT AND GENERAL COUNSEL, 
      MEXICAN AMERICAN LEGAL DEFENSE AND EDUCATIONAL FUND

    Ms. Tallman. Thank you, Mr. Chairman, Members of the 
Subcommittee. Thank you for the invitation to testify regarding 
the reauthorization of the temporary provisions of the Voting 
Rights Act. I am Ann Marie Tallman, President and General 
Counsel of the Mexican American Legal Defense and Educational 
Fund.
    We are a nonpartisan organization that protects the civil 
rights, including the voting rights, of over 40 million Latinos 
living in the United States.
    America's leadership recognized at home and abroad is 
defined by our democracy. Our democracy is a Government in 
which the sovereign power resides in and is exercised by the 
citizenry through representative Government. Simply put, 
democracy and the right to vote are our country's competitive 
advantage.
    Our democracy works best when we have confidence that when 
we exercise our franchised rights, we will be free from 
harassment, unnecessary scrutiny, discrimination, or artificial 
barriers that may be placed in our way to dissuade us or to 
discourage us from exercising our most fundamental right that 
preserves all other rights.
    In 1965, Congress passed, and President Johnson signed into 
law, the Voting Rights Act to bring us closer to freedom in the 
United States. Of course, the act, by itself, failed to 
eliminate persistent discriminatory voting schemes. It required 
vigorous enforcement not only by the United States Department 
of Justice, but by organizations like MALDEF to make the 
promise a reality.
    The Voting Rights Act has done more for any other law to 
ensure that we, as a Nation, progress beyond the discriminatory 
election laws that have marred our democratic processes. 
Although important gains have been made, the VRA remains a 
necessary tool for protecting voting rights.
    Two VRA components are especially important to the Latino 
community, section 5 and the language minority provisions. The 
impact of section 5 encountering discriminatory election laws 
cannot be overemphasized.
    Section 5 has prevented voting discrimination against 
Latinos as well as African Americans and has fostered the 
unprecedented Latino political participation that we see today 
at all levels of American Government.
    Section 5 prevents covered jurisdictions from changing the 
rules of the game to disadvantaged minority voters.
    By invalidating discriminatory election laws before they 
are put into place, section 5 removes the need for minority 
voters to bring costly litigation to protect their voting 
rights.
    A recent section 5 challenge bought by MALDEF in Texas 
demonstrates how section 5 preserves the voting rights of 
Latinos. In 2001 where Latinos had reached one-third of the 
State's total population, Texas proposed a redistricting plan 
for its State House of representatives that minimized Latino 
voters influence in State elections. Because the plan added 
only one new Latino majority district and eliminated 4 such 
districts, the United States Department of Justice concluded 
that it was retrogressive and blocked its implementation.
    As a direct result of the DOJ's section 5 action, Texas 
kept the four Latino majority districts that has afforded 
Latino voters the opportunity to elect their candidate of 
choice. Had section 5 not been in effect, these districts would 
not have likely existed.
    MALDEF seeks the reauthorization of section 5 for the next 
25 years with language clarification, regarding Congress's 
intent to prohibit intentionally discriminatory voting changes.
    Currently, 4.3 million voting age citizens are limited 
English proficient. Section 203 allows that these citizens can 
cast informed and effective ballots and is implemented in a 
very cost-effective basis. If Congress does not reauthorize the 
language minority provisions of the VRA, Latino and limited 
English proficient Asian Americans and Native American citizens 
will be unable to vote.
    A recent challenge brought by MALDEF in Illinois, 
demonstrates the continued need for the language minority 
provisions. In 2002, Cooke County purchased a voting system 
that did not adequately inform Spanish voters, Spanish speaking 
voters. MALDEF challenged the system, obtained a consent decree 
for more Spanish speaking poll workers, new training and 
monitoring.
    This would not have been possible without section 203.
    MALDEF seeks reauthorization of the language minority 
provisions with an adjustment to the coverage formula to 
section 203 to include jurisdictions between 7,500 and 10,000 
language minority citizens.
    We have worked for over 37 years to ensure that Latinos' 
voting rights are protected. On behalf of MALDEF and other 
civil rights organizations that work every day to protect the 
voting rights of minorities in this country, I urge Congress to 
reauthorize the Voting Rights Act to reflect the original 
intent of these critical provisions.
    [The prepared statement of Ms. Tallman follows:]

                Prepared Statement of Ann Marie Tallman

    Mr. Chairman and Members of the Subcommittee, thank you for the 
invitation to testify regarding the reauthorization of the temporary 
provisions of the Voting Rights Act (VRA). I am Ann Marie Tallman, 
President and General Counsel of MALDEF, the Mexican American Legal 
Defense and Educational Fund. We are a nonpartisan organization that 
protects the civil rights of the over 40 million Latinos living in the 
United States.
    Since our founding in 1968, MALDEF has challenged voting laws that 
deny Latinos an equal opportunity to participate in the political 
process. In Garza v. Smith in 1970, MALDEF won a ruling that permitted 
illiterate persons, many of whom were Latino, to receive assistance in 
casting ballots. MALDEF also frequently sought the elimination of at-
large elections that deprived Latino voters of their ability to elect 
their candidates of their choice. Our first successful single member 
district lawsuit, White v. Regester in 1973, resulted in the election 
of three Latinos and one African American to the Texas State 
Legislature and laid the legal groundwork for the present 
interpretation of Section 2 of the VRA.
    In 1976, following the enactment of the language minority 
provisions of the VRA and the extension of Section 5 to the Southwest, 
MALDEF successfully challenged a Texas law that would have had a 
devastating effect on Latino voting power by requiring the annual re-
registration of all voters. MALDEF also pressured the city of San 
Antonio to change from at-large to single member districts. In the next 
election, a record 29 Latino candidates filed and an unprecedented five 
Latinos were elected to the ten-member San Antonio City Council.
    The Voting Rights Act is widely considered one of the most 
effective pieces of civil rights legislation in American history. It 
has helped to usher in an era in which Latinos and other minority 
groups are generally better able to register, vote, and elect their 
candidates of choice. Prior to 1965, many Latinos, especially in the 
Southwest, were excluded from full political participation by poll 
taxes, exclusionary primaries, intimidation by voting officials, and 
language barriers. Latino votes were also routinely diluted through the 
use of mechanisms like at-large voting and numbered place election 
systems. The Voting Rights Act has done more than any other piece of 
legislation to ensure that we as a nation progress beyond the 
discriminatory election laws that have marred our democratic processes. 
Despite these important gains, however, the VRA remains a necessary 
tool for effectively protecting the voting rights of Latinos and other 
minority groups.
    The focus of my testimony today will be upon two areas of paramount 
concern to millions of Latino voters in the United States: Section 5 
and the language minority provisions Section 203 and 4(f)(4).
    The impact of Section 5 in countering discriminatory election laws 
cannot be overemphasized. This provision of the VRA, which affects 
almost as many Latinos as it does African Americans, has been essential 
in stimulating the unprecedented Latino political participation that we 
see today at all levels of American government. Section 5 prevents 
covered jurisdictions from `changing the rules of game' to disadvantage 
minority voters before these voters can seek redress for the 
deprivation of their voting rights. Section 5's effectiveness in 
protecting minority voting rights lies in its shifting the burden of 
proof from the minority voters who have historically been subject to 
discriminatory practices to the covered jurisdictions seeking to change 
their election systems. By invalidating discriminatory election laws 
before they are put in place, Section 5 removes the need for minority 
voters to continually bring costly litigation to ensure that their 
voting rights are protected.
    A recent case brought by MALDEF in Texas demonstrates how Section 5 
works to preserve the voting rights of Latinos. In 2001, when Latinos 
had reached one-third of the State's total population, Texas proposed a 
redistricting plan for its House of Representatives that minimized 
Latino voters' impact in three districts and completely eliminated a 
fourth Latino-majority district. Because the plan added only one new 
Latino-majority district and eliminated four such districts, the U.S. 
Justice Department concluded that it was retrogressive and blocked its 
implementation under Section 5. As a direct result of DOJ's Section 5 
intervention, the current Texas House redistricting plan maintains the 
four Latino-majority districts that were dismantled and contains a 
total of thirty-five districts that afford Latino voters the 
opportunity to elect their candidate of choice. If Section 5 were not 
in effect, these districts would likely not exist.
    MALDEF seeks reauthorization of Section 5 with language clarifying 
Congress's intent to prohibit intentionally discriminatory voting 
changes as well as to preserve `ability to elect' as the touchstone of 
Section 5 review.
    Also of great importance to Latino voters are the language minority 
provisions contained within Sections 203 and 4(f)(4). Currently, 4.3 
million Latino voting age citizens are limited English proficient. If 
Congress does not reauthorize the language minority provisions of the 
VRA, these Latino citizens will be unable to effectively exercise the 
franchise.
    A recent challenge brought by MALDEF in Illinois demonstrates the 
continuing need for the language minority provisions. In 2002, Cook 
County, Illinois purchased a voting system that used punch-cards with 
``voter error notification'' capabilities that was incapable of 
notifying Spanish-speaking voters of problems with their ballots. This 
voting system, combined with the county's failure to provide Spanish-
speaking poll workers, left many Latino voters unable to cast effective 
ballots. MALDEF challenged the county's voting system under the 
bilingual assistance provisions of the Voting Rights Act and negotiated 
a consent decree on behalf of Latino voters in which the county agreed 
to increase the number of Spanish speaking poll workers and implement 
new training, monitoring, and hotline procedures. This protection of 
Latinos' ability to cast an effective ballot would not have been 
possible without Section 203 of the VRA.
    MALDEF seeks reauthorization of the language minority provisions 
with an adjustment to the coverage formula of Section 203 to include 
jurisdictions containing between 7,500 and 10,000 language minority 
citizens.
    MALDEF has worked for 37 years to ensure that Latinos' voting 
rights are protected. Section 5 and the language minority provisions of 
the VRA have been and continue to be our greatest tools. On behalf of 
MALDEF and other organizations that work to protect minority voting 
rights, I urge Congress reauthorize the Voting Rights Act to reflect 
the original intent of its crucial provisions.

    Mr. Chabot. Thank you very much. I appreciate your 
testimony this afternoon.
    And Lieutenant Governor Rogers, you are recognized for 5 
minutes.

STATEMENT OF JOE ROGERS, FORMER LIEUTENANT GOVERNOR OF COLORADO

    Mr. Rogers. Thank you so much, Mr. Chairman. It is good to 
be with you. We are delighted to join you as Members of the 
Subcommittee. Thank you kindly for having us here today.
    It was good to see Congressman Watt in particular at our 
hearing that just took place this past week, as a matter of 
fact, so it is a delight to join you. We're honored to join you 
in particular in my capacity as the former Lieutenant Governor 
of Colorado, and I'm pleased to serve on the National 
Commission on the Voting Rights Act.
    It is an honor to be before this distinguished Subcommittee 
as it conducts its first hearing related to reauthorization of 
this seminal piece of legislation. Indeed, major provisions of 
which are due to expire in 2007.
    I am here to discuss the work of the National Commission on 
the Voting Rights Act. The Lawyers' Committee For Civil Rights 
Under Law indeed created the National Commission on the Voting 
Rights Act on behalf of the civil rights community creating 
indeed this nonpartisan national commission.
    The National Commission is comprised of eight leaders whose 
represent our Nation's diversity. The Honorable Charles 
Mathias, former United States Senator from Maryland, is the 
Honorary Chair. And Bill Lann Lee, the former Assistant 
Attorney General for civil rights, indeed serves as Chairman of 
our commission. The other commissioners are the Honorable John 
Buchanan, former United States Congressman from Alabama; 
Chandler Davidson, the scholar and editor of one of the seminal 
works on voting rights in the United States; indeed Delores 
Huerta, cofounder of the United Farm Workers of America; Elsie 
Meeks, the first Native American Member of the United States 
Congress; and Charles Ogletree, the Harvard Law School 
professor and noted civil rights advocate; and yours truly.
    In January of 2006, the National Commission will release 
its formal report detailing indeed the existence of 
discrimination in voting since 1982, the last time there was a 
comprehensive reauthorization of the Voting Rights Act. To 
date, the National Commission has held nine of ten planned 
field hearings throughout the United States. We have heard from 
approximately 100 elected officials, election officials, voting 
rights attorneys, experts in voting cases, community leaders 
and concerned citizens who indeed have testified regarding 
their experiences relating to voting discrimination.
    The commission's report will contain information from the 
hearings as well as include extensive research culled from many 
sources, including findings, reports, testimony from court 
cases and enforcement records of the Department of Justice. The 
report will not advocate any particular legislative action. 
Instead, the purpose of the report is to detail the facts that 
will inform your debate and the debate throughout the United 
States regarding reauthorization.
    Because the commission's research is continuing, it would 
be premature for me to detail the commission's findings. 
Nonetheless, I would like to identify a few trends that have 
emerged from our hearings which are discussed in greater detail 
in my formal written statement which you all have.
    First, the problem of discrimination in voting appears to 
be significant, and it affects virtually every region of the 
country. In stating this, it is important for me to note that 
compared to 1965, Mr. Chairman, there has been significant 
progress in our great Nation regarding race and voting, and 
indeed a decrease in blatantly racist or bigoted activity as it 
relates to voting in the United States. Nonetheless, whether 
the impetus is bigotry or simply plain old power or the idea of 
enhancing power at the expense in particular of minority 
voters--this sometimes occurs--official discrimination in 
voting remains a problem in the United States.
    Second, in many areas of the country, voting continues to 
be racially polarized. By that we simply mean, it is a 
circumstance where white voters will simply only vote for white 
candidates and, frankly, in circumstances where minority voters 
will only vote for minority candidates. One consequence of 
racially polarized voting is that minority voters cannot elect 
candidates of choice or preference perhaps if it is by race or 
ethnicity. That simply may not be an option unless there is a 
majority or near majority of the electorate. Moreover, when 
racially polarized voting exists, a desired electoral result 
can be obtained by simply changing the voting procedure or 
practice that harms minority voters.
    Third, application of the minority language provisions 
frequently result in increased participation of minority 
language voters and an increased ability of such voters to 
elect candidates of their choice.
    Fourth, the Federal mandate of section 203 enables election 
administrators throughout the country to provide needed 
minority language assistance without political interference. In 
a soon-to-be-released comprehensive survey of section 203, 
indeed, it is noted that 71 percent of election administrators 
throughout the country support reauthorization of section 203.
    Fifth, the existence of section 2 does not obviate the need 
for section 5 as some have suggested. Section 5 prevents 
discriminatory procedures from being implemented at little or 
no cost to minority voters and civil rights advocates. In 
contrast to section 2, litigation is complicated, often time 
consuming and frankly plain resource intensive.
    When the commission's report is complete, this commission 
indeed is ready, willing and perfectly able to provide the 
report to this Judiciary Committee and frankly to discuss its 
contents fully with you. And we would welcome the opportunity 
to come back before this commission with the formal findings 
indeed.
    Thank you so much for this chance today.
    [The prepared statement of Mr. Rogers follows:]

                    Prepared Statement of Joe Rogers

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. Thank you very much, Lieutenant Governor 
Rogers.
    And now the Committee Members will have 5 minutes to ask 
questions, and I yield myself 5 minutes for that purpose.
    Okay. I'll ask each of the witnesses this question, and you 
can answer it any way you see fit.
    What has been the direct and indirect impact in your view 
of the Voting Rights Act on minority voting rights over the 
last 40 years? And if you could, if you could answer that with 
respect to both covered and noncovered jurisdictions if you so 
choose.
    So we will begin with you, Mayor Morial.
    Mr. Morial. I stated in my testimony the increase in the 
number of African-American elected officials. But maybe because 
everyone on the panel is an elected official, frankly, before 
1965, even though there was a small number of African-American 
voters in New Orleans and in Louisiana, very few candidates for 
public office even bothered to campaign in black communities, 
show up in black communities, pay attention to the very 
existence of African-American communities. And therefore, it 
was very visible, you could ride through neighborhoods and look 
at public improvements, the conditions of playgrounds, the 
conditions of streets and the great disparities that existed.
    The Voting Rights Act, which gave a greater voice to 
African-American communities in the south, forced, quite 
frankly, even in cases where white candidates were running 
against each other, it made the African-American voter a very 
significant player in the electoral process. And so it isn't 
just a case of African-Americans getting elected to public 
office, although I think that is a highlight. It is also the 
way in which majority candidates have responded to the African-
American community, realizing that because they are full and 
complete participants in the democratic process, you have to 
campaign to them, you have to pay attention to them. And that's 
a real sort of on-the-ground effect.
    It also translates into in the process of governing, to 
those communities being paid attention to when public benefits, 
public improvements are, in fact, doled out by a city council, 
by a State legislature, by a mayor or by a governor. So those 
are some real, I think, impacts beyond--you know, the existence 
of African-American elected officials is important. But, 
really, the true impact is the power of the voter to have his 
issues heard, his voice represented in the deliberative process 
and in the law-making process and in the executive process in 
our cities, States and at the national level.
    Mr. Chabot. Thank you very much.
    Ms. Tallman, did you want to respond?
    Ms. Tallman. Yes, thank you, Mr. Chairman.
    There have been significant improvements in the political 
participation of Latinos as a result of the Voting Rights Act. 
In 1982, for example, there were nine Hispanic Members of 
Congress. Today, there are 25. There are also two Latino U.S. 
senators. There are also approximately 5,000 Latino elected 
officials at the State and local level.
    We believe that those strides would not have been made had 
the voting rights section 5, section 203 been in existence. We 
have made good strides in language provisions where the 5 
percent of the voting population in a jurisdiction that has 
special language requirements, where voting materials are 
provided to those individuals so that they understand the 
ballot and are able to exercise their right to vote. I think 
that those strides have been very good in enhancing and 
improving our democracy and ensuring that every single 
individual who is a citizen can actually exercise their right 
to vote.
    So I think the Voting Rights Act has had profound 
implications for not only us being a better representative form 
of Government as a country with the increased number of 
Latinos, African-Americans and people of color in jurisdictions 
at the State and local level and at the national level, but I 
also think that it has done a great thing in opening the 
dialogue on issues that impact all communities, which is very 
important and critical in our country.
    Mr. Chabot. Thank you very much.
    And Lieutenant Governor Rogers?
    Mr. Rogers. Mr. Chairman, when you were asking the 
question, the first thought that came to mind, frankly I was 1 
year old, I had just turned one when this act was passed in 
1965. I am 41 years old today. I think about the circumstances 
in terms of the life of my own family, sir. I know that you 
have worked hard to run for office, and you have done good 
things for many years. My grandfather ran for public office in 
1960 in Omaha, Nebraska. In 1960, the sum total of African-
Americans elected in the United States was right around 200 or 
so elected officials in America. When my grandfather ran for 
office, he ran for the school board in Omaha, Nebraska. It 
would have made him the highest elected official in the State 
of Nebraska.
    When my grandfather ran in that election, his campaign 
theme was: Democracy is for everyone. I have never forgotten 
that, and I have kept his campaign card throughout the years 
as, frankly, a source of personal inspiration in terms of my 
own life.
    I remember that, and I remember his life. He lost that 
election in 1960. Ten years later, in 1970, he was elected to 
serve the school board in Omaha, Nebraska. Change took place in 
America as a result of the sea of change that occurred right 
here in this body.
    I know that you all deal with multiple pieces of 
legislation. You all deal with multiple issues, and you all 
know as well as I do, your staffs will be tugging on you to 
deal with 500 things throughout the course of this day and so 
many things to come. But this act, over the course of the last 
40 years, as your statement indicated, has been seminal in its 
impact and remarkable in its scope. It shifted us as a country. 
It opened up new possibilities for people. Because what it 
simply said is, this fundamental right, this right to vote, to 
cast your ballot for the person who you hope will represent 
your interest in whatever capacity--whether they are the local 
city council person or a State legislature or in any capacity, 
perhaps in this august body of Congress--that frankly 
individual votes count and make a difference.
    So when I look at the provisions of this act, it is real, 
and it is substantive. When I look at the provisions regarding 
preclearance in section 203, it is clear that the Federal 
Government just didn't say, you have the right to vote. That 
was arguably implicit in the 15th amendment. It was implicit in 
the 14th amendment. But what the Congress of the United States 
said was, we will enforce this right to vote, and preclearance 
gives you the ability to help enforce the provisions of the 
act. And certainly with section 203, Mr. Chairman, it is 
absolutely clear in terms of the data that we have received 
throughout the country that it has led to a remarkable increase 
in terms of the number of language minorities that participate 
in this process.
    Many of you all campaign in bilingual languages. You 
campaign in Spanish. Some of you all might send out something. 
If you were in Louisiana, you might send out something in the 
French language or otherwise. We are all seeking to appeal to 
voters, and why not appeal to them in the language where they 
are? This has enabled that to happen.
    Mr. Chabot. Thank you very much.
    My time has expired.
    The gentleman from New York, Mr. Nadler, is recognized for 
5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Let me start by asking the witnesses the first question I 
asked Secretary Kemp. It has been observed that a number of 
States in the union greatly restrict the right to vote of 
former felons. Some of them, some States--Florida, for example, 
is one that comes to mind--for life. This has a racially 
disparate impact. Starting with Mayor Morial and Ms. Tallman.
    Mr. Feeney. Will the gentleman yield?
    Mr. Nadler. Yes.
    Mr. Feeney. In fairness to Florida, there is a process----
    Mr. Nadler. Reclaiming my time. I know, a process that 
never works. Except for Chuck Colson.
    Do you believe that it would be useful in terms of fairness 
in voting for the Voting Rights Act as we extend it to be 
amended to put some sort of control on this to say that ex-
felons, once they have served their turn or X number of years 
after they served their term, must have their right to vote 
restored?
    Mr. Morial. Congressman Nadler, I'm glad you raised that. 
The answer without question is, yes. Let me see if I can state 
the principle here. The idea here is that a person who has in 
fact served their time, paid their dues, ought not be 
permanently restricted. They should not have a lifetime 
sentence, in effect, or a long sentence in terms of removing 
their constitutional rights.
    If you put it on another level, would we ever think of 
restricting a person's right to speak, right to exercise their 
religion, any other of the enumerated constitutional rights for 
life because they were convicted of a felony? My view would be, 
and I think it is our position at the National Urban League, 
that a national standard which provides an opportunity for 
those who have paid their dues to society--let's emphasize that 
for the record--completed their prison term, completed their 
period of parole, ought to have the right to vote again. It is 
important, certainly, to giving them a chance to reintegrate 
back into society and to feel that they are going to be a full 
part of society.
    Mr. Nadler. Thank you. I would add, it is important, if 
we're going to call ourselves a democracy, that everybody have 
the right to vote.
    Ms. Tallman?
    Ms. Tallman. Representative, we applaud Congress' 
leadership role in ensuring the right to vote for minorities in 
the United States. It has been a very important leadership role 
that Congress has filled, and as a result, there are millions 
of people in this country whose lives are better for it.
    One of the issues that still remains to be addressed is 
allowing those that have served their time, as Marc Morial has 
stated, to be able to fully reenter into society and to be able 
to exercise the right to vote. By voting, and participating in 
the voting process, people are more likely to engage in other 
civic endeavors. And so there are real benefits to voting and 
to having ex-felons vote. So we believe that it is certainly 
something that Congress could demonstrate.
    Mr. Nadler. Thank you.
    Lieutenant Governor Rogers.
    Mr. Rogers. Congressman Nadler, I can't take a position on 
behalf of the commission. We have not----
    Mr. Nadler. On behalf of yourself. What do you think of it?
    Mr. Rogers. I differ, frankly, from my colleagues to some 
extent on this issue. And I think in terms of States, 
individual States have policies that, you know, have varied in 
terms of what happens to felons and the right to vote. And the 
Supreme Court has upheld the ability of individual States to 
deal with this issue. And I can only tell you, in having 
governed a State, I believe that determination should be left 
in many respects to Colorado.
    Mr. Nadler. Do you think a State should have a right to say 
to someone who is 17 when they committed a felony, has served 3 
or 4 years in jail, when they are 77 should not be allowed to 
vote? Or is that a fundamental right--such a fundamental 
violation of civil rights that Congress should say to a State 
that you can't do that.
    Mr. Rogers. The Supreme Court has held that it is not----
    Mr. Nadler. No, no, Supreme Court has said it is a matter 
of constitutional law. We don't have to have the Voting Rights 
Act at all as a matter of constitutional law. The question is, 
we have chosen to have the Voting Rights Act. Should we choose 
to say to a State that you're State's right does not extend to 
depriving a person of the franchise for life because he 
committed a crime 30 years ago?
    Mr. Rogers. I tend to think in this area, to some extent, a 
State should have the ability to decide this issue and 
certainly when your dealing with people who obviously committed 
these crimes and otherwise, that that policy in many respects 
should be left up to the individual States to handle. You are 
talking about, obviously, there are a number of complexities 
that are involved to some extent in this issue, and it has 
varied by State in terms of how it is applied. And I am an 
advocate of the ability and the right of the States in their 
own sovereignty.
    Mr. Nadler. Could I have one additional minute?
    Mr. Chabot. The gentleman is recognized for 1 additional 
minute.
    Mr. Nadler. I would pose the following question, first to 
Lieutenant Governor Rogers, in this order.
    Mr. Chabot. As long as they can answer.
    Mr. Nadler. Wait a minute. Doing it as quickly as possible. 
Don't you think that the fact is, as we have observed, that 
perhaps one of the largest ways, one of the easiest--not 
easiest, one of the major ways of disenfranchising 
disproportionate numbers of people of color, et cetera, is by 
lifetime prohibitions on the right to vote for ex-felons? Isn't 
that the way it is used today in certain States?
    Mr. Rogers. Please forgive me, but I would not agree with 
that, Congressman. Let me tell you why, if I may. The 
assumption that you are making is that you have such a 
substantial number of minorities, for example African-Americans 
or Latinos, that are engaged in felonious conduct----
    Mr. Nadler. Or that are arrested and convicted in a 
disproportionate number.
    Mr. Rogers. The assumption--please forgive me--is that it 
is such a significant number that it has a dramatic impact on 
the people as a whole, when we find in reality is that it is 
not that. You don't have African-Americans that are 
overwhelmingly in prison. You don't have Latinos that are 
overwhelmingly in prison. You are still talking about a 
significant minority within our peoples as a whole.
    Ms. Tallman. There are many flaws in the criminal justice 
system as it relates to racial discrimination and racial 
profiling. As a result, oftentimes there are individuals that 
are convicted of crimes that are innocent, and there are 
individuals that are convicted of crimes and sentenced to 
tougher standards because of their race or ethnicity.
    We believe that disenfranchising permanently individuals 
who have served their time is bad for democracy, and as a 
result, we would suggest that Congress look at the issue.
    Mr. Morial. I would offer this. I think if you looked at 
the practices and laws of all 50 States, you would find the 
most restrictive provisions for the most part with respect to 
the voting rights of those who have been convicted of a felony 
in the very same States that are covered by section 5 and the 
very same States that have large minority populations.
    On the other hand, you would see the least restrictive 
provisions in those States with small minority populations and 
in States that are not covered by the section 5 of the Voting 
Rights Act for the most part.
    The second point I would make, if you looked at the genesis 
of many of these provisions that restrict the right of 
convicted felons to vote, they have their genesis in the post-
Reconstruction backlash which occurred in the South. So if you 
look at facts, the facts are going to paint a picture in terms 
of what the--some suggest what maybe the motivation of some of 
these provisions have been, they were disenfranchisement 
provisions.
    And I applaud you for raising this issue, but I think it is 
so important to keep the perspective that we are talking about 
people who have already served their time. It could be for 
something such as theft of an automobile. It could be a felony 
of a white collar nature.
    Mr. Nadler. Or smoking marijuana.
    Mr. Morial. It could be smoking marijuana. It could be 
something that is treated as a felony and therefore 
restrictive. I appreciate your raising it.
    Mr. Chabot. The Chair would note that the gentleman's 1 
minute expired 3 minutes and 6 seconds ago.
    Mr. Nadler. Appreciate the forbearance of the Chair.
    Mr. Chabot. The gentleman from Arizona, Mr. Franks, is 
recognized for 5 minutes.
    Mr. Franks. Mr. Chairman, I have no questions at this time.
    Mr. Chabot. The gentleman from Michigan, Mr. Conyers, is 
recognized for 5 minutes.
    Mr. Conyers. Thank you, Mr. Chairman.
    Just so that Mr. Rogers will sleep more comfortably in his 
bed at night, the bill that we have introduced which deals with 
ex-felon voting deals only with voting in Federal elections. So 
they don't try to tell the States what to do, and obviously, 
the States can't interfere. And that's the way we get around 
the discussion that has been raised here.
    Mr. Chairman, Mr. David Scott of Georgia has joined us and 
obviously not a Member of the Committee, but his interest is 
overriding in this matter. And I just wanted you to know that 
he was present and that he is very welcome to the Committee.
    Mr. Chabot. I share your sentiments, and Mr. Scott is a 
very distinguished Member of the House. And we welcome him with 
open arms at our meeting, and we appreciate his caring enough 
to be here today.
    Thank you very much for being here, Mr. Scott.
    Mr. Conyers. Now, the witnesses have been significantly in 
agreement today, which argues well for the first hearing and 
what we have got to go through to get this measure through as 
quickly as we can. Even though it is 2007, we still need to get 
this measure out before this 109th session expires. And so that 
is why there are a number of hearings that have been set up, 
some two, sometimes three in a week, to get us moving along.
    We have talked a lot about the South, but as has been 
pointed out, New York has areas that are covered by the Voter 
Rights Act of 1965. In Michigan, I have two townships in two 
different counties that are covered by the Voter Rights Act. 
And so wherever there are problems existing, that's where we go 
to deal with them. And it is very clear that this problem is 
not over, as every witness has testified to.
    And I think is that is very important. I wanted to raise 
the question that seems important to me, that even over and 
above the protection of this cornerstone of democracy, the 
right to vote and have your vote counted, are there other 
benefits that derive to the American system of democracy by 
having a Voter Rights Act extended, by having it strengthened 
wherever necessary, by having the expired provisions covered 
again? And I'd like to throw that open for the examination of 
anybody that would like to talk with me about it.
    Ms. Tallman. Thank you so much, Representative, I applaud 
your leadership in the voting rights arena and the civil rights 
arena, sir. You're very well regarded, not only in the African-
American community among civil rights advocates but the Latino 
community applauds all the work that you have done, so thank 
you very much for your leadership.
    I think that one of the most important aspects of the 
Voting Rights Act is providing voters the confidence in voting. 
A democracy works when people, when they go to the voting 
booth, they will be free from harassment. They will not be 
targeted. They will not be discriminated against. They will be 
able to bring a relative or friend with them if they have 
limited English proficiency, if they are disabled, if they need 
assistance in the voting booth.
    We are willing to protect freedoms in new democracies that 
are emerging around the world. We need to protect our democracy 
at home. And giving people the confidence in voting that they 
must have to know that democracy works has been a critical 
component of the Voting Rights Act.
    Mr. Conyers. Thank you.
    Mr. Morial. I think I would just add on a general basis, 
and I think we have enumerated specifics, but I think one of 
the key things is for our practices to reflect our principles, 
for the idea that democracy and the universality of suffrage is 
made real by that. The nation today has been involved in 
efforts to, quote, promote democracy abroad. Some of those 
efforts have been efforts to ensure that ethnic or religious 
minorities in countries a long way away from here have the 
right to freely participate without intimidation in the 
franchise.
    We have to be consistent, and being consistent means 
ensuring that the same practices and the same principles are 
followed here in the United States.
    Mr. Rogers. Absolutely. And Congressman, I echo those 
sentiments as expressed frankly by Marc. Clearly, the Voting 
Rights Act sets a standard. It sets a standard for the United 
States in terms of our ability to participate in this notion of 
democracy, this remarkable gift of democracy. And it helps to 
clearly espouse that in many respects throughout the world as 
we seek to do so throughout the world.
    So is it seminal it its scope? Is it broad in its range? Is 
it key to the fundamental element of who we are? I think 
clearly, as we have indeed received testimony across the United 
States, the answer to that question seems to be overwhelmingly 
yes.
    Mr. Conyers. I thank all of you because we have uncovered, 
particularly in this Committee, innumerable instances in voting 
in which people have been discouraged, misdirected, given 
improper information, sometimes from the electoral system 
locally itself. And as you said, you cannot believe in 
democracy if you are not being encouraged to choose who is 
going to govern.
    And so I thank all the witnesses, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
Before recognizing the gentleman from Florida for his 5 
minutes, the gentleman from Arizona who had yielded back his 
time I think wants to take a minute to make a statement. So I 
recognize him at this time.
    Mr. Franks. Thank you, Mr. Chairman.
    And in all respect to the panelists and the Members here, 
we have talked almost to the extent that we have redirected the 
focus of the hearing today on some of the ex-felon 
disenfranchisement. And the Voting Rights Act doesn't really 
address that at all. And I am hoping that the panel will 
address some of the issues that affect those law-abiding 
citizens who are indeed being disenfranchised in their voting, 
and I think that is something to maintain our focus upon.
    Mr. Chabot. I thank the gentleman.
    The gentleman from Florida is recognized for 5 minutes.
    Mr. Feeney. Thank you, Mr. Chairman.
    I think that the gentleman from Arizona's comments are 
right. I hate to get totally sidetracked on voting rights 
issues on the question of whether or not the problem with 
American democracy is too few convicted felons are determining 
the outcome of elections.
    I will tell you that, with respect to the constitutional 
issues here, remember, Katzenbach was very narrowly decided, 
and its determination was, this is an extraordinary exercise of 
the congressional power, dictating to the States based on the 
15th amendment, which mentions race, color or former condition 
of servitude. Unless there is a direct tie to race, color or 
former condition of servitude, there may no longer be a 
foundation for Congress to overwhelm and dictate to the States.
    And I would say that, in fairness to Florida, my friend 
from New York said that the application never works. Well, that 
is just not true. We have streamlined the process. And it is 
true we don't have automatic restoration when your sentence is 
over, but among other things, we ask for restitution, evidence 
of rehabilitation. The notion that a violent rapist ought to 
have his rights fully restored while his victim still has 
medical bills unpaid offends some Floridians, and that, I 
think, is something that policymakers in the State can decide.
    I was really interested, Mr. Rogers, in some of the 
findings that your commission has found. And I'm sorry that a 
lot of the questioning hasn't been directed to that, because, 
remember, in the Gingles test, in order to legitimately make a 
section 2 claim--we haven't asked questions, but you did a good 
job going over it--there has to be some findings. We have to 
find that we have compact and significant numbers of minorities 
in an area that are underrepresented when it comes to 
redistricting or opportunities to select candidates of their 
choice. We also have to find that there are cohesive voting 
patterns among the minorities if they had an opportunity. And 
finally, the third prong of that test is that there is 
significant cohesion among the traditional voting patterns of 
the majority, where minorities are denied their opportunity.
    And that, I think, is the most important thing that has 
been said all day in terms of the importance of the current 
rationale for any Voting Rights Act whatsoever. And I would ask 
you to elaborate on that and, to the extent that there is time, 
the other two panelists. But I think that is the most important 
thing has been said, and I would ask you, as you make that case 
that the Voting Rights Act is still relevant and apparently you 
have heard testimony that we have not heard yet, because this 
is our first hearing--this is wonderful stuff, and this is what 
we ought to be focusing on. We have got at least two Supreme 
Court justices that, based on the equal protection amendment, 
you have Thomas and Scalia saying that race-based district 
drawing is always inappropriate. That was a fair and reasonable 
rational position. We need to counteract that if we are going 
to have a fair and reasonable rationale for continuing or 
extending the Voting Rights Act. We have at least two justices 
that think that it is inappropriate.
    Sandra Day O'Conner, who tends to be a swing vote on all 
these issues--we have had a court of one until it is redone on 
things like the Voting Rights Act and redistricting, and 
O'Connor is the court. She decides, as the swing vote, 
virtually every meaningful case that has been decided in the 
last 15 years. And O'Connor said in a separate issue, but 
related issue--remember the Michigan law school preferences 
case--she said she wants to get to a color-blind society and 
has condemned the Balkanization of America. And she has said 
perhaps in 25 years we can get rid of race-based districts.
    So the debate is between, on the one hand, people who think 
we ought to have permanent race-based voting processes and 
districts; on the other hand, people like Scalia and Thomas and 
Abigail Thernstrom, who said we should never do it; and people 
like O'Connor and the rest of us who think we need to remedy 
problems when they occur.
    I hope we will get the details of the evidence that you 
have collected because that is what we need to be focused on in 
my view here. Let's get back to section 2 and section 5. I wish 
I had an hour to go into the rationale and the basis and the 
meaning of that. But Mr. Rogers, if you would address that 
question.
    Mr. Rogers. Absolutely. Thank you, Congressman, for your 
thoughts on the same. It is absolutely clear. You are dealing 
with reauthorization as it relates to two provisions, section 5 
and section 203. And those are the provisions that come up for 
reauthorization this coming year. The Supreme Court has made it 
very clear--and when I think about the standard I'm reflecting 
on the City of Boerne v. Flores opinion, in which the court 
essentially cited Congress and Congress' example of finding a 
factual basis for essentially invoking legislation as being key 
to its constitutionality.
    And in this case here, your establishment of the factual 
record, looking at the patterns or practices as they exist or 
you might find they do not exist throughout the United States 
is frankly the most important determination following this 
legislative body. Ultimately, the Supreme Court will deal with 
the management of these cases. What we have clearly seen 
throughout the United States is, with respect to section 5, 
which comes up for reauthorization, since 1982, literally the 
Department of Justice has had over 600 submissions that have 
been objected to involving some 2,000 individual objections. 
And that's just simply since 1982 as it relates to 
congressional districts throughout United States as a whole. 
Not to mention the private cases, for example, that have been 
filed throughout the United States dealing with the provisions 
of section 2, section 5, section 203, for example, by the 
Department of Justice.
    The factual record in and of itself over the course of the 
last 23 years and what we are finding in terms of our 
determinations--and again, I don't want to be too premature--
indicates that there are still remaining significant problems. 
The most fascinating thing about this, Congressman, is the 
nature of the problem in and of itself is being articulated. It 
is kind of different in the way it is being articulated today. 
As you well know, Congressman Conyers, in that era, the 
movement the country was in a different mode. There were 
different ways that people talked about issues and problems in 
our society. That was a different language at the time.
    Even though the language may have changed here in the year 
2005, the reality is that we are still seeing, unfortunately, 
practices being engaged. So it is done under a different name. 
It's done under a different label with, for example, what it 
is, is a movement from district-based elections to at-large 
elections on whims. It's the elimination wholeheartedly of 
elected positions saying that we are not going to have the 
elected office anymore. This often takes place at the local 
level in principal part as we are finding around the country, 
and it varies.
    For example, testimony that we heard, what was going on in 
Chicago, for example, or what we heard that was taking place in 
California in Los Angeles, those are not classically southern 
cities. Frankly, what we heard, Mr. Nadler, about New York and 
heard about issues related to problems related to voting or the 
testimony that we received there, all of those issues were of 
deep concern.
    The factual basis--and we're delighted to provide this 
information to the Committee--we believe will give you some 
information upon which you can say we ought to move forward on 
reauthorization or we ought not to move forward, but at the 
very least you will have the facts upon which to make a 
decision.
    Mr. Chabot. Thank you.
    The gentleman's time has expired.
    The gentleman from Virginia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott of Virginia. Thank you, Mr. Chairman.
    I want to thank our witnesses. They have contributed a 
great deal to our proceedings. And I wanted to start my 
questioning by asking Ms. Tallman, focusing on the preclearance 
provision, some have suggested that since section 2 is sitting 
up there, why do you need section 5? Can you--if the 
legislature passes an illegal plan, what are the costs involved 
in a section 5 denial of preclearance compared to a lawsuit 
under section 2?
    Ms. Tallman. The costs by minority voters to hire a private 
attorney under section 2, which is the permanent section that 
allows for a private right of action when there has been 
discrimination in voting, the costs associated with hiring 
private attorneys can run in the millions of dollars. There are 
very significant fact-based findings, facts that need to be 
gathered as opposed to section 5 preclearance in jurisdictions 
where there has been traditional discrimination or a history of 
discrimination, where there have been ongoing suits, litigation 
brought within those jurisdictions because of changes in voting 
practices that have been viewed, have been discriminatory; 
where nonprofit organizations, civil rights organizations can 
work on behalf of minority voters who, having identified 
discriminatory practices, raise those practices, it can be 
brought then under consideration by the Department of Justice, 
which I think provides a very good basis in which those that 
have suffered discrimination have a course of action.
    Mr. Scott of Virginia. Well, you mentioned the cost of 
gathering all of these facts. If you don't know whether a plan 
is discriminatory or not until you have gotten all the facts, 
who has the burden of proof under section 5? Who has the burden 
of proof under section 2?
    Ms. Tallman. Under section 5, the burden of proof is with 
the jurisdiction. So the jurisdiction that is engaged, under 
section 5, where they are a section 5 jurisdiction who is 
trying to change voting patterns and practices has that burden.
    Mr. Scott of Virginia. And the cost of getting all the 
facts to prove the case is therefore on the jurisdiction?
    Ms. Tallman. No, Congressman, there is a significant cost 
that also takes place with regard to a section 5 preclearance 
action that is brought by civil rights organizations on behalf 
of voters to the Department of Justice or by voters who hire a 
private attorney to the Department of Justice. There are still 
significant costs.
    Mr. Scott of Virginia. But that cost, compared to a section 
2 cost--can you compare the cost of getting a plan thrown out 
under section 5 by a civil rights organization protecting the 
rights of the minorities compared to the costs of defeating the 
plan under section 2?
    Ms. Tallman. We will be happy to submit, as the testimony 
continues over the next several months, in working with other 
civil rights organizations, to be able to provide a comparative 
analysis for the Members of the Committee so that they can 
determine the differential and the costs.
    Mr. Scott of Virginia. If you are under section 2, is the 
plan generally implemented and the perpetrators of the fraud, 
do they get to enjoy the fruits of their fraud while the case 
is going on if you are under section 2?
    Ms. Tallman. Under section 2, there is a claim that has 
been brought by the Attorney General or of a State or there is 
a private right of action----
    Mr. Scott of Virginia. If there is a change, if there is a 
change and you are trying to defeat it under section 2.
    Ms. Tallman. Right.
    Mr. Scott of Virginia. The plan has been implemented.
    Ms. Tallman. Yes, sir.
    Mr. Scott of Virginia. And the people who have perpetrated 
the fraud get to enjoy the fruits of their fraud while the 
litigation goes on, as opposed to section 5 where you never get 
to enjoy the fruits of your fraud to begin with because you 
can't get it precleared.
    Ms. Tallman. Yes, sir. There is a difference between 2 and 
5 where, in 5, if there is discrimination, it doesn't--there is 
no opportunity for it to be put into place. Yes, that is 
correct, sir.
    Mr. Scott of Virginia. Mayor Morial, you have run for 
public office. You have run as an incumbent and not as an 
incumbent. Can you state some of the advantages that there are 
running as an incumbent?
    Mr. Morial. Obviously, there are many advantages that an 
incumbent has. One is the ability to raise money. Two is 
already established name recognition. Three is a network of 
relationships. The fourth one can be something that cuts both 
ways, and that is, you have a record.
    Mr. Scott of Virginia. But the fact, the idea----
    Mr. Chabot. The gentleman's time has expired, but we will 
give the gentleman an additional minute.
    Mr. Scott of Virginia. Thank you. The idea is, if you were 
under section 2 and someone is enjoying all of these benefits 
even if you win under section 2, you are now facing an 
incumbent.
    Mr. Morial. I think your point is so instructive and so 
incisive that section 5 prevents in effect the discriminator 
from continuing--from being able to benefit. Because you're 
right. And there are probably a number of instances where 
people had to run in a newly created district, but because they 
were running as an incumbent and they had money and they had 
name recognition and they had relationships, even in a district 
that they could not have been elected in originally, they have 
a significant advantage.
    And I think anyone who has run for public office knows what 
I'm talking about. And I think it could be clearly documented 
and demonstrated by eminent political scientists, pollsters and 
others who you might invite before this Committee.
    Mr. Scott of Virginia. Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from North Carolina, Mr. Watt, is recognized for 5 minutes.
    Mr. Watt. Thank you, Mr. Chairman. I may not take 5 
minutes. But let me start by asking unanimous consent to submit 
an opening statement that I had prepared for the record. And by 
asking unanimous consent to submit Representative Linda 
Sanchez's opening statement record.
    Mr. Chabot. I'm sorry, I was otherwise engaged there. Would 
the gentleman repeat his request?
    Mr. Watt. I was asking unanimous consent to submit my 
opening statement and Representative Linda Sanchez's opening 
statement.
    Mr. Chabot. Without objection, so ordered. I apologize to 
the gentleman for not listening intently when he was speaking, 
as I usually do.
    Mr. Watt. Listen intently, because I wanted to associate 
myself with some of the remarks that Mr. Feeney made, which is 
so unusual in this Committee.
    And the Members on my side may have some dismay about this. 
But I agree with Mr. Feeney that we should try to restrict 
ourselves to the provisions that we ought to be trying to 
reauthorize or put into the Voting Rights Act. And, while I am 
a very strong supporter and cosponsor of the felon 
disenfranchisement legislation that has been introduced by Mr. 
Conyers, my support of that does not lead me to conclude that 
we should try to put it into the Voting Rights Act.
    Mr. Conyers. Would the gentleman yield?
    Mr. Watt. Yes.
    Mr. Conyers. I merely wanted to associate myself with that, 
which is why we introduced it in separate legislation.
    Mr. Watt. Right. I just want to be clear to the Members of 
the Committee that what we are engaged in here is so important 
as a basic constitutional proposition that we should limit 
ourselves to what we are here to try to deal with. I, in 
another context, will be as strong a supporter of legislation 
to set a national standard, to the extent that we can 
constitutionally, for felon re-enfranchisement as anybody on 
this Committee, but I think that is a subject for a different 
day.
    Having said that, I would like to spend the rest of my time 
not on the substance of the Voting Rights Act, but to basically 
lay a foundation that, if it has not already been laid, for the 
introduction at some point of the entire record that the Voting 
Rights Act commission is developing and of the Voting Rights 
Act commission's findings into our record.
    I think this is so important that, despite the fact that I 
am elated that Chairman Sensenbrenner has agreed to hold 8, 10, 
12, hearings, that the more hearings are being conducted by the 
more different sources all over the country and the more 
exhaustive we can make the record for support of the Voting 
Rights Act, the more likely it is that we will meet the 
constitutional standard that the Supreme Court has articulated 
that Mr. Feeney has made reference to.
    So I would like to ask Lieutenant Governor Rogers just to 
give us a description of where and how often and how methodical 
the commission is being in its process of developing a record. 
Because at some point, Mr. Chairman and Members of the 
Committee, I should say up front that it will be my intention 
to try to put the entire record that they are developing into 
our legislative record and make it a part of what we are doing.
    So if you could just give us as exhaustive--I've run out of 
time, but they will let you answer the question as long as you 
want to answer the question. Give us as exhaustive a 
description of what you are doing and how your commission is 
doing it as you can so that we get a full appreciation of what 
the Voting Rights Act commission is doing.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
was not going to use his complete 5 minutes and has skillfully 
acquired additional time for the witness to answer the 
question.
    Mr. Watt. It takes a lot of time for me to agree with Mr. 
Feeney. Sometimes that is not as easy. I have to couch it and 
so make sure that everybody understands exactly what I am 
saying.
    Mr. Chabot. Duly noted.
    Mr. Rogers. Thank you, Mr. Watt, so much. I wanted to make 
sure, if I could, to detail with you exactly what has happened. 
Over the course of the past years, there essentially have been 
a series of what are ten hearings that have been held 
throughout the United States. They were all public hearings. Of 
the ten hearings, seven of them are individual State hearings 
that have been held. The seven individual hearings outside of 
the three--excuse me, I don't want to be confusing. Ten total 
hearings. Of the ten, three are State hearings. Seven of them 
have been regional hearings throughout the entire country where 
we literally brought in States from--representatives from each 
individual State have either submitted direct testimony that 
they provided personally or they provided written testimony or 
they agreed to provide documents, for example, to the 
commission.
    The commission will be responsible for formally writing its 
report based upon its assessment of all of the information 
received. The information we're taking into account in terms of 
the factual record here include the Department of Justice's 
objections, DOJ enforcement actions, DOJ observer coverage, DOJ 
settlement agreements, court opinions and litigation under the 
Voting Rights Act that includes both State and Federal cases, 
expert reports on litigation under the Voting Rights Act, 
studies and reports by civil rights organizations throughout 
the United States, testimony at hearings by voting rights 
practitioners and social scientists throughout the country, 
settlement agreements from cases brought regarding voting 
rights practitioners throughout the United States as a whole.
    So we are making some effort to be as broad as possible to 
cover every range of thought as it relates to voting rights but 
not just the thought but the facts. What are the facts as they 
establish conduct as it has occurred throughout the United 
States? In particular, our reference point has been since 1982. 
We did not want you to simply have to dwell on the past or just 
to dwell 40 years in context but to really look at the 
substance of what has happened from 1982 forward.
    We would hope that we would be able to note, Mr. Watt, 
significant progress that has occurred in the country. Because 
there is no doubt, as we have been throughout the United 
States, there have been as I mentioned earlier great progress 
that has occurred in the country. But at the same time, the 
facts do indicate significant problems that remain.
    And so, in detail, forgive me for being too much in detail, 
I didn't mean to do that. We're making every effort to be as 
exhaustive as possible and would like to provide that full 
report to the Committee along with all supporting 
documentation.
    Mr. Watt. Can I ask one elaborating question?
    Mr. Chabot. Without objection.
    Mr. Watt. Just to be clear about whether you are stacking 
the deck or not stacking the deck. Are you also at each----
    Mr. Chabot. Mr. Watt before you go on, I think----
    Mr. Morial. I've got to run.
    Mr. Chabot. We would like to thank you, Mayor Morial.
    If he could be excused.
    We want to thank you.
    Mr. Watt. He has covered every base that I anticipated that 
he would cover, and I appreciate it.
    Mr. Morial. Thank you, Mr. Chairman.
    Thank you all, thank you. See you.
    Mr. Chabot. We appreciate your testimony.
    Mr. Watt. At every one of these hearings, are you providing 
a public opportunity for people, not the cast of witnesses who 
have been preselected, to express themselves also?
    Mr. Rogers. Please forgive me for not making that 
reference. That is probably the most important consideration. 
Forgive me for not referencing that. At every one of our 
hearings, we have a public testimony portion. At each one of 
these hearings, there have been press releases issued in each 
of the individual communities asking members of the public to 
come, whether you are, frankly, for this act, against the act. 
We haven't been focused on policy advocates necessarily. What 
we have asked for is people who provide facts, can you give us 
documented facts as they relate to either the existence or 
nonexistence of discrimination as it relates to voting?
    And to some extent, this begs--if I could open up a little 
bit of a can as it relates to Mr. Nadler's remarks regarding 
whether or not some jurisdictions, for example, ought to be 
able to opt out of or block or be taken out of the provisions 
of section 5, for example. There is no doubt that there is some 
debate in the United States about whether or not all 
jurisdictions should still remain under the provisions thereof, 
and that may well be the subject of your consideration.
    But at the very least, what we will seek to do is to 
provide you with the facts upon which you can make those 
determinations, and public testimony is critical in that 
regard.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Watt. Could I ask unanimous consent to allow Mr. David 
Scott to ask at least some questions? He is not a Member of our 
Committee.
    Mr. Chabot. We generally don't do that. I will make an 
exception in this case since Mr. Scott has been here this whole 
afternoon. I would also like to recognize the presence a little 
while ago of Congresswoman Maxine Waters from California who 
was also here.
    Generally, we don't unless somebody yields that. We will 
make an exception and yield to the gentleman for 3 minutes. But 
we don't want to make this, set a precedent of doing this on 
either side. We don't like to break the rules.
    Mr. Scott of Georgia. Mr. Chairman, let me thank you for 
your graciousness and kindness in granting me the opportunity, 
having not been on the Committee. I really, really appreciate 
that, and I certainly appreciate the Ranking Member, 
Congressman Conyers, for inviting me and allowing me to 
participate in this. Thank you very much, and I realize that it 
is an effort and want you to know how much I appreciate it.
    And thank you, Chairman Watt, for your generosity as well.
    I believe that this is a very, very tricky, tricky time for 
the participation, particularly of African-Americans, in the 
political process. And there is no greater example of that than 
what is happening in my State right now. We have a glaring 
example of two things: one, why it is tricky; two, why we 
desperately need the Voting Rights Act reauthorized in all of 
its parts. And that is, this law that was recently passed in 
Georgia requiring a government-sponsored, sanctioned and 
approved voter ID before one can vote. And it only applies if 
you go to the polls. It doesn't matter if you are absentee; you 
don't need that.
    If there ever was a glaring impediment to those who are 
elderly, those who are poor, those who have a habit--and it is 
very important to make this a part of the record, because 
within the African-American community, it is sacrosanct to go 
and exercise your vote because it took us so much and had to go 
through such a struggle to get it, that many will still go and 
will vote and not use the absentee.
    With that in mind, I also want to say, the other side that 
makes this so tricky is that it went through preclearance and 
was precleared, but I am very happy to announce today that just 
a few hours ago, a Federal judge did institute a preliminary 
injunction blocking the application of this very, very 
significant deterrent to voting.
    And therein lies the trickiness of what I am talking about 
and why we need it and why we need every recourse. I wanted to 
get your all's opinion on that and plus the point that there 
are six sections that will be up for renewal, plus section 203. 
Much has been said here on basically section 5. I want to get 
your opinions, do you not conclude that all of each of these 
sections needs to be reauthorized? If not, why?
    And what are your thoughts on this requirement of the voter 
ID?
    Ms. Tallman. Congressman, MALDEF was very actively involved 
in Georgia with the Black Caucus of the State in trying to 
oppose the legislation in Georgia. We are actually also 
involved in the preclearance efforts. So we are very aware of 
the potential chilling effect on voting that that particular 
piece of legislation has.
    Regarding section 203, the language provisions of the 
Voting Rights Act are very important to the Latino community, 
to the Asian American community as well as the Native American 
community. And in the Latino community alone, there are 4.3 
million voting-age citizens that are limited English 
proficient. Without section 203 of the Voting Rights Act, those 
individuals would be unlikely to vote. So we believe that, to 
Congressman Watt's point and the Congress from Florida, that 
there is much to focus on with regard to voting rights 
reauthorization; that we should not dilute the voting rights 
reauthorization debate on these very critical and important 
sections, section 5, section 203 and other language provisions, 
with a discussion around felony re-enfranchisement. But that is 
something of consideration when looking at the area of voting 
that certainly Congress is taking a lead on, and we applaud 
that lead.
    But we do believe very firmly that 203 does need to be 
reauthorized because it would have very limited--it would have 
huge impacts on limited English proficient citizens necessary 
this country.
    Mr. Rogers. Thank you, Mr. Scott. The provisions you may be 
referencing are, sections 6, 8, 9 and 13, have essentially to 
do with the ability of the Department of Justice to send 
observers in or otherwise engage the mechanism of enforcement 
related to section 5 or to section 203. Those provisions are 
important, and I know they are not as--they won't be talked 
about on the same level of significance, but they represent 
part of the substantive tools in terms of the ability to really 
move forward in terms of section 5 as well as section 203.
    Mr. Scott of Georgia. The only point--and I will conclude 
with this--that is the point I am saying, that everybody here 
is saying, that it will be reauthorized. But if we don't take 
those other sections and just dwell on 5 and we happen to not 
authorize those others, it will have a diluting and weakening 
effect as well.
    Mr. Rogers. Mr. Scott, that point is well made. There is no 
doubt, in terms of the legislation, if you looked at the key to 
the Voting Rights Act in substance, again what it effectively 
does is takes the 14th amendment and 15th amendment, and it 
makes it real. Congress essentially said, these provisions have 
been in place for years, but we're going to enact legislation 
that will help make the substance of the 14th and the 15th 
amendment a reality for people in the United States. And you 
gave it the teeth, if you will, the teeth of the provisions are 
in section 5 and certainly section 203 to the extent that it 
allows language minority voters access to the polls in new 
ways.
    Mr. Chabot. The gentleman's time has expired.
    I would note that Ms. Tallman nodded her head noting in the 
affirmative as well to the question.
    I would also ask that, without objection, all Members have 
5 legislative days to commit additional materials for the 
hearing record.
    I would also note that we have another hearing on the 
Voting Rights Act coming up in 2 days, on Thursday. It is at 10 
o'clock in the morning, and we have at least one or two more 
next week. And we will have eight all together through November 
3, and there will in all likelihood be more to come.
    If there is no further business to come before the 
Committee, I thank the witnesses for their excellent testimony 
this afternoon. And at this point, we're adjourned.
    [Whereupon, at 4:32 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Member, Subcommittee on the 
                              Constitution

    The importance of the Voting Rights Act is amply demonstrated by 
its historical bipartisan support in Congress. The commitment of 
Chairman Sensenbrenner, in particular, extends back to his support of 
reauthorization of the Act in 1982. He has evidenced his continuing 
commitment in speeches before the NAACP and the Congressional Black 
Caucus and, moreover, has agreed to a robust schedule of hearings to 
support our current reauthorization efforts. I whole heartedly salute 
his historical commitment to the Voting Rights Act and look forward to 
working with him on strengthening and reauthorizing the Act.
    When the Voting Rights Act passed in 1965, I was one of six (6) 
African-American, five (5) Latino, and four (4) Asian-American Members 
of Congress. The civil rights era was in full bloom, with sit-ins and 
marches across the South in response to the massive resistance to the 
call for equal rights. Brave Americans of different races, ethnicities, 
and religions risked their lives to stand up for political equality.
    The pursuit of equal voting rights was most dramatically displayed 
on the Edmund Pettus Bridge in Selma, Alabama on March 7, 1965, a day 
that would come to be known as ``Bloody Sunday.'' On this day, 
nonviolent civil rights marchers, like John Lewis, were beaten, 
brutalized, and demeaned. The news media brought home to all Americans 
the horror and violence that propped the system of segregation, forcing 
us to a decision point about our nation's democratic ideals. Without 
sacrifice by countless individuals in Selma and across the South, the 
struggle for equality could never have been achieved, and this 
legislation would have failed in Congress.
    Eight days after Bloody Sunday, President Lyndon B. Johnson called 
for a comprehensive and effective voting rights bill. He would sign 
that bill into law and the Voting Rights Act would come to stand as a 
tribute to the countless Americans who fought for voting rights for all 
Americans.
    Today, as we commence the process of reauthorizing the Voting 
Rights Act, its importance to opening the political process to all 
Americans is beyond doubt or challenge.
    As the Act has evolved over the last 40 years, it has been expanded 
and refined to protect language minority citizens through the 1975 
amendments, and disabled Americans through the 1982 amendments. Where 
we had anemic voter registration and turnout in many Southern states, 
such as Mississippi, with just 6 % of African Americans registered to 
vote compared to 70% White voter registration; today, 62% of all 
African Americans and 69% of all Whites are registered to vote.
    Where we had a handful of minority Members of Congress in 1965, 
today we can count 43 African-American, 29 Latino, 8 Asian-American, 
and 1 Native American in the U.S. House and Senate. And the federal 
government itself is merely the tip of the of the iceberg. Across the 
nation, the number of people of color elected to federal, state, and 
local offices has increased tremendously in the last forty years, 
opening the political process to every American. It is not an 
overstatement to call the Voting Rights Act the keystone of our 
nation's array of civil rights statutes.
    While there is much to celebrate over the last 40 years, we have 
not yet reached the point where the special provisions of the Act 
should be allowed to lapse, as some might have you believe. Witnesses 
will bring us testimony over the next several weeks and months from 
around the country, detailing the continuing barriers to equal voting 
rights faced by people of color, language minorities, and the disabled.
    It is these modern day challenges, along with the continuing 
historical barriers, that require us to ensure the continuing vitality 
of the Voting Rights Act. The reauthorization process is an opportunity 
to take stock of where we are and, if necessary, to make adjustments 
that will protect and strengthen the Act, just as we have done in the 
past.
    I trust that, as a Committee, we will work collectively to protect 
the vitality of the Act. I am also pleased that we will be joined in 
this process by civil rights groups like the Lawyers' Committee, LCCR, 
NAACP, ACLU, the Legal Defense Fund, MALDEF, People For the American 
Way, the National Council of La Raza, the Native American Rights Fund, 
the National Asian Pacific American Legal Consortium, and many others 
who support our important work in this area.
    The Voting Rights Act is one of the nation's most important civil 
rights victories. It memorializes those who marched, struggled, and 
even died to secure the right to vote for all Americans. Through 
hearings and other dialogue, we will establish a detailed record 
supporting reauthorization. We owe a deliberative and thoughtful 
process to those who risked so much in the fight for equal rights. 
While we must applaud the substantial progress which has been made in 
the area of voting rights, we must also continue our efforts to protect 
the rights of every American voter.

                               __________

Prepared Statement of the Honorable Melvin L. Watt, a Representative in 
Congress from the State of North Carolina, and Member, Subcommittee on 
                            the Constitution

    Mr. Chairman, thank you for convening this first in a series of 
very important hearings on the reauthorization of the Voting Rights Act 
of 1965. Several months ago, the Chairman of the Full Judiciary 
Committee, Jim Sensenbrenner and I began a discussion that continues to 
this day. Recognizing that several provisions of the Voting Rights Act 
were due to expire in 2007, the Chairman and I fully agreed that 
extensive hearings should be held to sustain any constitutional 
challenge that may come. On September 23, 2005, at my annual 
Congressional Black Caucus Voting Rights Braintrust, Chairman 
Sensenbrenner announced this series of hearings. He noted that, 
``[t]his bipartisan effort should educate Members about the complex 
nuances of the Voting Rights Act and build a solid legislative record 
towards our goal of a long-term Voting Rights Act extension.''
    I share the goal of extending the Voting Rights Act and also 
believe that the Act should be strengthened to ensure that Congress's 
intent in protecting the voting rights of all Americans is fully 
realized. In the 40 years since its passage, the Voting Rights Act has 
come to be regarded as one of the most effective civil rights laws in 
our Nation's history. The Act has safeguarded the right of millions of 
minorities to have their votes counted and therefore, their voices 
heard. The gains in African American, Latino, Asian and Native American 
elected officials is but one indication of the success of the Act. 
Prior to passage of the Voting Rights Act, there were fewer than 300 
African Americans in public office in all the southern states. This 
figure rose to 2,400 by 1980, and stands at more than 9,100 today.
    The trends in increased voter registration may also be attributed 
to some degree to the existence of the Voting Rights Act. These gains 
are a testament to the effectiveness of the Act as well as to its 
continued necessity. But the success of the Voting Rights Act is not 
cause for its demise. When something works you run with it not away 
from it! Not to extend and strengthen the Voting Rights Act would be a 
blow to democracy.
    Very briefly, let me just say that each of the expiring provisions 
of the Voting Rights Act serve a vitally important and unique purpose: 
Section 5 requires those jurisdictions with an ongoing record of 
discrimination to ``pre-clear'' any voting changes to ensure that those 
changes will not disenfranchise racial, ethnic, and language minority 
voters. Jurisdictions covered by Section 5 may ``bail-out'' from 
coverage by demonstrating compliance with the Voting Rights Act and 
that they facilitate equal opportunity at the ballot box.
    Section 203 requires bilingual voting assistance for language 
minority communities in jurisdictions that have a significant 
population of language minority groups, evidence of severe language 
barriers, high rates of illiteracy, or depressed voter registration or 
turnout. Section 203 extends to American citizens with limited English 
proficiency who pay taxes, serve in the military and embrace all of the 
other obligations of citizenship, equal and meaningful access to the 
benefits of the ballot box.
    Other expiring provisions of the Voting Rights Act help ensure that 
voters are free from discrimination on election day. The federal 
examiner and observer provisions are key when effectively utilized by 
the Department of Justice. Examiners may prepare and maintain lists of 
eligible voters and receive complaints by phone, while observers are 
assigned to monitor elections in specific jurisdictions that are 
suspected of discriminatory activity. This federal presence also serves 
a deterrent effect discouraging those who might otherwise treat 
minority voters with hostility and intimidation.
    Based upon a record of evidence demonstrating how gerrymandering, 
annexations, at-large election policies and other political 
machinations have been employed to disfranchise minority voters, 
Congress has voted three times to extend Sec. 5 coverage: in 1970 (for 
five years), 1975 (for seven years) and 1982 (for 25 years). 
Notwithstanding the considerable progress in minority voting rights and 
office holding in recent times, I expect that we will see a similar 
record compiled throughout these hearings substantiating the continuing 
need for the Voting Rights Act and its expiring provisions. Moreover, 
we must act to strengthen and expand the Voting Rights Act by 
addressing restrictive Supreme Court decisions and providing for 
adequate resources to litigate cases seeking compliance with the Act.
    Mr. Chairman, I am pleased that we are conducting these hearings. I 
welcome and look forward to the testimony of our distinguished panel of 
witnesses, and yield back the balance of my time.

                               __________

Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
                in Congress from the State of California

    Thank you, Chairman Chabot and Ranking Member Nadler for convening 
this hearing, ``To Examine the Impact and Effectiveness of the Voting 
Rights Act.''
    In my opinion and the opinion of many leaders in the civil rights 
community, the Voting Rights Act has had a tremendous impact on the 
voting rights of all minority groups, including Latinos.
    The Voting Rights Act is one of the most successful and exercised 
civil rights laws in American history, and this landmark legislation 
has effectively given all Americans political power and voter 
enfranchisement.
    For Latinos and other communities suffering from long histories of 
discrimination and disenfranchisement, the Voting Rights Act has been 
key to gaining equality and fairness in the electoral process.
    Before the Voting Rights Act was passed in 1965, literacy tests, 
poll taxes and intentionally discriminatory mechanisms were used to 
keep Latinos and other minorities from the polls.
    Today, many of the advancements and achievement of Latinos in our 
democracy are a direct result of the Voting Rights Act.
    Several current Members of the Congressional Hispanic Caucus would 
not be in the House of Representatives today without the Voting Rights 
Act.
    Members such as Congressmen Ed Pastor of Arizona and Jose Serrano 
of New York have districts that were drawn as a direct result of the 
Voting Rights Act.
    This vital statute also opened the door to empower individuals like 
Willie Velazquez, whose mission in life was to register Hispanic 
Americans.
    Today, we all know that his slogan ``Su voto es su voz'' ('Your 
vote is your voice') continues to resonate in our community today.
    The positive impact the Voting Rights Act has had on all Latinos is 
evident.
    For instance, when the VRA was enacted in 1965, about two-and-a-
half million Latinos were registered to vote. Today there are 9.3 
million Latinos registered to vote.
    In the past three decades, Latino registration has quadrupled, 
while our participation in elections has tripled.
    In the 1976 presidential election, about 2 million ballots were 
cast by Hispanic Americans and in 2004 that number climbed to a record 
7.5 million.
    In 1974, there were about 1,200 Latino elected officials. Today 
there are 6,000.
    I am proud that my sister and I are two of those 6,000 Latino 
elected officials, the first sisters ever elected to the United States 
Congress.
    While we have come a long way from the widespread use of such 
blatant tactics as literacy tests to deny Latinos of their voting 
rights, more subtle efforts persist.
    For example, in 1988 the Orange County Republican Party hired 
uniformed security guards to be posted at polling places in heavily 
Latino precincts. The guards, wearing blue uniforms and badges, were 
removed from polling places after the chief deputy secretary of state 
said their presence was an ``unlawful intimidation of voters.'' The 
next year, the Orange County GOP paid $400,000 to settle a lawsuit 
stemming from their voter intimidation program.
    Many communities still rely on the Voting Rights Act to maintain 
full participation in local, state, and federal elections.
    I my home state of California in 2004, 26 out of 58 counties are 
covered by the language minority provisions of the Voting Rights Act. 
Within those 26 counties, there are 26 Hispanic communities, 6 Chinese 
communities, 3 Filipino and Vietnamese communities, and two American 
Indian communities where language minorities are covered by the Voting 
Rights Act.
    These protections allow millions of voters to make their voices 
heard on Election Day.
    California is also one of ten states with overlapping coverage 
under Section 203 and Section 5, two of the most important provisions 
of the Voting Rights Act for language minorities.
    Section 5 has prevented jurisdictions from redrawing district lines 
or otherwise amending election procedures in a way that discriminates 
against Latino voters by requiring those jurisdictions to get pre-
clearance of any changes in electoral practices from the Department of 
Justice.
    Section 203 is vitally important to Latinos because it requires 
certain jurisdictions to provide bilingual assistance to language 
minority citizens at all stages of the voting process.
    As the U.S. House of Representatives begins reauthorizing the 
Voting Rights Act, we must recognize that Section 5 and Section 203 are 
not mutually exclusive.
    These two sections have worked together to protect Latinos and must 
be reauthorized together to permanently preserve voting rights for 
Latinos and all language minority groups.
    As the Judiciary Committee, the House, and the Senate, work to 
reauthorize the VRA, we must ensure that Section 5, Section 203, and 
all of the expiring provisions are not only reauthorized, but 
strengthened to preserve and cultivate total participation in the 
voting process.
    Voting is the one way that every American citizen is able to 
directly participate in our democracy. The Voting Rights Act is 
invaluable in preserving equal participation for all Americans in our 
government. This legislation must be reauthorized.
    I look forward to the testimony of the Subcommittee's distinguished 
panel of witnesses. I am positive their testimony will begin the 
process of establishing a thorough Congressional record in support of 
reauthorizing the Voting Rights Act.

Prepared Statement of the Rainbow Push Coalition on Reauthorization of 
 the Voting Rights Act, submitted by Mr. Chabot during the hearing, at 
                       the request of Mr. Conyers

[GRAPHIC] [TIFF OMITTED] T4033.011

[GRAPHIC] [TIFF OMITTED] T4033.012

[GRAPHIC] [TIFF OMITTED] T4033.013

[GRAPHIC] [TIFF OMITTED] T4033.014

Prepared Statement of Hazel Dukes, President, New York State Conference 
of NAACP Branches, before the National Commission on the Voting Rights 
                           Act, June 14, 2005

[GRAPHIC] [TIFF OMITTED] T4033.015

[GRAPHIC] [TIFF OMITTED] T4033.016

[GRAPHIC] [TIFF OMITTED] T4033.017

[GRAPHIC] [TIFF OMITTED] T4033.018

[GRAPHIC] [TIFF OMITTED] T4033.019

[GRAPHIC] [TIFF OMITTED] T4033.020

Prepared Statement of Joseph D. Rich before the National Commission on 
                  the Voting Rights Act, June 14, 2005

[GRAPHIC] [TIFF OMITTED] T4033.021

[GRAPHIC] [TIFF OMITTED] T4033.022

[GRAPHIC] [TIFF OMITTED] T4033.023

[GRAPHIC] [TIFF OMITTED] T4033.024

[GRAPHIC] [TIFF OMITTED] T4033.025

[GRAPHIC] [TIFF OMITTED] T4033.026

[GRAPHIC] [TIFF OMITTED] T4033.027

Prepared Statement of Dolores Watson, Member, Long Island ACORN, before 
    the National Commission on the Voting Rights Act, June 14, 2005

[GRAPHIC] [TIFF OMITTED] T4033.028

 Prepared Statement of Carlos Zayas before the National Commission on 
                  the Voting Rights Act, June 14, 2005

[GRAPHIC] [TIFF OMITTED] T4033.029

[GRAPHIC] [TIFF OMITTED] T4033.030

[GRAPHIC] [TIFF OMITTED] T4033.031

[GRAPHIC] [TIFF OMITTED] T4033.032

[GRAPHIC] [TIFF OMITTED] T4033.033

[GRAPHIC] [TIFF OMITTED] T4033.034

   Prepared Statement of the Honorable William Lacy Clay, Member of 
  Congress, submitted to the National Commission on the Voting Rights 
                           Act, July 20, 2005

[GRAPHIC] [TIFF OMITTED] T4033.035

[GRAPHIC] [TIFF OMITTED] T4033.036

 Prepared Statement of Gwen Carr before the National Commission on the 
                    Voting Rights Act, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.037

[GRAPHIC] [TIFF OMITTED] T4033.038

[GRAPHIC] [TIFF OMITTED] T4033.039

[GRAPHIC] [TIFF OMITTED] T4033.040

[GRAPHIC] [TIFF OMITTED] T4033.041

[GRAPHIC] [TIFF OMITTED] T4033.042

 Prepared Statement of Carol Juneau before the National Commission on 
                  the Voting Rights Act, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.043

[GRAPHIC] [TIFF OMITTED] T4033.044

[GRAPHIC] [TIFF OMITTED] T4033.045

[GRAPHIC] [TIFF OMITTED] T4033.046

[GRAPHIC] [TIFF OMITTED] T4033.047

   Prepared Statement of Stephen Laudig, Attorney, submitted to the 
      National Commission on the Voting Rights Act, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.048

[GRAPHIC] [TIFF OMITTED] T4033.049

[GRAPHIC] [TIFF OMITTED] T4033.050

[GRAPHIC] [TIFF OMITTED] T4033.051

[GRAPHIC] [TIFF OMITTED] T4033.052

[GRAPHIC] [TIFF OMITTED] T4033.053

[GRAPHIC] [TIFF OMITTED] T4033.054

[GRAPHIC] [TIFF OMITTED] T4033.055

[GRAPHIC] [TIFF OMITTED] T4033.056

[GRAPHIC] [TIFF OMITTED] T4033.057

[GRAPHIC] [TIFF OMITTED] T4033.058

[GRAPHIC] [TIFF OMITTED] T4033.059

[GRAPHIC] [TIFF OMITTED] T4033.060

[GRAPHIC] [TIFF OMITTED] T4033.061

[GRAPHIC] [TIFF OMITTED] T4033.062

[GRAPHIC] [TIFF OMITTED] T4033.063

[GRAPHIC] [TIFF OMITTED] T4033.064

[GRAPHIC] [TIFF OMITTED] T4033.065

[GRAPHIC] [TIFF OMITTED] T4033.066

[GRAPHIC] [TIFF OMITTED] T4033.067

[GRAPHIC] [TIFF OMITTED] T4033.068

[GRAPHIC] [TIFF OMITTED] T4033.069

[GRAPHIC] [TIFF OMITTED] T4033.070

[GRAPHIC] [TIFF OMITTED] T4033.071

[GRAPHIC] [TIFF OMITTED] T4033.072

[GRAPHIC] [TIFF OMITTED] T4033.073

[GRAPHIC] [TIFF OMITTED] T4033.074

[GRAPHIC] [TIFF OMITTED] T4033.075

[GRAPHIC] [TIFF OMITTED] T4033.076

[GRAPHIC] [TIFF OMITTED] T4033.077

[GRAPHIC] [TIFF OMITTED] T4033.078

[GRAPHIC] [TIFF OMITTED] T4033.079

[GRAPHIC] [TIFF OMITTED] T4033.080

  Prepared Statement of the Honorable Gwen Moore, Member of Congress, 
 before the National Commission on the Voting Rights Act, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.081

[GRAPHIC] [TIFF OMITTED] T4033.082

[GRAPHIC] [TIFF OMITTED] T4033.083

Prepared Statement of the Honorable Barack Obama, Senator, submitted to 
    the National Commission on the Voting Rights Act, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.084

[GRAPHIC] [TIFF OMITTED] T4033.085

     Prepared Statement of Mark Ritchie, President, Institute for 
  Agriculture and Trade Policy, before the National Commission on the 
                    Voting Rights Act, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.086

[GRAPHIC] [TIFF OMITTED] T4033.087

[GRAPHIC] [TIFF OMITTED] T4033.088

 Prepared Statement of Elona Street-Stewart, Chair, St. Paul Board of 
  Education, before the National Commission on the Voting Rights Act, 
                             July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.089

[GRAPHIC] [TIFF OMITTED] T4033.090

 Prepared Statement of Alice Tregay before the National Commission on 
                  the Voting Rights Act, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.091

[GRAPHIC] [TIFF OMITTED] T4033.092

[GRAPHIC] [TIFF OMITTED] T4033.093

    Prepared Statement of Ihsan Ali Alkhatib, Board President, Arab-
American Anti-Discrimination Committee, before the National Commission 
                on the Voting Rights Act, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.094

[GRAPHIC] [TIFF OMITTED] T4033.095

[GRAPHIC] [TIFF OMITTED] T4033.096

[GRAPHIC] [TIFF OMITTED] T4033.097

Prepared Statement of Bradford Brown before the National Commission on 
                 the Voting Rights Act, August 4, 2005

[GRAPHIC] [TIFF OMITTED] T4033.098

[GRAPHIC] [TIFF OMITTED] T4033.099

[GRAPHIC] [TIFF OMITTED] T4033.100

 Prepared Statement of Marlon Primes before the National Commission on 
                 the Voting Rights Act, August 4, 2005

[GRAPHIC] [TIFF OMITTED] T4033.101

[GRAPHIC] [TIFF OMITTED] T4033.102

[GRAPHIC] [TIFF OMITTED] T4033.103

 National Commission on the Voting Rights Act, Transcript of Southern 
                    Regional Hearing, March 11, 2005

[GRAPHIC] [TIFF OMITTED] T4033.104

[GRAPHIC] [TIFF OMITTED] T4033.105

[GRAPHIC] [TIFF OMITTED] T4033.106

[GRAPHIC] [TIFF OMITTED] T4033.107

[GRAPHIC] [TIFF OMITTED] T4033.108

[GRAPHIC] [TIFF OMITTED] T4033.109

[GRAPHIC] [TIFF OMITTED] T4033.110

[GRAPHIC] [TIFF OMITTED] T4033.111

[GRAPHIC] [TIFF OMITTED] T4033.112

[GRAPHIC] [TIFF OMITTED] T4033.113

[GRAPHIC] [TIFF OMITTED] T4033.114

[GRAPHIC] [TIFF OMITTED] T4033.115

[GRAPHIC] [TIFF OMITTED] T4033.116

[GRAPHIC] [TIFF OMITTED] T4033.117

[GRAPHIC] [TIFF OMITTED] T4033.118

[GRAPHIC] [TIFF OMITTED] T4033.119

[GRAPHIC] [TIFF OMITTED] T4033.120

[GRAPHIC] [TIFF OMITTED] T4033.121

[GRAPHIC] [TIFF OMITTED] T4033.122

[GRAPHIC] [TIFF OMITTED] T4033.123

[GRAPHIC] [TIFF OMITTED] T4033.124

[GRAPHIC] [TIFF OMITTED] T4033.125

[GRAPHIC] [TIFF OMITTED] T4033.126

[GRAPHIC] [TIFF OMITTED] T4033.127

[GRAPHIC] [TIFF OMITTED] T4033.128

[GRAPHIC] [TIFF OMITTED] T4033.129

[GRAPHIC] [TIFF OMITTED] T4033.130

[GRAPHIC] [TIFF OMITTED] T4033.131

[GRAPHIC] [TIFF OMITTED] T4033.132

[GRAPHIC] [TIFF OMITTED] T4033.133

[GRAPHIC] [TIFF OMITTED] T4033.134

[GRAPHIC] [TIFF OMITTED] T4033.135

[GRAPHIC] [TIFF OMITTED] T4033.136

[GRAPHIC] [TIFF OMITTED] T4033.137

[GRAPHIC] [TIFF OMITTED] T4033.138

[GRAPHIC] [TIFF OMITTED] T4033.139

[GRAPHIC] [TIFF OMITTED] T4033.140

[GRAPHIC] [TIFF OMITTED] T4033.141

[GRAPHIC] [TIFF OMITTED] T4033.142

[GRAPHIC] [TIFF OMITTED] T4033.143

[GRAPHIC] [TIFF OMITTED] T4033.144

[GRAPHIC] [TIFF OMITTED] T4033.145

[GRAPHIC] [TIFF OMITTED] T4033.146

[GRAPHIC] [TIFF OMITTED] T4033.147

[GRAPHIC] [TIFF OMITTED] T4033.148

[GRAPHIC] [TIFF OMITTED] T4033.149

[GRAPHIC] [TIFF OMITTED] T4033.150

[GRAPHIC] [TIFF OMITTED] T4033.151

[GRAPHIC] [TIFF OMITTED] T4033.152

[GRAPHIC] [TIFF OMITTED] T4033.153

[GRAPHIC] [TIFF OMITTED] T4033.154

[GRAPHIC] [TIFF OMITTED] T4033.155

[GRAPHIC] [TIFF OMITTED] T4033.156

[GRAPHIC] [TIFF OMITTED] T4033.157

[GRAPHIC] [TIFF OMITTED] T4033.158

[GRAPHIC] [TIFF OMITTED] T4033.159

[GRAPHIC] [TIFF OMITTED] T4033.160

[GRAPHIC] [TIFF OMITTED] T4033.161

[GRAPHIC] [TIFF OMITTED] T4033.162

[GRAPHIC] [TIFF OMITTED] T4033.163

[GRAPHIC] [TIFF OMITTED] T4033.164

[GRAPHIC] [TIFF OMITTED] T4033.165

[GRAPHIC] [TIFF OMITTED] T4033.166

[GRAPHIC] [TIFF OMITTED] T4033.167

[GRAPHIC] [TIFF OMITTED] T4033.168

[GRAPHIC] [TIFF OMITTED] T4033.169

[GRAPHIC] [TIFF OMITTED] T4033.170

[GRAPHIC] [TIFF OMITTED] T4033.171

[GRAPHIC] [TIFF OMITTED] T4033.172

[GRAPHIC] [TIFF OMITTED] T4033.173

[GRAPHIC] [TIFF OMITTED] T4033.174

[GRAPHIC] [TIFF OMITTED] T4033.175

[GRAPHIC] [TIFF OMITTED] T4033.176

[GRAPHIC] [TIFF OMITTED] T4033.177

[GRAPHIC] [TIFF OMITTED] T4033.178

[GRAPHIC] [TIFF OMITTED] T4033.179

[GRAPHIC] [TIFF OMITTED] T4033.180

[GRAPHIC] [TIFF OMITTED] T4033.181

 National Commission on the Voting Rights Act, Transcript of Southwest 
                    Regional Hearing, April 7, 2005

[GRAPHIC] [TIFF OMITTED] T4033.182

[GRAPHIC] [TIFF OMITTED] T4033.183

[GRAPHIC] [TIFF OMITTED] T4033.184

[GRAPHIC] [TIFF OMITTED] T4033.185

[GRAPHIC] [TIFF OMITTED] T4033.186

[GRAPHIC] [TIFF OMITTED] T4033.187

[GRAPHIC] [TIFF OMITTED] T4033.188

[GRAPHIC] [TIFF OMITTED] T4033.189

[GRAPHIC] [TIFF OMITTED] T4033.190

[GRAPHIC] [TIFF OMITTED] T4033.191

[GRAPHIC] [TIFF OMITTED] T4033.192

[GRAPHIC] [TIFF OMITTED] T4033.193

[GRAPHIC] [TIFF OMITTED] T4033.194

[GRAPHIC] [TIFF OMITTED] T4033.195

[GRAPHIC] [TIFF OMITTED] T4033.196

[GRAPHIC] [TIFF OMITTED] T4033.197

[GRAPHIC] [TIFF OMITTED] T4033.198

[GRAPHIC] [TIFF OMITTED] T4033.199

[GRAPHIC] [TIFF OMITTED] T4033.200

[GRAPHIC] [TIFF OMITTED] T4033.201

[GRAPHIC] [TIFF OMITTED] T4033.202

[GRAPHIC] [TIFF OMITTED] T4033.203

[GRAPHIC] [TIFF OMITTED] T4033.204

[GRAPHIC] [TIFF OMITTED] T4033.205

[GRAPHIC] [TIFF OMITTED] T4033.206

[GRAPHIC] [TIFF OMITTED] T4033.207

[GRAPHIC] [TIFF OMITTED] T4033.208

[GRAPHIC] [TIFF OMITTED] T4033.209

[GRAPHIC] [TIFF OMITTED] T4033.210

[GRAPHIC] [TIFF OMITTED] T4033.211

[GRAPHIC] [TIFF OMITTED] T4033.212

[GRAPHIC] [TIFF OMITTED] T4033.213

[GRAPHIC] [TIFF OMITTED] T4033.214

[GRAPHIC] [TIFF OMITTED] T4033.215

[GRAPHIC] [TIFF OMITTED] T4033.216

[GRAPHIC] [TIFF OMITTED] T4033.217

[GRAPHIC] [TIFF OMITTED] T4033.218

[GRAPHIC] [TIFF OMITTED] T4033.219

[GRAPHIC] [TIFF OMITTED] T4033.220

[GRAPHIC] [TIFF OMITTED] T4033.221

[GRAPHIC] [TIFF OMITTED] T4033.222

[GRAPHIC] [TIFF OMITTED] T4033.223

[GRAPHIC] [TIFF OMITTED] T4033.224

[GRAPHIC] [TIFF OMITTED] T4033.225

[GRAPHIC] [TIFF OMITTED] T4033.226

[GRAPHIC] [TIFF OMITTED] T4033.227

[GRAPHIC] [TIFF OMITTED] T4033.228

[GRAPHIC] [TIFF OMITTED] T4033.229

[GRAPHIC] [TIFF OMITTED] T4033.230

[GRAPHIC] [TIFF OMITTED] T4033.231

[GRAPHIC] [TIFF OMITTED] T4033.232

[GRAPHIC] [TIFF OMITTED] T4033.233

[GRAPHIC] [TIFF OMITTED] T4033.234

[GRAPHIC] [TIFF OMITTED] T4033.235

[GRAPHIC] [TIFF OMITTED] T4033.236

[GRAPHIC] [TIFF OMITTED] T4033.237

[GRAPHIC] [TIFF OMITTED] T4033.238

[GRAPHIC] [TIFF OMITTED] T4033.239

[GRAPHIC] [TIFF OMITTED] T4033.240

[GRAPHIC] [TIFF OMITTED] T4033.241

[GRAPHIC] [TIFF OMITTED] T4033.242

[GRAPHIC] [TIFF OMITTED] T4033.243

[GRAPHIC] [TIFF OMITTED] T4033.244

[GRAPHIC] [TIFF OMITTED] T4033.245

[GRAPHIC] [TIFF OMITTED] T4033.246

[GRAPHIC] [TIFF OMITTED] T4033.247

[GRAPHIC] [TIFF OMITTED] T4033.248

[GRAPHIC] [TIFF OMITTED] T4033.249

[GRAPHIC] [TIFF OMITTED] T4033.250

[GRAPHIC] [TIFF OMITTED] T4033.251

[GRAPHIC] [TIFF OMITTED] T4033.252

[GRAPHIC] [TIFF OMITTED] T4033.253

[GRAPHIC] [TIFF OMITTED] T4033.254

[GRAPHIC] [TIFF OMITTED] T4033.255

[GRAPHIC] [TIFF OMITTED] T4033.256

[GRAPHIC] [TIFF OMITTED] T4033.257

[GRAPHIC] [TIFF OMITTED] T4033.258

[GRAPHIC] [TIFF OMITTED] T4033.259

[GRAPHIC] [TIFF OMITTED] T4033.260

[GRAPHIC] [TIFF OMITTED] T4033.261

[GRAPHIC] [TIFF OMITTED] T4033.262

[GRAPHIC] [TIFF OMITTED] T4033.263

[GRAPHIC] [TIFF OMITTED] T4033.264

[GRAPHIC] [TIFF OMITTED] T4033.265

[GRAPHIC] [TIFF OMITTED] T4033.266

[GRAPHIC] [TIFF OMITTED] T4033.267

 National Commission on the Voting Rights Act, Transcript of Northeast 
                    Regional Hearing, June 14, 2005

[GRAPHIC] [TIFF OMITTED] T4033.268

[GRAPHIC] [TIFF OMITTED] T4033.269

[GRAPHIC] [TIFF OMITTED] T4033.270

[GRAPHIC] [TIFF OMITTED] T4033.271

[GRAPHIC] [TIFF OMITTED] T4033.272

[GRAPHIC] [TIFF OMITTED] T4033.273

[GRAPHIC] [TIFF OMITTED] T4033.274

[GRAPHIC] [TIFF OMITTED] T4033.275

[GRAPHIC] [TIFF OMITTED] T4033.276

[GRAPHIC] [TIFF OMITTED] T4033.277

[GRAPHIC] [TIFF OMITTED] T4033.278

[GRAPHIC] [TIFF OMITTED] T4033.279

[GRAPHIC] [TIFF OMITTED] T4033.280

[GRAPHIC] [TIFF OMITTED] T4033.281

[GRAPHIC] [TIFF OMITTED] T4033.282

[GRAPHIC] [TIFF OMITTED] T4033.283

[GRAPHIC] [TIFF OMITTED] T4033.284

[GRAPHIC] [TIFF OMITTED] T4033.285

[GRAPHIC] [TIFF OMITTED] T4033.286

[GRAPHIC] [TIFF OMITTED] T4033.287

[GRAPHIC] [TIFF OMITTED] T4033.288

[GRAPHIC] [TIFF OMITTED] T4033.289

[GRAPHIC] [TIFF OMITTED] T4033.290

[GRAPHIC] [TIFF OMITTED] T4033.291

[GRAPHIC] [TIFF OMITTED] T4033.292

[GRAPHIC] [TIFF OMITTED] T4033.293

[GRAPHIC] [TIFF OMITTED] T4033.294

[GRAPHIC] [TIFF OMITTED] T4033.295

[GRAPHIC] [TIFF OMITTED] T4033.296

[GRAPHIC] [TIFF OMITTED] T4033.297

[GRAPHIC] [TIFF OMITTED] T4033.298

[GRAPHIC] [TIFF OMITTED] T4033.299

[GRAPHIC] [TIFF OMITTED] T4033.300

[GRAPHIC] [TIFF OMITTED] T4033.301

[GRAPHIC] [TIFF OMITTED] T4033.302

[GRAPHIC] [TIFF OMITTED] T4033.303

[GRAPHIC] [TIFF OMITTED] T4033.304

[GRAPHIC] [TIFF OMITTED] T4033.305

[GRAPHIC] [TIFF OMITTED] T4033.306

[GRAPHIC] [TIFF OMITTED] T4033.307

[GRAPHIC] [TIFF OMITTED] T4033.308

[GRAPHIC] [TIFF OMITTED] T4033.309

[GRAPHIC] [TIFF OMITTED] T4033.310

[GRAPHIC] [TIFF OMITTED] T4033.311

[GRAPHIC] [TIFF OMITTED] T4033.312

[GRAPHIC] [TIFF OMITTED] T4033.313

[GRAPHIC] [TIFF OMITTED] T4033.314

[GRAPHIC] [TIFF OMITTED] T4033.315

[GRAPHIC] [TIFF OMITTED] T4033.316

[GRAPHIC] [TIFF OMITTED] T4033.317

[GRAPHIC] [TIFF OMITTED] T4033.318

[GRAPHIC] [TIFF OMITTED] T4033.319

[GRAPHIC] [TIFF OMITTED] T4033.320

[GRAPHIC] [TIFF OMITTED] T4033.321

[GRAPHIC] [TIFF OMITTED] T4033.322

[GRAPHIC] [TIFF OMITTED] T4033.323

[GRAPHIC] [TIFF OMITTED] T4033.324

[GRAPHIC] [TIFF OMITTED] T4033.325

  National Commission on the Voting Rights Act, Transcript of Midwest 
                    Regional Hearing, July 22, 2005

[GRAPHIC] [TIFF OMITTED] T4033.326

[GRAPHIC] [TIFF OMITTED] T4033.327

[GRAPHIC] [TIFF OMITTED] T4033.328

[GRAPHIC] [TIFF OMITTED] T4033.329

[GRAPHIC] [TIFF OMITTED] T4033.330

[GRAPHIC] [TIFF OMITTED] T4033.331

[GRAPHIC] [TIFF OMITTED] T4033.332

[GRAPHIC] [TIFF OMITTED] T4033.333

[GRAPHIC] [TIFF OMITTED] T4033.334

[GRAPHIC] [TIFF OMITTED] T4033.335

[GRAPHIC] [TIFF OMITTED] T4033.336

[GRAPHIC] [TIFF OMITTED] T4033.337

[GRAPHIC] [TIFF OMITTED] T4033.338

[GRAPHIC] [TIFF OMITTED] T4033.339

[GRAPHIC] [TIFF OMITTED] T4033.340

[GRAPHIC] [TIFF OMITTED] T4033.341

[GRAPHIC] [TIFF OMITTED] T4033.342

[GRAPHIC] [TIFF OMITTED] T4033.343

[GRAPHIC] [TIFF OMITTED] T4033.344

[GRAPHIC] [TIFF OMITTED] T4033.345

[GRAPHIC] [TIFF OMITTED] T4033.346

[GRAPHIC] [TIFF OMITTED] T4033.347

[GRAPHIC] [TIFF OMITTED] T4033.348

[GRAPHIC] [TIFF OMITTED] T4033.349

[GRAPHIC] [TIFF OMITTED] T4033.350

[GRAPHIC] [TIFF OMITTED] T4033.351

[GRAPHIC] [TIFF OMITTED] T4033.352

[GRAPHIC] [TIFF OMITTED] T4033.353

[GRAPHIC] [TIFF OMITTED] T4033.354

[GRAPHIC] [TIFF OMITTED] T4033.355

[GRAPHIC] [TIFF OMITTED] T4033.356

[GRAPHIC] [TIFF OMITTED] T4033.357

[GRAPHIC] [TIFF OMITTED] T4033.358

[GRAPHIC] [TIFF OMITTED] T4033.359

[GRAPHIC] [TIFF OMITTED] T4033.360

[GRAPHIC] [TIFF OMITTED] T4033.361

[GRAPHIC] [TIFF OMITTED] T4033.362

[GRAPHIC] [TIFF OMITTED] T4033.363

[GRAPHIC] [TIFF OMITTED] T4033.364

[GRAPHIC] [TIFF OMITTED] T4033.365

[GRAPHIC] [TIFF OMITTED] T4033.366

[GRAPHIC] [TIFF OMITTED] T4033.367

[GRAPHIC] [TIFF OMITTED] T4033.368

[GRAPHIC] [TIFF OMITTED] T4033.369

[GRAPHIC] [TIFF OMITTED] T4033.370

[GRAPHIC] [TIFF OMITTED] T4033.371

[GRAPHIC] [TIFF OMITTED] T4033.372

[GRAPHIC] [TIFF OMITTED] T4033.373

[GRAPHIC] [TIFF OMITTED] T4033.374

[GRAPHIC] [TIFF OMITTED] T4033.375

[GRAPHIC] [TIFF OMITTED] T4033.376

[GRAPHIC] [TIFF OMITTED] T4033.377

[GRAPHIC] [TIFF OMITTED] T4033.378

[GRAPHIC] [TIFF OMITTED] T4033.379

[GRAPHIC] [TIFF OMITTED] T4033.380

[GRAPHIC] [TIFF OMITTED] T4033.381

[GRAPHIC] [TIFF OMITTED] T4033.382

[GRAPHIC] [TIFF OMITTED] T4033.383

[GRAPHIC] [TIFF OMITTED] T4033.384

[GRAPHIC] [TIFF OMITTED] T4033.385

[GRAPHIC] [TIFF OMITTED] T4033.386

[GRAPHIC] [TIFF OMITTED] T4033.387

[GRAPHIC] [TIFF OMITTED] T4033.388

[GRAPHIC] [TIFF OMITTED] T4033.389

[GRAPHIC] [TIFF OMITTED] T4033.390

[GRAPHIC] [TIFF OMITTED] T4033.391

[GRAPHIC] [TIFF OMITTED] T4033.392

[GRAPHIC] [TIFF OMITTED] T4033.393

[GRAPHIC] [TIFF OMITTED] T4033.394

[GRAPHIC] [TIFF OMITTED] T4033.395

[GRAPHIC] [TIFF OMITTED] T4033.396

[GRAPHIC] [TIFF OMITTED] T4033.397

[GRAPHIC] [TIFF OMITTED] T4033.398

[GRAPHIC] [TIFF OMITTED] T4033.399

[GRAPHIC] [TIFF OMITTED] T4033.400

[GRAPHIC] [TIFF OMITTED] T4033.401

[GRAPHIC] [TIFF OMITTED] T4033.402

[GRAPHIC] [TIFF OMITTED] T4033.403

[GRAPHIC] [TIFF OMITTED] T4033.404

[GRAPHIC] [TIFF OMITTED] T4033.405

[GRAPHIC] [TIFF OMITTED] T4033.406

[GRAPHIC] [TIFF OMITTED] T4033.407

[GRAPHIC] [TIFF OMITTED] T4033.408

[GRAPHIC] [TIFF OMITTED] T4033.409

[GRAPHIC] [TIFF OMITTED] T4033.410

[GRAPHIC] [TIFF OMITTED] T4033.411

[GRAPHIC] [TIFF OMITTED] T4033.412

[GRAPHIC] [TIFF OMITTED] T4033.413

[GRAPHIC] [TIFF OMITTED] T4033.414

[GRAPHIC] [TIFF OMITTED] T4033.415

[GRAPHIC] [TIFF OMITTED] T4033.416

[GRAPHIC] [TIFF OMITTED] T4033.417

   National Commission on the Voting Rights Act, Transcript of South 
                    Georgia Hearing, August 2, 2005

[GRAPHIC] [TIFF OMITTED] T4033.418

[GRAPHIC] [TIFF OMITTED] T4033.419

[GRAPHIC] [TIFF OMITTED] T4033.420

[GRAPHIC] [TIFF OMITTED] T4033.421

[GRAPHIC] [TIFF OMITTED] T4033.422

[GRAPHIC] [TIFF OMITTED] T4033.423

[GRAPHIC] [TIFF OMITTED] T4033.424

[GRAPHIC] [TIFF OMITTED] T4033.425

[GRAPHIC] [TIFF OMITTED] T4033.426

[GRAPHIC] [TIFF OMITTED] T4033.427

[GRAPHIC] [TIFF OMITTED] T4033.428

[GRAPHIC] [TIFF OMITTED] T4033.429

[GRAPHIC] [TIFF OMITTED] T4033.430

[GRAPHIC] [TIFF OMITTED] T4033.431

[GRAPHIC] [TIFF OMITTED] T4033.432

[GRAPHIC] [TIFF OMITTED] T4033.433

[GRAPHIC] [TIFF OMITTED] T4033.434

[GRAPHIC] [TIFF OMITTED] T4033.435

[GRAPHIC] [TIFF OMITTED] T4033.436

[GRAPHIC] [TIFF OMITTED] T4033.437

[GRAPHIC] [TIFF OMITTED] T4033.438

[GRAPHIC] [TIFF OMITTED] T4033.439

[GRAPHIC] [TIFF OMITTED] T4033.440

[GRAPHIC] [TIFF OMITTED] T4033.441

[GRAPHIC] [TIFF OMITTED] T4033.442

[GRAPHIC] [TIFF OMITTED] T4033.443

[GRAPHIC] [TIFF OMITTED] T4033.444

[GRAPHIC] [TIFF OMITTED] T4033.445

[GRAPHIC] [TIFF OMITTED] T4033.446

[GRAPHIC] [TIFF OMITTED] T4033.447

[GRAPHIC] [TIFF OMITTED] T4033.448

[GRAPHIC] [TIFF OMITTED] T4033.449

[GRAPHIC] [TIFF OMITTED] T4033.450

[GRAPHIC] [TIFF OMITTED] T4033.451

[GRAPHIC] [TIFF OMITTED] T4033.452

[GRAPHIC] [TIFF OMITTED] T4033.453

[GRAPHIC] [TIFF OMITTED] T4033.454

[GRAPHIC] [TIFF OMITTED] T4033.455

[GRAPHIC] [TIFF OMITTED] T4033.456

[GRAPHIC] [TIFF OMITTED] T4033.457

[GRAPHIC] [TIFF OMITTED] T4033.458

[GRAPHIC] [TIFF OMITTED] T4033.459

[GRAPHIC] [TIFF OMITTED] T4033.460

[GRAPHIC] [TIFF OMITTED] T4033.461

[GRAPHIC] [TIFF OMITTED] T4033.462

[GRAPHIC] [TIFF OMITTED] T4033.463

[GRAPHIC] [TIFF OMITTED] T4033.464

[GRAPHIC] [TIFF OMITTED] T4033.465

[GRAPHIC] [TIFF OMITTED] T4033.466

[GRAPHIC] [TIFF OMITTED] T4033.467

[GRAPHIC] [TIFF OMITTED] T4033.468

[GRAPHIC] [TIFF OMITTED] T4033.469

[GRAPHIC] [TIFF OMITTED] T4033.470

[GRAPHIC] [TIFF OMITTED] T4033.471

[GRAPHIC] [TIFF OMITTED] T4033.472

[GRAPHIC] [TIFF OMITTED] T4033.473

[GRAPHIC] [TIFF OMITTED] T4033.474

[GRAPHIC] [TIFF OMITTED] T4033.475

[GRAPHIC] [TIFF OMITTED] T4033.476

[GRAPHIC] [TIFF OMITTED] T4033.477

[GRAPHIC] [TIFF OMITTED] T4033.478

[GRAPHIC] [TIFF OMITTED] T4033.479

[GRAPHIC] [TIFF OMITTED] T4033.480

[GRAPHIC] [TIFF OMITTED] T4033.481

[GRAPHIC] [TIFF OMITTED] T4033.482

[GRAPHIC] [TIFF OMITTED] T4033.483

[GRAPHIC] [TIFF OMITTED] T4033.484

[GRAPHIC] [TIFF OMITTED] T4033.485

[GRAPHIC] [TIFF OMITTED] T4033.486

[GRAPHIC] [TIFF OMITTED] T4033.487

[GRAPHIC] [TIFF OMITTED] T4033.488

[GRAPHIC] [TIFF OMITTED] T4033.489

[GRAPHIC] [TIFF OMITTED] T4033.490

[GRAPHIC] [TIFF OMITTED] T4033.491

[GRAPHIC] [TIFF OMITTED] T4033.492

[GRAPHIC] [TIFF OMITTED] T4033.493

[GRAPHIC] [TIFF OMITTED] T4033.494

[GRAPHIC] [TIFF OMITTED] T4033.495

[GRAPHIC] [TIFF OMITTED] T4033.496

[GRAPHIC] [TIFF OMITTED] T4033.497

[GRAPHIC] [TIFF OMITTED] T4033.498

[GRAPHIC] [TIFF OMITTED] T4033.499

[GRAPHIC] [TIFF OMITTED] T4033.500

[GRAPHIC] [TIFF OMITTED] T4033.501

[GRAPHIC] [TIFF OMITTED] T4033.502

[GRAPHIC] [TIFF OMITTED] T4033.503

[GRAPHIC] [TIFF OMITTED] T4033.504

[GRAPHIC] [TIFF OMITTED] T4033.505

[GRAPHIC] [TIFF OMITTED] T4033.506

[GRAPHIC] [TIFF OMITTED] T4033.507

[GRAPHIC] [TIFF OMITTED] T4033.508

[GRAPHIC] [TIFF OMITTED] T4033.509

[GRAPHIC] [TIFF OMITTED] T4033.510

[GRAPHIC] [TIFF OMITTED] T4033.511

[GRAPHIC] [TIFF OMITTED] T4033.512

[GRAPHIC] [TIFF OMITTED] T4033.513

[GRAPHIC] [TIFF OMITTED] T4033.514

[GRAPHIC] [TIFF OMITTED] T4033.515

[GRAPHIC] [TIFF OMITTED] T4033.516

[GRAPHIC] [TIFF OMITTED] T4033.517

[GRAPHIC] [TIFF OMITTED] T4033.518

[GRAPHIC] [TIFF OMITTED] T4033.519

[GRAPHIC] [TIFF OMITTED] T4033.520

[GRAPHIC] [TIFF OMITTED] T4033.521

[GRAPHIC] [TIFF OMITTED] T4033.522

[GRAPHIC] [TIFF OMITTED] T4033.523

[GRAPHIC] [TIFF OMITTED] T4033.524

  National Commission on the Voting Rights Act, Transcript of Florida 
                        Hearing, August 4, 2005

[GRAPHIC] [TIFF OMITTED] T4033.525

[GRAPHIC] [TIFF OMITTED] T4033.526

[GRAPHIC] [TIFF OMITTED] T4033.527

[GRAPHIC] [TIFF OMITTED] T4033.528

[GRAPHIC] [TIFF OMITTED] T4033.529

[GRAPHIC] [TIFF OMITTED] T4033.530

[GRAPHIC] [TIFF OMITTED] T4033.531

[GRAPHIC] [TIFF OMITTED] T4033.532

[GRAPHIC] [TIFF OMITTED] T4033.533

[GRAPHIC] [TIFF OMITTED] T4033.534

[GRAPHIC] [TIFF OMITTED] T4033.535

[GRAPHIC] [TIFF OMITTED] T4033.536

[GRAPHIC] [TIFF OMITTED] T4033.537

[GRAPHIC] [TIFF OMITTED] T4033.538

[GRAPHIC] [TIFF OMITTED] T4033.539

[GRAPHIC] [TIFF OMITTED] T4033.540

[GRAPHIC] [TIFF OMITTED] T4033.541

[GRAPHIC] [TIFF OMITTED] T4033.542

[GRAPHIC] [TIFF OMITTED] T4033.543

[GRAPHIC] [TIFF OMITTED] T4033.544

[GRAPHIC] [TIFF OMITTED] T4033.545

[GRAPHIC] [TIFF OMITTED] T4033.546

[GRAPHIC] [TIFF OMITTED] T4033.547

[GRAPHIC] [TIFF OMITTED] T4033.548

[GRAPHIC] [TIFF OMITTED] T4033.549

[GRAPHIC] [TIFF OMITTED] T4033.550

[GRAPHIC] [TIFF OMITTED] T4033.551

[GRAPHIC] [TIFF OMITTED] T4033.552

[GRAPHIC] [TIFF OMITTED] T4033.553

[GRAPHIC] [TIFF OMITTED] T4033.554

[GRAPHIC] [TIFF OMITTED] T4033.555

[GRAPHIC] [TIFF OMITTED] T4033.556

[GRAPHIC] [TIFF OMITTED] T4033.557

[GRAPHIC] [TIFF OMITTED] T4033.558

[GRAPHIC] [TIFF OMITTED] T4033.559

[GRAPHIC] [TIFF OMITTED] T4033.560

[GRAPHIC] [TIFF OMITTED] T4033.561

[GRAPHIC] [TIFF OMITTED] T4033.562

[GRAPHIC] [TIFF OMITTED] T4033.563

[GRAPHIC] [TIFF OMITTED] T4033.564

[GRAPHIC] [TIFF OMITTED] T4033.565

[GRAPHIC] [TIFF OMITTED] T4033.566

[GRAPHIC] [TIFF OMITTED] T4033.567

[GRAPHIC] [TIFF OMITTED] T4033.568

[GRAPHIC] [TIFF OMITTED] T4033.569

[GRAPHIC] [TIFF OMITTED] T4033.570

[GRAPHIC] [TIFF OMITTED] T4033.571

[GRAPHIC] [TIFF OMITTED] T4033.572

[GRAPHIC] [TIFF OMITTED] T4033.573

[GRAPHIC] [TIFF OMITTED] T4033.574

[GRAPHIC] [TIFF OMITTED] T4033.575

[GRAPHIC] [TIFF OMITTED] T4033.576

[GRAPHIC] [TIFF OMITTED] T4033.577

[GRAPHIC] [TIFF OMITTED] T4033.578

[GRAPHIC] [TIFF OMITTED] T4033.579

[GRAPHIC] [TIFF OMITTED] T4033.580

[GRAPHIC] [TIFF OMITTED] T4033.581

[GRAPHIC] [TIFF OMITTED] T4033.582

[GRAPHIC] [TIFF OMITTED] T4033.583

[GRAPHIC] [TIFF OMITTED] T4033.584

[GRAPHIC] [TIFF OMITTED] T4033.585

[GRAPHIC] [TIFF OMITTED] T4033.586

[GRAPHIC] [TIFF OMITTED] T4033.587

[GRAPHIC] [TIFF OMITTED] T4033.588

[GRAPHIC] [TIFF OMITTED] T4033.589

[GRAPHIC] [TIFF OMITTED] T4033.590

[GRAPHIC] [TIFF OMITTED] T4033.591

[GRAPHIC] [TIFF OMITTED] T4033.592

[GRAPHIC] [TIFF OMITTED] T4033.593

[GRAPHIC] [TIFF OMITTED] T4033.594

[GRAPHIC] [TIFF OMITTED] T4033.595

[GRAPHIC] [TIFF OMITTED] T4033.596

[GRAPHIC] [TIFF OMITTED] T4033.597

[GRAPHIC] [TIFF OMITTED] T4033.598

   National Commission on the Voting Rights Act, Transcript of South 
                   Dakota Hearing, September 9, 2005

[GRAPHIC] [TIFF OMITTED] T4033.599

[GRAPHIC] [TIFF OMITTED] T4033.600

[GRAPHIC] [TIFF OMITTED] T4033.601

[GRAPHIC] [TIFF OMITTED] T4033.602

[GRAPHIC] [TIFF OMITTED] T4033.603

[GRAPHIC] [TIFF OMITTED] T4033.604

[GRAPHIC] [TIFF OMITTED] T4033.605

[GRAPHIC] [TIFF OMITTED] T4033.606

[GRAPHIC] [TIFF OMITTED] T4033.607

[GRAPHIC] [TIFF OMITTED] T4033.608

[GRAPHIC] [TIFF OMITTED] T4033.609

[GRAPHIC] [TIFF OMITTED] T4033.610

[GRAPHIC] [TIFF OMITTED] T4033.611

[GRAPHIC] [TIFF OMITTED] T4033.612

[GRAPHIC] [TIFF OMITTED] T4033.613

[GRAPHIC] [TIFF OMITTED] T4033.614

[GRAPHIC] [TIFF OMITTED] T4033.615

[GRAPHIC] [TIFF OMITTED] T4033.616

[GRAPHIC] [TIFF OMITTED] T4033.617

[GRAPHIC] [TIFF OMITTED] T4033.618

[GRAPHIC] [TIFF OMITTED] T4033.619

[GRAPHIC] [TIFF OMITTED] T4033.620

[GRAPHIC] [TIFF OMITTED] T4033.621

[GRAPHIC] [TIFF OMITTED] T4033.622

[GRAPHIC] [TIFF OMITTED] T4033.623

[GRAPHIC] [TIFF OMITTED] T4033.624

[GRAPHIC] [TIFF OMITTED] T4033.625

[GRAPHIC] [TIFF OMITTED] T4033.626

[GRAPHIC] [TIFF OMITTED] T4033.627

[GRAPHIC] [TIFF OMITTED] T4033.628

[GRAPHIC] [TIFF OMITTED] T4033.629

[GRAPHIC] [TIFF OMITTED] T4033.630

[GRAPHIC] [TIFF OMITTED] T4033.631

[GRAPHIC] [TIFF OMITTED] T4033.632

[GRAPHIC] [TIFF OMITTED] T4033.633

[GRAPHIC] [TIFF OMITTED] T4033.634

[GRAPHIC] [TIFF OMITTED] T4033.635

[GRAPHIC] [TIFF OMITTED] T4033.636

[GRAPHIC] [TIFF OMITTED] T4033.637

[GRAPHIC] [TIFF OMITTED] T4033.638

[GRAPHIC] [TIFF OMITTED] T4033.639

[GRAPHIC] [TIFF OMITTED] T4033.640

[GRAPHIC] [TIFF OMITTED] T4033.641

[GRAPHIC] [TIFF OMITTED] T4033.642

[GRAPHIC] [TIFF OMITTED] T4033.643

[GRAPHIC] [TIFF OMITTED] T4033.644

[GRAPHIC] [TIFF OMITTED] T4033.645

[GRAPHIC] [TIFF OMITTED] T4033.646

[GRAPHIC] [TIFF OMITTED] T4033.647

[GRAPHIC] [TIFF OMITTED] T4033.648

[GRAPHIC] [TIFF OMITTED] T4033.649

[GRAPHIC] [TIFF OMITTED] T4033.650

[GRAPHIC] [TIFF OMITTED] T4033.651

[GRAPHIC] [TIFF OMITTED] T4033.652

[GRAPHIC] [TIFF OMITTED] T4033.653

[GRAPHIC] [TIFF OMITTED] T4033.654

[GRAPHIC] [TIFF OMITTED] T4033.655

[GRAPHIC] [TIFF OMITTED] T4033.656

[GRAPHIC] [TIFF OMITTED] T4033.657

[GRAPHIC] [TIFF OMITTED] T4033.658

[GRAPHIC] [TIFF OMITTED] T4033.659

[GRAPHIC] [TIFF OMITTED] T4033.660

[GRAPHIC] [TIFF OMITTED] T4033.661

[GRAPHIC] [TIFF OMITTED] T4033.662

[GRAPHIC] [TIFF OMITTED] T4033.663

[GRAPHIC] [TIFF OMITTED] T4033.664

[GRAPHIC] [TIFF OMITTED] T4033.665

[GRAPHIC] [TIFF OMITTED] T4033.666

[GRAPHIC] [TIFF OMITTED] T4033.667

[GRAPHIC] [TIFF OMITTED] T4033.668

[GRAPHIC] [TIFF OMITTED] T4033.669

[GRAPHIC] [TIFF OMITTED] T4033.670

[GRAPHIC] [TIFF OMITTED] T4033.671

[GRAPHIC] [TIFF OMITTED] T4033.672

[GRAPHIC] [TIFF OMITTED] T4033.673

[GRAPHIC] [TIFF OMITTED] T4033.674

[GRAPHIC] [TIFF OMITTED] T4033.675

[GRAPHIC] [TIFF OMITTED] T4033.676

[GRAPHIC] [TIFF OMITTED] T4033.677

[GRAPHIC] [TIFF OMITTED] T4033.678

[GRAPHIC] [TIFF OMITTED] T4033.679

[GRAPHIC] [TIFF OMITTED] T4033.680

[GRAPHIC] [TIFF OMITTED] T4033.681

[GRAPHIC] [TIFF OMITTED] T4033.682

[GRAPHIC] [TIFF OMITTED] T4033.683

[GRAPHIC] [TIFF OMITTED] T4033.684

[GRAPHIC] [TIFF OMITTED] T4033.685

[GRAPHIC] [TIFF OMITTED] T4033.686

[GRAPHIC] [TIFF OMITTED] T4033.687

[GRAPHIC] [TIFF OMITTED] T4033.688

[GRAPHIC] [TIFF OMITTED] T4033.689

  National Commission on the Voting Rights Act, Transcript of Western 
                  Regional Hearing, September 27, 2005

[GRAPHIC] [TIFF OMITTED] T4033.690

[GRAPHIC] [TIFF OMITTED] T4033.691

[GRAPHIC] [TIFF OMITTED] T4033.692

[GRAPHIC] [TIFF OMITTED] T4033.693

[GRAPHIC] [TIFF OMITTED] T4033.694

[GRAPHIC] [TIFF OMITTED] T4033.695

[GRAPHIC] [TIFF OMITTED] T4033.696

[GRAPHIC] [TIFF OMITTED] T4033.697

[GRAPHIC] [TIFF OMITTED] T4033.698

[GRAPHIC] [TIFF OMITTED] T4033.699

[GRAPHIC] [TIFF OMITTED] T4033.700

[GRAPHIC] [TIFF OMITTED] T4033.701

[GRAPHIC] [TIFF OMITTED] T4033.702

[GRAPHIC] [TIFF OMITTED] T4033.703

[GRAPHIC] [TIFF OMITTED] T4033.704

[GRAPHIC] [TIFF OMITTED] T4033.705

[GRAPHIC] [TIFF OMITTED] T4033.706

[GRAPHIC] [TIFF OMITTED] T4033.707

[GRAPHIC] [TIFF OMITTED] T4033.708

[GRAPHIC] [TIFF OMITTED] T4033.709

[GRAPHIC] [TIFF OMITTED] T4033.710

[GRAPHIC] [TIFF OMITTED] T4033.711

[GRAPHIC] [TIFF OMITTED] T4033.712

[GRAPHIC] [TIFF OMITTED] T4033.713

[GRAPHIC] [TIFF OMITTED] T4033.714

[GRAPHIC] [TIFF OMITTED] T4033.715

[GRAPHIC] [TIFF OMITTED] T4033.716

[GRAPHIC] [TIFF OMITTED] T4033.717

[GRAPHIC] [TIFF OMITTED] T4033.718

[GRAPHIC] [TIFF OMITTED] T4033.719

[GRAPHIC] [TIFF OMITTED] T4033.720

[GRAPHIC] [TIFF OMITTED] T4033.721

[GRAPHIC] [TIFF OMITTED] T4033.722

[GRAPHIC] [TIFF OMITTED] T4033.723

[GRAPHIC] [TIFF OMITTED] T4033.724

[GRAPHIC] [TIFF OMITTED] T4033.725

[GRAPHIC] [TIFF OMITTED] T4033.726

[GRAPHIC] [TIFF OMITTED] T4033.727

[GRAPHIC] [TIFF OMITTED] T4033.728

[GRAPHIC] [TIFF OMITTED] T4033.729

[GRAPHIC] [TIFF OMITTED] T4033.730

[GRAPHIC] [TIFF OMITTED] T4033.731

[GRAPHIC] [TIFF OMITTED] T4033.732

[GRAPHIC] [TIFF OMITTED] T4033.733

[GRAPHIC] [TIFF OMITTED] T4033.734

[GRAPHIC] [TIFF OMITTED] T4033.735

[GRAPHIC] [TIFF OMITTED] T4033.736

[GRAPHIC] [TIFF OMITTED] T4033.737

[GRAPHIC] [TIFF OMITTED] T4033.738

[GRAPHIC] [TIFF OMITTED] T4033.739

[GRAPHIC] [TIFF OMITTED] T4033.740

[GRAPHIC] [TIFF OMITTED] T4033.741

[GRAPHIC] [TIFF OMITTED] T4033.742

[GRAPHIC] [TIFF OMITTED] T4033.743

[GRAPHIC] [TIFF OMITTED] T4033.744

[GRAPHIC] [TIFF OMITTED] T4033.745

[GRAPHIC] [TIFF OMITTED] T4033.746

[GRAPHIC] [TIFF OMITTED] T4033.747

[GRAPHIC] [TIFF OMITTED] T4033.748

[GRAPHIC] [TIFF OMITTED] T4033.749

[GRAPHIC] [TIFF OMITTED] T4033.750

[GRAPHIC] [TIFF OMITTED] T4033.751

[GRAPHIC] [TIFF OMITTED] T4033.752

[GRAPHIC] [TIFF OMITTED] T4033.753

[GRAPHIC] [TIFF OMITTED] T4033.754

[GRAPHIC] [TIFF OMITTED] T4033.755

[GRAPHIC] [TIFF OMITTED] T4033.756

[GRAPHIC] [TIFF OMITTED] T4033.757

[GRAPHIC] [TIFF OMITTED] T4033.758

[GRAPHIC] [TIFF OMITTED] T4033.759

[GRAPHIC] [TIFF OMITTED] T4033.760

[GRAPHIC] [TIFF OMITTED] T4033.761

[GRAPHIC] [TIFF OMITTED] T4033.762

[GRAPHIC] [TIFF OMITTED] T4033.763

[GRAPHIC] [TIFF OMITTED] T4033.764

[GRAPHIC] [TIFF OMITTED] T4033.765

[GRAPHIC] [TIFF OMITTED] T4033.766

[GRAPHIC] [TIFF OMITTED] T4033.767

[GRAPHIC] [TIFF OMITTED] T4033.768

[GRAPHIC] [TIFF OMITTED] T4033.769

[GRAPHIC] [TIFF OMITTED] T4033.770

[GRAPHIC] [TIFF OMITTED] T4033.771

[GRAPHIC] [TIFF OMITTED] T4033.772

[GRAPHIC] [TIFF OMITTED] T4033.773

             National Commission on the Voting Rights Act, 
            Mid-Atlantic Regional Hearing, October 14, 2005

[GRAPHIC] [TIFF OMITTED] T4033.774

[GRAPHIC] [TIFF OMITTED] T4033.775

[GRAPHIC] [TIFF OMITTED] T4033.776

[GRAPHIC] [TIFF OMITTED] T4033.777

[GRAPHIC] [TIFF OMITTED] T4033.778

[GRAPHIC] [TIFF OMITTED] T4033.779

[GRAPHIC] [TIFF OMITTED] T4033.780

[GRAPHIC] [TIFF OMITTED] T4033.781

[GRAPHIC] [TIFF OMITTED] T4033.782

[GRAPHIC] [TIFF OMITTED] T4033.783

[GRAPHIC] [TIFF OMITTED] T4033.784

[GRAPHIC] [TIFF OMITTED] T4033.785

[GRAPHIC] [TIFF OMITTED] T4033.786

[GRAPHIC] [TIFF OMITTED] T4033.787

[GRAPHIC] [TIFF OMITTED] T4033.788

[GRAPHIC] [TIFF OMITTED] T4033.789

[GRAPHIC] [TIFF OMITTED] T4033.790

[GRAPHIC] [TIFF OMITTED] T4033.791

[GRAPHIC] [TIFF OMITTED] T4033.792

[GRAPHIC] [TIFF OMITTED] T4033.793

[GRAPHIC] [TIFF OMITTED] T4033.794

[GRAPHIC] [TIFF OMITTED] T4033.795

[GRAPHIC] [TIFF OMITTED] T4033.796

[GRAPHIC] [TIFF OMITTED] T4033.797

[GRAPHIC] [TIFF OMITTED] T4033.798

[GRAPHIC] [TIFF OMITTED] T4033.799

[GRAPHIC] [TIFF OMITTED] T4033.800

[GRAPHIC] [TIFF OMITTED] T4033.801

[GRAPHIC] [TIFF OMITTED] T4033.802

[GRAPHIC] [TIFF OMITTED] T4033.803

[GRAPHIC] [TIFF OMITTED] T4033.804

[GRAPHIC] [TIFF OMITTED] T4033.805

[GRAPHIC] [TIFF OMITTED] T4033.806

[GRAPHIC] [TIFF OMITTED] T4033.807

[GRAPHIC] [TIFF OMITTED] T4033.808

[GRAPHIC] [TIFF OMITTED] T4033.809

[GRAPHIC] [TIFF OMITTED] T4033.810

[GRAPHIC] [TIFF OMITTED] T4033.811

[GRAPHIC] [TIFF OMITTED] T4033.812

[GRAPHIC] [TIFF OMITTED] T4033.813

[GRAPHIC] [TIFF OMITTED] T4033.814

[GRAPHIC] [TIFF OMITTED] T4033.815

[GRAPHIC] [TIFF OMITTED] T4033.816

[GRAPHIC] [TIFF OMITTED] T4033.817

[GRAPHIC] [TIFF OMITTED] T4033.818

[GRAPHIC] [TIFF OMITTED] T4033.819

[GRAPHIC] [TIFF OMITTED] T4033.820

[GRAPHIC] [TIFF OMITTED] T4033.821

[GRAPHIC] [TIFF OMITTED] T4033.822

[GRAPHIC] [TIFF OMITTED] T4033.823

[GRAPHIC] [TIFF OMITTED] T4033.824

[GRAPHIC] [TIFF OMITTED] T4033.825

[GRAPHIC] [TIFF OMITTED] T4033.826

[GRAPHIC] [TIFF OMITTED] T4033.827

[GRAPHIC] [TIFF OMITTED] T4033.828

[GRAPHIC] [TIFF OMITTED] T4033.829

[GRAPHIC] [TIFF OMITTED] T4033.830

[GRAPHIC] [TIFF OMITTED] T4033.831

[GRAPHIC] [TIFF OMITTED] T4033.832

[GRAPHIC] [TIFF OMITTED] T4033.833

[GRAPHIC] [TIFF OMITTED] T4033.834

[GRAPHIC] [TIFF OMITTED] T4033.835

[GRAPHIC] [TIFF OMITTED] T4033.836

[GRAPHIC] [TIFF OMITTED] T4033.837

[GRAPHIC] [TIFF OMITTED] T4033.838

[GRAPHIC] [TIFF OMITTED] T4033.839

[GRAPHIC] [TIFF OMITTED] T4033.840

[GRAPHIC] [TIFF OMITTED] T4033.841

[GRAPHIC] [TIFF OMITTED] T4033.842

[GRAPHIC] [TIFF OMITTED] T4033.843

[GRAPHIC] [TIFF OMITTED] T4033.844

[GRAPHIC] [TIFF OMITTED] T4033.845

[GRAPHIC] [TIFF OMITTED] T4033.846

[GRAPHIC] [TIFF OMITTED] T4033.847

[GRAPHIC] [TIFF OMITTED] T4033.848

[GRAPHIC] [TIFF OMITTED] T4033.849

[GRAPHIC] [TIFF OMITTED] T4033.850

[GRAPHIC] [TIFF OMITTED] T4033.851

[GRAPHIC] [TIFF OMITTED] T4033.852

[GRAPHIC] [TIFF OMITTED] T4033.853

[GRAPHIC] [TIFF OMITTED] T4033.854

[GRAPHIC] [TIFF OMITTED] T4033.855

[GRAPHIC] [TIFF OMITTED] T4033.856

[GRAPHIC] [TIFF OMITTED] T4033.857

[GRAPHIC] [TIFF OMITTED] T4033.858

[GRAPHIC] [TIFF OMITTED] T4033.859

[GRAPHIC] [TIFF OMITTED] T4033.860

[GRAPHIC] [TIFF OMITTED] T4033.861

[GRAPHIC] [TIFF OMITTED] T4033.862

[GRAPHIC] [TIFF OMITTED] T4033.863

[GRAPHIC] [TIFF OMITTED] T4033.864

[GRAPHIC] [TIFF OMITTED] T4033.865

[GRAPHIC] [TIFF OMITTED] T4033.866

[GRAPHIC] [TIFF OMITTED] T4033.867

[GRAPHIC] [TIFF OMITTED] T4033.868

[GRAPHIC] [TIFF OMITTED] T4033.869

[GRAPHIC] [TIFF OMITTED] T4033.870

[GRAPHIC] [TIFF OMITTED] T4033.871

[GRAPHIC] [TIFF OMITTED] T4033.872

[GRAPHIC] [TIFF OMITTED] T4033.873

[GRAPHIC] [TIFF OMITTED] T4033.874

[GRAPHIC] [TIFF OMITTED] T4033.875

[GRAPHIC] [TIFF OMITTED] T4033.876

[GRAPHIC] [TIFF OMITTED] T4033.877

[GRAPHIC] [TIFF OMITTED] T4033.878

  National Commission on the Voting Rights Act, Mississippi Hearing, 
                            October 29, 2005

[GRAPHIC] [TIFF OMITTED] T4033.879

[GRAPHIC] [TIFF OMITTED] T4033.880

[GRAPHIC] [TIFF OMITTED] T4033.881

[GRAPHIC] [TIFF OMITTED] T4033.882

[GRAPHIC] [TIFF OMITTED] T4033.883

[GRAPHIC] [TIFF OMITTED] T4033.884

[GRAPHIC] [TIFF OMITTED] T4033.885

[GRAPHIC] [TIFF OMITTED] T4033.886

[GRAPHIC] [TIFF OMITTED] T4033.887

[GRAPHIC] [TIFF OMITTED] T4033.888

[GRAPHIC] [TIFF OMITTED] T4033.889

[GRAPHIC] [TIFF OMITTED] T4033.890

[GRAPHIC] [TIFF OMITTED] T4033.891

[GRAPHIC] [TIFF OMITTED] T4033.892

[GRAPHIC] [TIFF OMITTED] T4033.893

[GRAPHIC] [TIFF OMITTED] T4033.894

[GRAPHIC] [TIFF OMITTED] T4033.895

[GRAPHIC] [TIFF OMITTED] T4033.896

[GRAPHIC] [TIFF OMITTED] T4033.897

[GRAPHIC] [TIFF OMITTED] T4033.898

[GRAPHIC] [TIFF OMITTED] T4033.899

[GRAPHIC] [TIFF OMITTED] T4033.900

[GRAPHIC] [TIFF OMITTED] T4033.901

[GRAPHIC] [TIFF OMITTED] T4033.902

[GRAPHIC] [TIFF OMITTED] T4033.903

[GRAPHIC] [TIFF OMITTED] T4033.904

[GRAPHIC] [TIFF OMITTED] T4033.905

[GRAPHIC] [TIFF OMITTED] T4033.906

[GRAPHIC] [TIFF OMITTED] T4033.907

[GRAPHIC] [TIFF OMITTED] T4033.908

[GRAPHIC] [TIFF OMITTED] T4033.909

[GRAPHIC] [TIFF OMITTED] T4033.910

[GRAPHIC] [TIFF OMITTED] T4033.911

[GRAPHIC] [TIFF OMITTED] T4033.912

[GRAPHIC] [TIFF OMITTED] T4033.913

[GRAPHIC] [TIFF OMITTED] T4033.914

[GRAPHIC] [TIFF OMITTED] T4033.915

[GRAPHIC] [TIFF OMITTED] T4033.916

[GRAPHIC] [TIFF OMITTED] T4033.917

[GRAPHIC] [TIFF OMITTED] T4033.918

[GRAPHIC] [TIFF OMITTED] T4033.919

  Ellen Katz--Documenting Discrimination in Voting: Judicial Findings 
 Under Section 2 of the Voting Rights Act Since 1982. Final Report of 
     the Voting Rights Initiative University of Michigan Law School

[GRAPHIC] [TIFF OMITTED] T4033.920

[GRAPHIC] [TIFF OMITTED] T4033.921

[GRAPHIC] [TIFF OMITTED] T4033.922

[GRAPHIC] [TIFF OMITTED] T4033.923

[GRAPHIC] [TIFF OMITTED] T4033.924

[GRAPHIC] [TIFF OMITTED] T4033.925

[GRAPHIC] [TIFF OMITTED] T4033.926

[GRAPHIC] [TIFF OMITTED] T4033.927

[GRAPHIC] [TIFF OMITTED] T4033.928

[GRAPHIC] [TIFF OMITTED] T4033.929

[GRAPHIC] [TIFF OMITTED] T4033.930

[GRAPHIC] [TIFF OMITTED] T4033.931

[GRAPHIC] [TIFF OMITTED] T4033.932

[GRAPHIC] [TIFF OMITTED] T4033.933

[GRAPHIC] [TIFF OMITTED] T4033.934

[GRAPHIC] [TIFF OMITTED] T4033.935

[GRAPHIC] [TIFF OMITTED] T4033.936

[GRAPHIC] [TIFF OMITTED] T4033.937

[GRAPHIC] [TIFF OMITTED] T4033.938

[GRAPHIC] [TIFF OMITTED] T4033.939

[GRAPHIC] [TIFF OMITTED] T4033.940

[GRAPHIC] [TIFF OMITTED] T4033.941

[GRAPHIC] [TIFF OMITTED] T4033.942

[GRAPHIC] [TIFF OMITTED] T4033.943

[GRAPHIC] [TIFF OMITTED] T4033.944

[GRAPHIC] [TIFF OMITTED] T4033.945

[GRAPHIC] [TIFF OMITTED] T4033.946

[GRAPHIC] [TIFF OMITTED] T4033.947

[GRAPHIC] [TIFF OMITTED] T4033.948

[GRAPHIC] [TIFF OMITTED] T4033.949

[GRAPHIC] [TIFF OMITTED] T4033.950

[GRAPHIC] [TIFF OMITTED] T4033.951

[GRAPHIC] [TIFF OMITTED] T4033.952

[GRAPHIC] [TIFF OMITTED] T4033.953

[GRAPHIC] [TIFF OMITTED] T4033.954

[GRAPHIC] [TIFF OMITTED] T4033.955

[GRAPHIC] [TIFF OMITTED] T4033.956

[GRAPHIC] [TIFF OMITTED] T4033.957

[GRAPHIC] [TIFF OMITTED] T4033.958

[GRAPHIC] [TIFF OMITTED] T4033.959

[GRAPHIC] [TIFF OMITTED] T4033.960

[GRAPHIC] [TIFF OMITTED] T4033.961

[GRAPHIC] [TIFF OMITTED] T4033.962

[GRAPHIC] [TIFF OMITTED] T4033.963

[GRAPHIC] [TIFF OMITTED] T4033.964

[GRAPHIC] [TIFF OMITTED] T4033.965

[GRAPHIC] [TIFF OMITTED] T4033.966

[GRAPHIC] [TIFF OMITTED] T4033.967

[GRAPHIC] [TIFF OMITTED] T4033.968

[GRAPHIC] [TIFF OMITTED] T4033.969

[GRAPHIC] [TIFF OMITTED] T4033.970

[GRAPHIC] [TIFF OMITTED] T4033.971

[GRAPHIC] [TIFF OMITTED] T4033.972

[GRAPHIC] [TIFF OMITTED] T4033.973

[GRAPHIC] [TIFF OMITTED] T4033.974

[GRAPHIC] [TIFF OMITTED] T4033.975

[GRAPHIC] [TIFF OMITTED] T4033.976

[GRAPHIC] [TIFF OMITTED] T4033.977

[GRAPHIC] [TIFF OMITTED] T4033.978

[GRAPHIC] [TIFF OMITTED] T4033.979

[GRAPHIC] [TIFF OMITTED] T4033.980

[GRAPHIC] [TIFF OMITTED] T4033.981

[GRAPHIC] [TIFF OMITTED] T4033.982

[GRAPHIC] [TIFF OMITTED] T4033.983

[GRAPHIC] [TIFF OMITTED] T4033.984

[GRAPHIC] [TIFF OMITTED] T4033.985

[GRAPHIC] [TIFF OMITTED] T4033.986

[GRAPHIC] [TIFF OMITTED] T4033.987

[GRAPHIC] [TIFF OMITTED] T4033.988

[GRAPHIC] [TIFF OMITTED] T4033.989

[GRAPHIC] [TIFF OMITTED] T4033.990

[GRAPHIC] [TIFF OMITTED] T4033.991

[GRAPHIC] [TIFF OMITTED] T4033.992

[GRAPHIC] [TIFF OMITTED] T4033.993

[GRAPHIC] [TIFF OMITTED] T4033.994

[GRAPHIC] [TIFF OMITTED] T4033.995

[GRAPHIC] [TIFF OMITTED] T4033.996

[GRAPHIC] [TIFF OMITTED] T4033.997

[GRAPHIC] [TIFF OMITTED] T4033.998

[GRAPHIC] [TIFF OMITTED] T4033.999

[GRAPHIC] [TIFF OMITTED] T40331.000

[GRAPHIC] [TIFF OMITTED] T40331.001

[GRAPHIC] [TIFF OMITTED] T40331.002

[GRAPHIC] [TIFF OMITTED] T40331.003

[GRAPHIC] [TIFF OMITTED] T40331.004

[GRAPHIC] [TIFF OMITTED] T40331.005

[GRAPHIC] [TIFF OMITTED] T40331.006

[GRAPHIC] [TIFF OMITTED] T40331.007

[GRAPHIC] [TIFF OMITTED] T40331.008

[GRAPHIC] [TIFF OMITTED] T40331.009

[GRAPHIC] [TIFF OMITTED] T40331.010

[GRAPHIC] [TIFF OMITTED] T40331.011

[GRAPHIC] [TIFF OMITTED] T40331.012

[GRAPHIC] [TIFF OMITTED] T40331.013

[GRAPHIC] [TIFF OMITTED] T40331.014

[GRAPHIC] [TIFF OMITTED] T40331.015

[GRAPHIC] [TIFF OMITTED] T40331.016

[GRAPHIC] [TIFF OMITTED] T40331.017

[GRAPHIC] [TIFF OMITTED] T40331.018

[GRAPHIC] [TIFF OMITTED] T40331.019

[GRAPHIC] [TIFF OMITTED] T40331.020

[GRAPHIC] [TIFF OMITTED] T40331.021

[GRAPHIC] [TIFF OMITTED] T40331.022

[GRAPHIC] [TIFF OMITTED] T40331.023

[GRAPHIC] [TIFF OMITTED] T40331.024

[GRAPHIC] [TIFF OMITTED] T40331.025

[GRAPHIC] [TIFF OMITTED] T40331.026

[GRAPHIC] [TIFF OMITTED] T40331.027

[GRAPHIC] [TIFF OMITTED] T40331.028

[GRAPHIC] [TIFF OMITTED] T40331.029

[GRAPHIC] [TIFF OMITTED] T40331.030

[GRAPHIC] [TIFF OMITTED] T40331.031

[GRAPHIC] [TIFF OMITTED] T40331.032

[GRAPHIC] [TIFF OMITTED] T40331.033

[GRAPHIC] [TIFF OMITTED] T40331.034

[GRAPHIC] [TIFF OMITTED] T40331.035

[GRAPHIC] [TIFF OMITTED] T40331.036

[GRAPHIC] [TIFF OMITTED] T40331.037

[GRAPHIC] [TIFF OMITTED] T40331.038

[GRAPHIC] [TIFF OMITTED] T40331.039

[GRAPHIC] [TIFF OMITTED] T40331.040

[GRAPHIC] [TIFF OMITTED] T40331.041

[GRAPHIC] [TIFF OMITTED] T40331.042

[GRAPHIC] [TIFF OMITTED] T40331.043

[GRAPHIC] [TIFF OMITTED] T40331.044

[GRAPHIC] [TIFF OMITTED] T40331.045

[GRAPHIC] [TIFF OMITTED] T40331.046

[GRAPHIC] [TIFF OMITTED] T40331.047

[GRAPHIC] [TIFF OMITTED] T40331.048

[GRAPHIC] [TIFF OMITTED] T40331.049

[GRAPHIC] [TIFF OMITTED] T40331.050

[GRAPHIC] [TIFF OMITTED] T40331.051

[GRAPHIC] [TIFF OMITTED] T40331.052

[GRAPHIC] [TIFF OMITTED] T40331.053

[GRAPHIC] [TIFF OMITTED] T40331.054

[GRAPHIC] [TIFF OMITTED] T40331.055

[GRAPHIC] [TIFF OMITTED] T40331.056

[GRAPHIC] [TIFF OMITTED] T40331.057

[GRAPHIC] [TIFF OMITTED] T40331.058

[GRAPHIC] [TIFF OMITTED] T40331.059

[GRAPHIC] [TIFF OMITTED] T40331.060

[GRAPHIC] [TIFF OMITTED] T40331.061

[GRAPHIC] [TIFF OMITTED] T40331.062

[GRAPHIC] [TIFF OMITTED] T40331.063

[GRAPHIC] [TIFF OMITTED] T40331.064

[GRAPHIC] [TIFF OMITTED] T40331.065

[GRAPHIC] [TIFF OMITTED] T40331.066

[GRAPHIC] [TIFF OMITTED] T40331.067

[GRAPHIC] [TIFF OMITTED] T40331.068

[GRAPHIC] [TIFF OMITTED] T40331.069

[GRAPHIC] [TIFF OMITTED] T40331.070

[GRAPHIC] [TIFF OMITTED] T40331.071

[GRAPHIC] [TIFF OMITTED] T40331.072

[GRAPHIC] [TIFF OMITTED] T40331.073

[GRAPHIC] [TIFF OMITTED] T40331.074

[GRAPHIC] [TIFF OMITTED] T40331.075

[GRAPHIC] [TIFF OMITTED] T40331.076

[GRAPHIC] [TIFF OMITTED] T40331.077

[GRAPHIC] [TIFF OMITTED] T40331.078

[GRAPHIC] [TIFF OMITTED] T40331.079

[GRAPHIC] [TIFF OMITTED] T40331.080

  Quiet Revolution in the South: The Impact of the Voting Rights Act, 
      1965-1990. (Chandler Davidson & Bernard Grofman, eds., 1994)

[GRAPHIC] [TIFF OMITTED] T40331.082

[GRAPHIC] [TIFF OMITTED] T40331.083

[GRAPHIC] [TIFF OMITTED] T40331.084

[GRAPHIC] [TIFF OMITTED] T40331.085

[GRAPHIC] [TIFF OMITTED] T40331.086

[GRAPHIC] [TIFF OMITTED] T40331.087

[GRAPHIC] [TIFF OMITTED] T40331.088

[GRAPHIC] [TIFF OMITTED] T40331.089

[GRAPHIC] [TIFF OMITTED] T40331.090

[GRAPHIC] [TIFF OMITTED] T40331.091

[GRAPHIC] [TIFF OMITTED] T40331.092

[GRAPHIC] [TIFF OMITTED] T40331.093

[GRAPHIC] [TIFF OMITTED] T40331.094

[GRAPHIC] [TIFF OMITTED] T40331.095

[GRAPHIC] [TIFF OMITTED] T40331.096

[GRAPHIC] [TIFF OMITTED] T40331.097

[GRAPHIC] [TIFF OMITTED] T40331.098

[GRAPHIC] [TIFF OMITTED] T40331.099

[GRAPHIC] [TIFF OMITTED] T40331.100

[GRAPHIC] [TIFF OMITTED] T40331.101

[GRAPHIC] [TIFF OMITTED] T40331.102

[GRAPHIC] [TIFF OMITTED] T40331.103

[GRAPHIC] [TIFF OMITTED] T40331.104

[GRAPHIC] [TIFF OMITTED] T40331.105

[GRAPHIC] [TIFF OMITTED] T40331.106

[GRAPHIC] [TIFF OMITTED] T40331.107

[GRAPHIC] [TIFF OMITTED] T40331.108

[GRAPHIC] [TIFF OMITTED] T40331.109

[GRAPHIC] [TIFF OMITTED] T40331.110

[GRAPHIC] [TIFF OMITTED] T40331.111

[GRAPHIC] [TIFF OMITTED] T40331.112

[GRAPHIC] [TIFF OMITTED] T40331.113

[GRAPHIC] [TIFF OMITTED] T40331.114

[GRAPHIC] [TIFF OMITTED] T40331.115

[GRAPHIC] [TIFF OMITTED] T40331.116

[GRAPHIC] [TIFF OMITTED] T40331.117

[GRAPHIC] [TIFF OMITTED] T40331.118

[GRAPHIC] [TIFF OMITTED] T40331.119

[GRAPHIC] [TIFF OMITTED] T40331.120

[GRAPHIC] [TIFF OMITTED] T40331.121

[GRAPHIC] [TIFF OMITTED] T40331.122

[GRAPHIC] [TIFF OMITTED] T40331.123

[GRAPHIC] [TIFF OMITTED] T40331.124

[GRAPHIC] [TIFF OMITTED] T40331.125

[GRAPHIC] [TIFF OMITTED] T40331.126

[GRAPHIC] [TIFF OMITTED] T40331.127

[GRAPHIC] [TIFF OMITTED] T40331.128

[GRAPHIC] [TIFF OMITTED] T40331.129

[GRAPHIC] [TIFF OMITTED] T40331.130

[GRAPHIC] [TIFF OMITTED] T40331.131

[GRAPHIC] [TIFF OMITTED] T40331.132

[GRAPHIC] [TIFF OMITTED] T40331.133

[GRAPHIC] [TIFF OMITTED] T40331.134

[GRAPHIC] [TIFF OMITTED] T40331.135

[GRAPHIC] [TIFF OMITTED] T40331.136

[GRAPHIC] [TIFF OMITTED] T40331.137

[GRAPHIC] [TIFF OMITTED] T40331.138

[GRAPHIC] [TIFF OMITTED] T40331.139

[GRAPHIC] [TIFF OMITTED] T40331.140

[GRAPHIC] [TIFF OMITTED] T40331.141

[GRAPHIC] [TIFF OMITTED] T40331.142

[GRAPHIC] [TIFF OMITTED] T40331.143

[GRAPHIC] [TIFF OMITTED] T40331.144

[GRAPHIC] [TIFF OMITTED] T40331.145

[GRAPHIC] [TIFF OMITTED] T40331.146

[GRAPHIC] [TIFF OMITTED] T40331.147

[GRAPHIC] [TIFF OMITTED] T40331.148

[GRAPHIC] [TIFF OMITTED] T40331.149

[GRAPHIC] [TIFF OMITTED] T40331.150

[GRAPHIC] [TIFF OMITTED] T40331.151

[GRAPHIC] [TIFF OMITTED] T40331.152

[GRAPHIC] [TIFF OMITTED] T40331.153

[GRAPHIC] [TIFF OMITTED] T40331.154

[GRAPHIC] [TIFF OMITTED] T40331.155

[GRAPHIC] [TIFF OMITTED] T40331.156

[GRAPHIC] [TIFF OMITTED] T40331.157

[GRAPHIC] [TIFF OMITTED] T40331.158

[GRAPHIC] [TIFF OMITTED] T40331.159

[GRAPHIC] [TIFF OMITTED] T40331.160

[GRAPHIC] [TIFF OMITTED] T40331.161

[GRAPHIC] [TIFF OMITTED] T40331.162

[GRAPHIC] [TIFF OMITTED] T40331.163

[GRAPHIC] [TIFF OMITTED] T40331.164

[GRAPHIC] [TIFF OMITTED] T40331.165

[GRAPHIC] [TIFF OMITTED] T40331.166

[GRAPHIC] [TIFF OMITTED] T40331.167

[GRAPHIC] [TIFF OMITTED] T40331.168

[GRAPHIC] [TIFF OMITTED] T40331.169

[GRAPHIC] [TIFF OMITTED] T40331.170

[GRAPHIC] [TIFF OMITTED] T40331.171

[GRAPHIC] [TIFF OMITTED] T40331.172

[GRAPHIC] [TIFF OMITTED] T40331.173

[GRAPHIC] [TIFF OMITTED] T40331.174

[GRAPHIC] [TIFF OMITTED] T40331.175

[GRAPHIC] [TIFF OMITTED] T40331.176

[GRAPHIC] [TIFF OMITTED] T40331.177

[GRAPHIC] [TIFF OMITTED] T40331.178

[GRAPHIC] [TIFF OMITTED] T40331.179

[GRAPHIC] [TIFF OMITTED] T40331.180

[GRAPHIC] [TIFF OMITTED] T40331.181

[GRAPHIC] [TIFF OMITTED] T40331.182

[GRAPHIC] [TIFF OMITTED] T40331.183

[GRAPHIC] [TIFF OMITTED] T40331.184

[GRAPHIC] [TIFF OMITTED] T40331.185

[GRAPHIC] [TIFF OMITTED] T40331.186

[GRAPHIC] [TIFF OMITTED] T40331.187

[GRAPHIC] [TIFF OMITTED] T40331.188

[GRAPHIC] [TIFF OMITTED] T40331.189

[GRAPHIC] [TIFF OMITTED] T40331.190

[GRAPHIC] [TIFF OMITTED] T40331.191

[GRAPHIC] [TIFF OMITTED] T40331.192

[GRAPHIC] [TIFF OMITTED] T40331.193

[GRAPHIC] [TIFF OMITTED] T40331.194

[GRAPHIC] [TIFF OMITTED] T40331.195

[GRAPHIC] [TIFF OMITTED] T40331.196

[GRAPHIC] [TIFF OMITTED] T40331.197

[GRAPHIC] [TIFF OMITTED] T40331.198

[GRAPHIC] [TIFF OMITTED] T40331.199

[GRAPHIC] [TIFF OMITTED] T40331.200

[GRAPHIC] [TIFF OMITTED] T40331.201

[GRAPHIC] [TIFF OMITTED] T40331.202

[GRAPHIC] [TIFF OMITTED] T40331.203

[GRAPHIC] [TIFF OMITTED] T40331.204

[GRAPHIC] [TIFF OMITTED] T40331.205

[GRAPHIC] [TIFF OMITTED] T40331.206

[GRAPHIC] [TIFF OMITTED] T40331.207

[GRAPHIC] [TIFF OMITTED] T40331.208

[GRAPHIC] [TIFF OMITTED] T40331.209

[GRAPHIC] [TIFF OMITTED] T40331.210

[GRAPHIC] [TIFF OMITTED] T40331.211

[GRAPHIC] [TIFF OMITTED] T40331.212

[GRAPHIC] [TIFF OMITTED] T40331.213

[GRAPHIC] [TIFF OMITTED] T40331.214

[GRAPHIC] [TIFF OMITTED] T40331.215

[GRAPHIC] [TIFF OMITTED] T40331.216

[GRAPHIC] [TIFF OMITTED] T40331.217

[GRAPHIC] [TIFF OMITTED] T40331.218

[GRAPHIC] [TIFF OMITTED] T40331.219

[GRAPHIC] [TIFF OMITTED] T40331.220

[GRAPHIC] [TIFF OMITTED] T40331.221

[GRAPHIC] [TIFF OMITTED] T40331.222

[GRAPHIC] [TIFF OMITTED] T40331.223

[GRAPHIC] [TIFF OMITTED] T40331.224

[GRAPHIC] [TIFF OMITTED] T40331.225

[GRAPHIC] [TIFF OMITTED] T40331.226

[GRAPHIC] [TIFF OMITTED] T40331.227

[GRAPHIC] [TIFF OMITTED] T40331.228

[GRAPHIC] [TIFF OMITTED] T40331.229

[GRAPHIC] [TIFF OMITTED] T40331.230

[GRAPHIC] [TIFF OMITTED] T40331.231

[GRAPHIC] [TIFF OMITTED] T40331.232

[GRAPHIC] [TIFF OMITTED] T40331.233

[GRAPHIC] [TIFF OMITTED] T40331.234

[GRAPHIC] [TIFF OMITTED] T40331.235

[GRAPHIC] [TIFF OMITTED] T40331.236

[GRAPHIC] [TIFF OMITTED] T40331.237

[GRAPHIC] [TIFF OMITTED] T40331.238

[GRAPHIC] [TIFF OMITTED] T40331.239

[GRAPHIC] [TIFF OMITTED] T40331.240

[GRAPHIC] [TIFF OMITTED] T40331.241

[GRAPHIC] [TIFF OMITTED] T40331.242

[GRAPHIC] [TIFF OMITTED] T40331.243

[GRAPHIC] [TIFF OMITTED] T40331.244

[GRAPHIC] [TIFF OMITTED] T40331.245

[GRAPHIC] [TIFF OMITTED] T40331.246

[GRAPHIC] [TIFF OMITTED] T40331.247

[GRAPHIC] [TIFF OMITTED] T40331.248

[GRAPHIC] [TIFF OMITTED] T40331.249

[GRAPHIC] [TIFF OMITTED] T40331.250

[GRAPHIC] [TIFF OMITTED] T40331.251

[GRAPHIC] [TIFF OMITTED] T40331.252

[GRAPHIC] [TIFF OMITTED] T40331.253

[GRAPHIC] [TIFF OMITTED] T40331.254

[GRAPHIC] [TIFF OMITTED] T40331.255

[GRAPHIC] [TIFF OMITTED] T40331.256

[GRAPHIC] [TIFF OMITTED] T40331.257

[GRAPHIC] [TIFF OMITTED] T40331.258

[GRAPHIC] [TIFF OMITTED] T40331.259

[GRAPHIC] [TIFF OMITTED] T40331.260

[GRAPHIC] [TIFF OMITTED] T40331.261

[GRAPHIC] [TIFF OMITTED] T40331.262

[GRAPHIC] [TIFF OMITTED] T40331.263

[GRAPHIC] [TIFF OMITTED] T40331.264

[GRAPHIC] [TIFF OMITTED] T40331.265

[GRAPHIC] [TIFF OMITTED] T40331.266

[GRAPHIC] [TIFF OMITTED] T40331.267

[GRAPHIC] [TIFF OMITTED] T40331.268

[GRAPHIC] [TIFF OMITTED] T40331.269

[GRAPHIC] [TIFF OMITTED] T40331.270

[GRAPHIC] [TIFF OMITTED] T40331.271

[GRAPHIC] [TIFF OMITTED] T40331.272

[GRAPHIC] [TIFF OMITTED] T40331.273

[GRAPHIC] [TIFF OMITTED] T40331.274

[GRAPHIC] [TIFF OMITTED] T40331.275

[GRAPHIC] [TIFF OMITTED] T40331.276

[GRAPHIC] [TIFF OMITTED] T40331.277

[GRAPHIC] [TIFF OMITTED] T40331.278

[GRAPHIC] [TIFF OMITTED] T40331.279

[GRAPHIC] [TIFF OMITTED] T40331.280

[GRAPHIC] [TIFF OMITTED] T40331.281

[GRAPHIC] [TIFF OMITTED] T40331.282

[GRAPHIC] [TIFF OMITTED] T40331.283

[GRAPHIC] [TIFF OMITTED] T40331.284

[GRAPHIC] [TIFF OMITTED] T40331.285

[GRAPHIC] [TIFF OMITTED] T40331.286

[GRAPHIC] [TIFF OMITTED] T40331.287

[GRAPHIC] [TIFF OMITTED] T40331.288

[GRAPHIC] [TIFF OMITTED] T40331.289

[GRAPHIC] [TIFF OMITTED] T40331.290

[GRAPHIC] [TIFF OMITTED] T40331.291

[GRAPHIC] [TIFF OMITTED] T40331.292

[GRAPHIC] [TIFF OMITTED] T40331.293

[GRAPHIC] [TIFF OMITTED] T40331.294

[GRAPHIC] [TIFF OMITTED] T40331.295

[GRAPHIC] [TIFF OMITTED] T40331.296

[GRAPHIC] [TIFF OMITTED] T40331.297

[GRAPHIC] [TIFF OMITTED] T40331.298

[GRAPHIC] [TIFF OMITTED] T40331.299

[GRAPHIC] [TIFF OMITTED] T40331.300

[GRAPHIC] [TIFF OMITTED] T40331.301

[GRAPHIC] [TIFF OMITTED] T40331.302

[GRAPHIC] [TIFF OMITTED] T40331.303

[GRAPHIC] [TIFF OMITTED] T40331.304

[GRAPHIC] [TIFF OMITTED] T40331.305

[GRAPHIC] [TIFF OMITTED] T40331.306

[GRAPHIC] [TIFF OMITTED] T40331.307

[GRAPHIC] [TIFF OMITTED] T40331.308

[GRAPHIC] [TIFF OMITTED] T40331.309

[GRAPHIC] [TIFF OMITTED] T40331.310

[GRAPHIC] [TIFF OMITTED] T40331.311

[GRAPHIC] [TIFF OMITTED] T40331.312

[GRAPHIC] [TIFF OMITTED] T40331.313

[GRAPHIC] [TIFF OMITTED] T40331.314

    Race and Redistricting in the 1990s (Bernard Grofman, ed., 1998)

[GRAPHIC] [TIFF OMITTED] T40331.315

[GRAPHIC] [TIFF OMITTED] T40331.316

[GRAPHIC] [TIFF OMITTED] T40331.317

[GRAPHIC] [TIFF OMITTED] T40331.318

[GRAPHIC] [TIFF OMITTED] T40331.319

[GRAPHIC] [TIFF OMITTED] T40331.320

[GRAPHIC] [TIFF OMITTED] T40331.321

[GRAPHIC] [TIFF OMITTED] T40331.322

[GRAPHIC] [TIFF OMITTED] T40331.323

[GRAPHIC] [TIFF OMITTED] T40331.324

[GRAPHIC] [TIFF OMITTED] T40331.325

[GRAPHIC] [TIFF OMITTED] T40331.326

[GRAPHIC] [TIFF OMITTED] T40331.327

[GRAPHIC] [TIFF OMITTED] T40331.328

[GRAPHIC] [TIFF OMITTED] T40331.329

[GRAPHIC] [TIFF OMITTED] T40331.330

[GRAPHIC] [TIFF OMITTED] T40331.331

[GRAPHIC] [TIFF OMITTED] T40331.332

[GRAPHIC] [TIFF OMITTED] T40331.333

[GRAPHIC] [TIFF OMITTED] T40331.334

[GRAPHIC] [TIFF OMITTED] T40331.335

[GRAPHIC] [TIFF OMITTED] T40331.336

[GRAPHIC] [TIFF OMITTED] T40331.337

[GRAPHIC] [TIFF OMITTED] T40331.338

[GRAPHIC] [TIFF OMITTED] T40331.339

[GRAPHIC] [TIFF OMITTED] T40331.340

[GRAPHIC] [TIFF OMITTED] T40331.341

[GRAPHIC] [TIFF OMITTED] T40331.342

[GRAPHIC] [TIFF OMITTED] T40331.343

[GRAPHIC] [TIFF OMITTED] T40331.344

[GRAPHIC] [TIFF OMITTED] T40331.345

[GRAPHIC] [TIFF OMITTED] T40331.346

[GRAPHIC] [TIFF OMITTED] T40331.347

[GRAPHIC] [TIFF OMITTED] T40331.348

[GRAPHIC] [TIFF OMITTED] T40331.349

[GRAPHIC] [TIFF OMITTED] T40331.350

[GRAPHIC] [TIFF OMITTED] T40331.351

[GRAPHIC] [TIFF OMITTED] T40331.352

[GRAPHIC] [TIFF OMITTED] T40331.353

[GRAPHIC] [TIFF OMITTED] T40331.354

[GRAPHIC] [TIFF OMITTED] T40331.355

[GRAPHIC] [TIFF OMITTED] T40331.356

[GRAPHIC] [TIFF OMITTED] T40331.357

[GRAPHIC] [TIFF OMITTED] T40331.358

[GRAPHIC] [TIFF OMITTED] T40331.359

[GRAPHIC] [TIFF OMITTED] T40331.360

[GRAPHIC] [TIFF OMITTED] T40331.361

[GRAPHIC] [TIFF OMITTED] T40331.362

[GRAPHIC] [TIFF OMITTED] T40331.363

[GRAPHIC] [TIFF OMITTED] T40331.364

[GRAPHIC] [TIFF OMITTED] T40331.365

[GRAPHIC] [TIFF OMITTED] T40331.366

[GRAPHIC] [TIFF OMITTED] T40331.367

[GRAPHIC] [TIFF OMITTED] T40331.368

[GRAPHIC] [TIFF OMITTED] T40331.369

[GRAPHIC] [TIFF OMITTED] T40331.370

[GRAPHIC] [TIFF OMITTED] T40331.371

[GRAPHIC] [TIFF OMITTED] T40331.372

[GRAPHIC] [TIFF OMITTED] T40331.373

[GRAPHIC] [TIFF OMITTED] T40331.374

[GRAPHIC] [TIFF OMITTED] T40331.375

[GRAPHIC] [TIFF OMITTED] T40331.376

[GRAPHIC] [TIFF OMITTED] T40331.377

[GRAPHIC] [TIFF OMITTED] T40331.378

[GRAPHIC] [TIFF OMITTED] T40331.379

[GRAPHIC] [TIFF OMITTED] T40331.380

[GRAPHIC] [TIFF OMITTED] T40331.381

[GRAPHIC] [TIFF OMITTED] T40331.382

[GRAPHIC] [TIFF OMITTED] T40331.383

[GRAPHIC] [TIFF OMITTED] T40331.384

[GRAPHIC] [TIFF OMITTED] T40331.385

[GRAPHIC] [TIFF OMITTED] T40331.386

[GRAPHIC] [TIFF OMITTED] T40331.387

[GRAPHIC] [TIFF OMITTED] T40331.388

[GRAPHIC] [TIFF OMITTED] T40331.389

[GRAPHIC] [TIFF OMITTED] T40331.390

[GRAPHIC] [TIFF OMITTED] T40331.391

[GRAPHIC] [TIFF OMITTED] T40331.392

[GRAPHIC] [TIFF OMITTED] T40331.393

[GRAPHIC] [TIFF OMITTED] T40331.394

[GRAPHIC] [TIFF OMITTED] T40331.395

[GRAPHIC] [TIFF OMITTED] T40331.396

[GRAPHIC] [TIFF OMITTED] T40331.397

[GRAPHIC] [TIFF OMITTED] T40331.398

[GRAPHIC] [TIFF OMITTED] T40331.399

[GRAPHIC] [TIFF OMITTED] T40331.400

[GRAPHIC] [TIFF OMITTED] T40331.401

[GRAPHIC] [TIFF OMITTED] T40331.402

[GRAPHIC] [TIFF OMITTED] T40331.403

[GRAPHIC] [TIFF OMITTED] T40331.404

[GRAPHIC] [TIFF OMITTED] T40331.405

[GRAPHIC] [TIFF OMITTED] T40331.406

[GRAPHIC] [TIFF OMITTED] T40331.407

[GRAPHIC] [TIFF OMITTED] T40331.408

[GRAPHIC] [TIFF OMITTED] T40331.409

[GRAPHIC] [TIFF OMITTED] T40331.410

[GRAPHIC] [TIFF OMITTED] T40331.411

[GRAPHIC] [TIFF OMITTED] T40331.412

[GRAPHIC] [TIFF OMITTED] T40331.413

[GRAPHIC] [TIFF OMITTED] T40331.414

[GRAPHIC] [TIFF OMITTED] T40331.415

[GRAPHIC] [TIFF OMITTED] T40331.416

[GRAPHIC] [TIFF OMITTED] T40331.417

[GRAPHIC] [TIFF OMITTED] T40331.418

[GRAPHIC] [TIFF OMITTED] T40331.419

[GRAPHIC] [TIFF OMITTED] T40331.420

[GRAPHIC] [TIFF OMITTED] T40331.421

[GRAPHIC] [TIFF OMITTED] T40331.422

[GRAPHIC] [TIFF OMITTED] T40331.423

[GRAPHIC] [TIFF OMITTED] T40331.424

[GRAPHIC] [TIFF OMITTED] T40331.425

[GRAPHIC] [TIFF OMITTED] T40331.426

[GRAPHIC] [TIFF OMITTED] T40331.427

[GRAPHIC] [TIFF OMITTED] T40331.428

[GRAPHIC] [TIFF OMITTED] T40331.429

[GRAPHIC] [TIFF OMITTED] T40331.430

[GRAPHIC] [TIFF OMITTED] T40331.431

[GRAPHIC] [TIFF OMITTED] T40331.432

[GRAPHIC] [TIFF OMITTED] T40331.433

[GRAPHIC] [TIFF OMITTED] T40331.434

[GRAPHIC] [TIFF OMITTED] T40331.435

[GRAPHIC] [TIFF OMITTED] T40331.436

[GRAPHIC] [TIFF OMITTED] T40331.437

[GRAPHIC] [TIFF OMITTED] T40331.438

[GRAPHIC] [TIFF OMITTED] T40331.439

[GRAPHIC] [TIFF OMITTED] T40331.440

[GRAPHIC] [TIFF OMITTED] T40331.441

[GRAPHIC] [TIFF OMITTED] T40331.442

[GRAPHIC] [TIFF OMITTED] T40331.443

[GRAPHIC] [TIFF OMITTED] T40331.444

[GRAPHIC] [TIFF OMITTED] T40331.445

[GRAPHIC] [TIFF OMITTED] T40331.446

[GRAPHIC] [TIFF OMITTED] T40331.447

[GRAPHIC] [TIFF OMITTED] T40331.448

[GRAPHIC] [TIFF OMITTED] T40331.449

[GRAPHIC] [TIFF OMITTED] T40331.450

[GRAPHIC] [TIFF OMITTED] T40331.451

[GRAPHIC] [TIFF OMITTED] T40331.452

[GRAPHIC] [TIFF OMITTED] T40331.453

[GRAPHIC] [TIFF OMITTED] T40331.454

[GRAPHIC] [TIFF OMITTED] T40331.455

[GRAPHIC] [TIFF OMITTED] T40331.456

[GRAPHIC] [TIFF OMITTED] T40331.457

[GRAPHIC] [TIFF OMITTED] T40331.458

[GRAPHIC] [TIFF OMITTED] T40331.459

[GRAPHIC] [TIFF OMITTED] T40331.460

[GRAPHIC] [TIFF OMITTED] T40331.461

[GRAPHIC] [TIFF OMITTED] T40331.462

[GRAPHIC] [TIFF OMITTED] T40331.463

[GRAPHIC] [TIFF OMITTED] T40331.464

[GRAPHIC] [TIFF OMITTED] T40331.465

[GRAPHIC] [TIFF OMITTED] T40331.466

[GRAPHIC] [TIFF OMITTED] T40331.467

[GRAPHIC] [TIFF OMITTED] T40331.468

[GRAPHIC] [TIFF OMITTED] T40331.469

[GRAPHIC] [TIFF OMITTED] T40331.470

[GRAPHIC] [TIFF OMITTED] T40331.471

[GRAPHIC] [TIFF OMITTED] T40331.472

[GRAPHIC] [TIFF OMITTED] T40331.473

[GRAPHIC] [TIFF OMITTED] T40331.474

[GRAPHIC] [TIFF OMITTED] T40331.475

[GRAPHIC] [TIFF OMITTED] T40331.476

[GRAPHIC] [TIFF OMITTED] T40331.477

[GRAPHIC] [TIFF OMITTED] T40331.478

[GRAPHIC] [TIFF OMITTED] T40331.479

[GRAPHIC] [TIFF OMITTED] T40331.480

[GRAPHIC] [TIFF OMITTED] T40331.481

[GRAPHIC] [TIFF OMITTED] T40331.482

[GRAPHIC] [TIFF OMITTED] T40331.483

[GRAPHIC] [TIFF OMITTED] T40331.484

[GRAPHIC] [TIFF OMITTED] T40331.485

[GRAPHIC] [TIFF OMITTED] T40331.486

[GRAPHIC] [TIFF OMITTED] T40331.487

[GRAPHIC] [TIFF OMITTED] T40331.488

[GRAPHIC] [TIFF OMITTED] T40331.489

[GRAPHIC] [TIFF OMITTED] T40331.490

[GRAPHIC] [TIFF OMITTED] T40331.491

[GRAPHIC] [TIFF OMITTED] T40331.492

[GRAPHIC] [TIFF OMITTED] T40331.493

[GRAPHIC] [TIFF OMITTED] T40331.494

[GRAPHIC] [TIFF OMITTED] T40331.495

[GRAPHIC] [TIFF OMITTED] T40331.496

[GRAPHIC] [TIFF OMITTED] T40331.497

[GRAPHIC] [TIFF OMITTED] T40331.498

[GRAPHIC] [TIFF OMITTED] T40331.499

[GRAPHIC] [TIFF OMITTED] T40331.500

[GRAPHIC] [TIFF OMITTED] T40331.501

[GRAPHIC] [TIFF OMITTED] T40331.502

[GRAPHIC] [TIFF OMITTED] T40331.503

[GRAPHIC] [TIFF OMITTED] T40331.504

[GRAPHIC] [TIFF OMITTED] T40331.505

[GRAPHIC] [TIFF OMITTED] T40331.506

[GRAPHIC] [TIFF OMITTED] T40331.507

           Text of the Voting Rights Act of 1965, as amended

[GRAPHIC] [TIFF OMITTED] T40331.508

[GRAPHIC] [TIFF OMITTED] T40331.509

[GRAPHIC] [TIFF OMITTED] T40331.510

[GRAPHIC] [TIFF OMITTED] T40331.511

[GRAPHIC] [TIFF OMITTED] T40331.512

[GRAPHIC] [TIFF OMITTED] T40331.513

[GRAPHIC] [TIFF OMITTED] T40331.514

[GRAPHIC] [TIFF OMITTED] T40331.515

[GRAPHIC] [TIFF OMITTED] T40331.516

[GRAPHIC] [TIFF OMITTED] T40331.517

[GRAPHIC] [TIFF OMITTED] T40331.518

[GRAPHIC] [TIFF OMITTED] T40331.519

[GRAPHIC] [TIFF OMITTED] T40331.520

[GRAPHIC] [TIFF OMITTED] T40331.521

[GRAPHIC] [TIFF OMITTED] T40331.522

[GRAPHIC] [TIFF OMITTED] T40331.523

[GRAPHIC] [TIFF OMITTED] T40331.524

[GRAPHIC] [TIFF OMITTED] T40331.525

[GRAPHIC] [TIFF OMITTED] T40331.526

[GRAPHIC] [TIFF OMITTED] T40331.527

[GRAPHIC] [TIFF OMITTED] T40331.528

[GRAPHIC] [TIFF OMITTED] T40331.529

[GRAPHIC] [TIFF OMITTED] T40331.530

[GRAPHIC] [TIFF OMITTED] T40331.531

[GRAPHIC] [TIFF OMITTED] T40331.532

[GRAPHIC] [TIFF OMITTED] T40331.533

[GRAPHIC] [TIFF OMITTED] T40331.534

[GRAPHIC] [TIFF OMITTED] T40331.535

[GRAPHIC] [TIFF OMITTED] T40331.536

[GRAPHIC] [TIFF OMITTED] T40331.537

                                 <all>

</pre></body></html>
